<html>
<title> - DEPARTMENT OF DEFENSE'S RESPONSE TO THE ATTACK ON U.S. FACILITIES IN BENGHAZI, LIBYA, AND THE FINDINGS OF ITS INTERNAL REVIEW FOLLOWING THE ATTACK</title>
<body><pre>[Senate Hearing 113-164]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-164
 
 DEPARTMENT OF DEFENSE'S RESPONSE TO THE ATTACK ON U.S. FACILITIES IN 
BENGHAZI, LIBYA, AND THE FINDINGS OF ITS INTERNAL REVIEW FOLLOWING THE 
                                 ATTACK 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2013

                               __________

         Printed for the use of the Committee on Armed Services

        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-489 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS S. KING, JR., Maine

                   Richard D. DeBobes, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Department Of Defense's Response to the Attack on U.S. Facilities in 
Benghazi, Libya, and the Findings of its Internal Review Following the 
                                 Attack

                            february 7, 2013

                                                                   Page

Panetta, Hon. Leon E., Secretary of Defense......................    10
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....    19
Appendix A.......................................................    98
Appendix B.......................................................   100
Appendix C.......................................................   103
Appendix D.......................................................   142

                                 (iii)


 DEPARTMENT OF DEFENSE'S RESPONSE TO THE ATTACK ON U.S. FACILITIES IN 
BENGHAZI, LIBYA, AND THE FINDINGS OF ITS INTERNAL REVIEW FOLLOWING THE 
                                 ATTACK

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Hagan, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Inhofe, McCain, 
Chambliss, Wicker, Ayotte, Graham, Vitter, Blunt, Lee, and 
Cruz.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Barry C. Walker, security officer.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jonathan D. Clark, counsel; Richard 
W. Fieldhouse, professional staff member; Michael J. Kuiken, 
professional staff member; Peter K. Levine, general counsel; 
Jason W. Maroney, counsel; Thomas K. McConnell, professional 
staff member; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; John H. Quirk V, professional staff 
member; and Russell L. Shaffer, counsel.
    Minority staff members present: Adam J. Barker, 
professional staff member; Christian D. Brose, professional 
staff member; Thomas W. Goffus, professional staff member; 
Anthony J. Lazarski, professional staff member; Daniel A. 
Lerner, professional staff member; and Lucian L. Niemeyer, 
professional staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, Brian F. Sebold, and Lauren M. Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeffrey Fatora, assistant to Senator 
Nelson; Jason Rauch, assistant to Senator McCaskill; Brian 
Nagle, assistant to Senator Hagan; Mara Boggs, assistant to 
Senator Manchin; Chad Kreikemeier, assistant to Senator 
Shaheen; Elana Broitman, assistant to Senator Gillibrand; Ethan 
Saxon, assistant to Senator Blumenthal; Marta McLellan Ross, 
assistant to Senator Donnelly, Nick Ikeda, assistant to Senator 
Hirono; Mary Naylor, assistant to Senator Kaine; Jim Catella, 
assistant to Senator King; Joel Starr, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Todd 
Harmer, assistant to Senator Chambliss; Joseph Lai, assistant 
to Senator Wicker; Brad Bowman, assistant to Senator Ayotte; 
Craig Abele, assistant to Senator Graham; Joshua Hodges, 
assistant to Senator Vitter; Charles Prosch, assistant to 
Senator Blunt; Peter Blair, assistant to Senator Lee; and 
Brooke Bacak, assistant to Senator Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee welcomes the Secretary of Defense, Leon Panetta, and 
the Chairman of the Joint Chiefs of Staff, General Martin 
Dempsey, to testify about the Department of Defense's (DOD) 
response to the deadly terrorist attack on the U.S. Temporary 
Mission Facility and Annex in Benghazi, Libya, on September 11 
and 12 of last year and the findings of its internal review 
following that attack, including lessons learned from Benghazi.
    I want to remind colleagues that we will be receiving 
testimony next Tuesday morning on the impacts of sequestration 
and/or a full-year Continuing Resolution (CR) on DOD and our 
witnesses there will be the Deputy Secretary of Defense, the 
Department's Comptroller, and the Joint Chiefs of Staff.
    I hope that today's hearing will inform this committee of 
any changes that have been made or are being proposed to the 
posture of U.S. forces overseas to respond to similar terrorist 
attacks in the future as we saw in Benghazi and DOD's 
assessment of the recommendations that are included in the 
Secretary of State's Accountability Review Board (ARB) that 
affect DOD's installations or operations overseas.
    In November, DOD released a timeline of its response to the 
assault of September 11 and 12 in Benghazi, including the 
decisions made on the deployment of various forces based in the 
United States or overseas. A copy of this timeline will be put 
in the record. I think we each have it and it will be included 
in the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. According to the timeline, within 20 
minutes of the assault on the State Department's Temporary 
Mission Facility DOD's first action was to redirect an unmanned 
surveillance platform from a mission over Darnah, Libya, to 
provide better awareness of the events on the ground in 
Benghazi.
    Following consultations at the White House, Secretary 
Panetta convened a series of meetings in the Pentagon to 
discuss options for expanding DOD's response, as well as to 
prepare for the potential outbreak of further violence 
throughout the region. During these meetings, Secretary Panetta 
authorized a number of deployments. I hope that Secretary 
Panetta and Chairman Dempsey will provide the committee with 
details on the circumstances that led them to these decisions.
    Since September, there's been a great deal of focus on the 
supporting role that the Marine Corps guards play in many U.S. 
diplomatic missions abroad. The Marine Corps did not have an 
element in Benghazi as it was not an embassy, but a Temporary 
Mission Facility. The committee will be closely monitoring the 
use of these marines. Our National Defense Authorization Act 
for Fiscal Year 2013 requires the Secretary of Defense to 
conduct an assessment of the mission of the Marine Security 
Guard (MSG) program, whether it should be expanded, and a 
report to Congress on the results of this review.
    More immediately, the provision requires the Secretary to 
develop a plan to increase the number of marines in the MSG 
program by up to 1,000 marines to improve security at our 
embassies, consulates, and other diplomatic facilities. Based 
on Secretary of State Clinton's recent testimony before 
Congress, it is clear that the State Department and DOD are 
already consulting on this review.
    The Secretary of State's ARB focused on the need to ensure 
the State Department puts greater focus on high-risk, high-
threat posts, as well as posts where the host nation, despite 
having the will to protect diplomatic facilities, does not have 
the capacity to protect them.
    In some cases, these posts are located in countries where 
DOD and the State Department have assistance programs with 
similar objectives. These are perhaps areas where the two 
Departments can explore whether additional collaboration is 
appropriate.
    During Secretary of State Clinton's recent testimony before 
Congress, she emphasized the importance of properly resourcing 
U.S. Africa Command (AFRICOM). AFRICOM reached full operational 
capability less than 5 years ago and has been what's called an 
economy-of-force effort to date.
    The events of last September raise questions about the 
adequacy of DOD's resourcing with respect to AFRICOM in terms 
of funding, assigned personnel, and intelligence, surveillance, 
and reconnaissance support. As an example, until the beginning 
of the current fiscal year, AFRICOM did not have a dedicated 
Commander's In Extremis Force, which is an emergency standby 
force, but rather it shared its force with U.S. European 
Command.
    In recent years, the committee has sought to provide DOD 
with flexible AFRICOM-specific authorities to support the 
burgeoning requirements of the command, such as the African 
Cooperation Authority, targeted train-and-equip authorities to 
support deployments of the African Union mission in Somalia, 
and flexible military construction authorities. The committee 
looks forward to learning whether any additional actions might 
be taken to further support AFRICOM's programs and operations.
    Unfortunately, today much of the discourse about the events 
surrounding the deadly attack against our facilities and people 
in Benghazi have focused on the preparation and dissemination 
of unclassified talking points that were prepared at the 
request of Congress by our Nation's intelligence professionals 
and approved by their most senior leadership. These talking 
points are relevant, but even more relevant than finding out, 
as Secretary Clinton said, why these militants decided as they 
did, is to find those militants and bring them to justice and 
to do everything that we can to prevent it from ever happening 
again.
    Since the events in Benghazi, individuals and groups with 
the same motivations as those that attacked the U.S. facility 
in Benghazi have attempted to expand their territory in the 
nation of Mali, as well as take hostage dozens of innocent 
civilians and attempt to destroy a natural gas facility in 
Algeria. Today the United States is providing its unique 
enabling capabilities to the French military operations and the 
deployment of African forces from nations around the region.
    As Secretary Panetta has stated repeatedly, it is critical 
that the United States continue to pursue those groups and 
individuals seeking to attack the United States and our 
interests. I expect the Secretary and the Chairman this morning 
will provide their assessment of the threat that's posed by 
these groups to regional and international security, as well as 
our effort to counter their operations.
    The four Americans that our Nation lost last September were 
among the very best expression of what it means to be an 
American--hard-working, energetic, optimistic, dedicated, not 
just to furthering the interests of their own Nation, but to 
ensuring that others could enjoy the same freedom and 
opportunity that we hold so dear. We honor the sacrifice of 
those Americans and in their name we will do everything that we 
can to prevent a repetition of Benghazi.
    Since this is likely Secretary Panetta's last hearing 
before this committee--and a broad smile has now appeared upon 
his face--I want to take a moment to offer my personal thanks 
to Secretary Leon Panetta, for your service to our country, for 
your leadership at DOD. Secretary Panetta, you have exhibited 
qualities of honesty, candor, humility, fair-mindedness, and a 
great sense of humor. All of those were essential during the 
tenure that you had as Secretary. So, we thank you, Leon, for 
your service to our Nation and for your great cooperation as 
well with this committee. [Applause.]
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I agree with the last part of your statement there. I hold 
both of our witnesses in the highest regard, and in the case of 
Secretary Panetta, I just whispered to my friend, Senator 
McCain, that two of my favorite Democrats in the House were 
Mineta and Panetta, and that has always been the case. In fact, 
I rejoiced at the time that you received the positions and the 
appointments that you have had.
    It's long overdue that this committee is holding a hearing 
to examine the facts surrounding the terrorist attacks in 
Benghazi on September 11, 2012, that left four Americans dead: 
Ambassador Christopher Stevens, Information Management Officer 
Sean Smith, and two embassy security personnel, Glen Doherty 
and Tyrone Woods--deaths that I believe could have been 
prevented.
    What's become clear over the last 5 months is that the 
United States is woefully unprepared for what occurred in 
Benghazi. What has also been clear is that following the 
attack, the administration provided the American people 
inaccurate information about the true nature of the catastrophe 
and those events in Benghazi. In my discussions with the most 
senior administrative officials, I've been told that on the 
night of the tragedy, although there was confusion about the 
nature of the first attack on the compound where the Ambassador 
was located, the second wave of attacks, which was on the 
annex, were ``unequivocally a terrorist attack.'' I have no 
doubt about that, that they were.
    This was apparent because an angry mob doesn't use 
coordinated mortars and rocket propelled grenades (RPG). So I 
have no question about that in my mind.
    Despite the clear evidence, it took this administration 
over a week to publicly admit, as many of us knew already, that 
it was a terrorist attack, not simply a protest that turned 
violent, as Ambassador Susan Rice adamantly and incorrectly 
insisted. While some may downplay the difference, I can't. Al 
Qaeda-affiliated terrorists were involved in the murder of four 
Americans, including our U.S. Ambassador to Libya. This fact 
should call into question the effectiveness of our 
counterterrorism strategy today in North Africa and beyond.
    I hope our hearing today will provide the committee with a 
thorough accounting of the facts leading up to the attack, as 
well as what has been done in months following to ensure that 
this tragedy doesn't happen again. In the months leading up to 
September 11, there were no fewer than four significant attacks 
against the western interests in the city.
    I'd like to have you go ahead and put that timeline chart 
back up there and leave it up during the course of this 
hearing, because each member up here has a copy of this and 
there are certain things that happened we all know.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. We know that on May 22, the Red Cross was 
hit with an RPG. They left town. We know that on June 11, the 
British Ambassador's motorcade was attacked by an RPG. They 
left town. We know that on April 10, the United Nations convoy 
was hit by an improvised explosive device (IED), and on June 6, 
the U.S. Consulate was attacked with a bomb, and many, many, 
many other things. But we stayed; we didn't leave.
    While I understand the State Department has primary 
responsibility for the protection of American diplomats around 
the world, I also understand that DOD plays an important 
supporting role to this effort. I expect our witnesses to 
explain today why, given the clear indicators and warnings that 
threats to the United States' interests in Benghazi and 
throughout North Africa were growing, was DOD not placed on a 
heightened alert status or adequately postured to respond in a 
timely manner to a contingency of this nature, especially on 
the anniversary of September 11?
    Our witnesses have repeatedly stated that there were no 
military assets available in the region that could have acted 
in time potentially to avert this disaster, and I have to ask, 
why not? The January 2012 Defense Strategic Guidance directs 
that we will ``rebalance toward the Asian Pacific,'' and goes 
on to say that in Africa and Latin America, ``we will develop 
innovative, low-cost, and small-footprint approaches to achieve 
our security objectives.'' I don't agree. That's no way to 
achieve our security objectives. Benghazi highlights the 
strategic risks of this new strategy in places like Africa, 
risks certain to be magnified by looming defense cuts.
    This committee must get a thorough accounting of exactly 
what was known and when and what DOD did to respond to the 
escalating situation in Benghazi and why it was not better 
prepared. Additionally, our witnesses should address whether or 
not the current relationship between the State and the Defense 
Departments is sufficient to meet the security demands of our 
overseas presence.
    I've made over 100 African country visits. I know Africa, 
and what happened in Benghazi vividly illustrates what I've 
been talking about for a long period of time, that is the 
growing threat to the United States' interests on the African 
continent from terrorist groups such as Al-Shabab, al Qaeda in 
the Islamic Maghreb, and Boko Haram.
    General Ham, the Commander of AFRICOM, who has been doing a 
great job with limited resources, I must say, said back in 2011 
that terrorist organizations in East Africa, in the deserts of 
North Africa and Nigeria, ``have very explicity and publicity 
voiced intent to target westerners and the United States 
specifically.'' Secretary Panetta, the same year you said: 
``The longer you delay, the longer you avoid trying to assign 
some assistance there, the more dangerous these groups become 
and the greater the instability that develops here. There are 
elements there in Central Africa that either have ties to al 
Qaeda or that present the forces of terrorism in their own, and 
that's what's dangerous.''
    As bad as everything that I've stated is, what I think is 
worse is the cover-up. It was obvious from the information we 
had on September 11 that the second wave--not the first wave, 
the second wave; we have two different waves there; we had the 
compound, which we'll talk about in more detail during the 
questions, and then we had the annex--but that the second wave 
of attacks on the annex were unequivocally a terrorist attack, 
and we knew it right at the time.
    Despite this information, Ambassador Rice said something 
that was totally false to the American people on all five major 
Sunday news shows, implying that the attacks were in response 
to an anti-Islam video that spurred protests across the region. 
In this sense, you are probably the wrong witness to have here 
because you'd be unfamiliar with who actually instructed her to 
say that and gave her that faulty information. But that's 
something we hope that we'll be able to get and that's 
something that can't be ignored.
    We sit around all day long and talk about the resources 
that we should have and don't have, not just here, not just in 
this part of the world, but all over the world, and that's 
fine. I think we all understand that. But that's not the big 
problem here. The big problem here is the cover-up that nobody 
talks about and that's the tragedy.
    Thank you, Mr. Chairman.
    Chairman Levin. Secretary Panetta.

    STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE

    Secretary Panetta. Chairman Levin, Senator Inhofe, and 
members of the committee, I appreciate the opportunity to be 
here today to discuss the terrorist attacks on our facilities 
in Benghazi on September 11, 2012. Before I go into my 
testimony, let me just state my deepest thanks to all of you 
for the support and friendship that I've had with all of you on 
both sides of the aisle. I have had the honor to in many ways 
live the American dream as the son of Italian immigrants in the 
various capacities that I've had to serve this country. The 
greatest privilege I think I've had is to serve as an elected 
member in the House of Representatives and have the opportunity 
to work with many of you in that capacity, and then as a member 
of the executive branch had the opportunity to work with you as 
well.
    I thank you for your dedication to the country and I thank 
you for your willingness to serve the United States.
    On that tragic day, as always, DOD was prepared for a wide 
range of contingencies. Just to remind you that the National 
Counterterrorism Center (NCTC) in the 6 months prior to that 
attack identified some 281 threats to U.S. diplomats, 
diplomatic facilities, embassies, ambassadors, and consulates 
worldwide, and obviously Benghazi was one of those almost 300 
areas of concern.
    But unfortunately, there was no specific intelligence or 
indications of an imminent attack on that U.S. facility in 
Benghazi. Frankly, without an adequate warning there was not 
enough time, given the speed of the attack, for armed military 
assets to respond. That's not just my view or General Dempsey's 
view. It was the view of the ARB that studied what happened on 
that day.
    In the months since the tragedy at the Temporary Mission 
Facility and the nearby annex in Benghazi, we've learned that 
there were actually two short-duration attacks that occurred 
some 6 hours apart. Again, there was no specific intelligence 
that indicated that a second attack would occur at the annex, 
which was located some 2 miles away.
    The bottom line is this: that we were not dealing with a 
prolonged or continuous assault, which could have been brought 
to an end by a U.S. military response very simply. Although we 
had forces deployed to the region, time, distance, the lack of 
an adequate warning, events that moved very quickly on the 
ground prevented a more immediate response.
    Despite the uncertainty at the time, DOD and the rest of 
the U.S. Government spared no effort to do everything we could 
to try to save American lives. Before, during, and after the 
attack, every request DOD received we did, we accomplished. But 
again, four American lives were lost and we all have a 
responsibility to make sure that that does not happen again.
    The four Americans who perished in Benghazi--Ambassador 
Stevens, Information Management Officer Sean Smith, and the 
five embassy security personnel, Glen Doherty and Tyrone 
Woods--all were heroes and all were patriots. I had the 
opportunity to join the President, Secretary Clinton, and other 
officials at Andrews Air Force Base for the dignified transfer 
ceremony when the bodies of those heroes were returned home. I 
had the opportunity to meet with their families.
    I believe we all have a solemn responsibility to these 
families and to all the diplomatic personnel who put themselves 
at risk, to find out exactly what happened, to bring those 
involved to justice, to make sure that we're doing everything 
possible to prevent it from happening again, and to ensure the 
safety of our personnel and facilities worldwide.
    To that end, DOD has fully supported efforts by Congress 
and the State Department to review the events and decisions 
surrounding the attacks in Benghazi. We have made every effort 
to respond promptly to numerous requests for additional 
information, to provide briefings, and to provide testimony to 
members and committees in Congress.
    In fact, General Dempsey and I were among the very first 
U.S. Government senior officials to brief Congress on this 
tragedy. We appeared before this committee on September 14, 
2012, 3 days after the attack, and provided the best 
information we had at that point as to what had taken place.
    Additionally, DOD participated in classified briefings and 
answered questions from the Senate Select Committee on 
Intelligence, the Senate Committee on Foreign Affairs, and the 
Senate Committee on Homeland Security and Governmental Affairs, 
even when we were not called to testify. We've also provided 
all requested support to the ARB that was co-chaired by 
Ambassador Pickering and by Admiral Mullen.
    Based on the information we've compiled and the reviews 
that we've conducted, let me describe for you DOD's response to 
the events on September 11, some of the lessons that we've 
learned, and the adjustments we are making to our global force 
posture given continuing unrest throughout North Africa and the 
Middle East. In fact, in many places, if we get a heads-up that 
we need the changes we've made have already resulted in early 
decisions to deploy additional security or withdraw diplomatic 
staff in advance of a crisis from Central America to Khartoum, 
from Tunisia to Yemen, from Egypt to Mali, and others.
    While DOD does not have the primary responsibility for the 
security of U.S. diplomatic facilities around the world, we do 
work closely with the State Department and support them as 
requested. In the months prior to the Benghazi attack, as I've 
said, we received from the Intelligence Community almost 300 
reports on possible threats to American facilities around the 
world. Over the course of the day on September 11, General 
Dempsey and I received a number of reports of possible threats 
to U.S. facilities, including those in Cairo, Egypt. But there 
were no reports of imminent threats to U.S. personnel or 
facilities in Benghazi.
    By our best estimate, the incident at the Temporary Mission 
Facility in Benghazi began at about 3:42 p.m. Eastern Daylight 
Time on September 11. The Embassy in Tripoli was notified of 
the attacks almost immediately and within 17 minutes of the 
initial reports, about 3:59 p.m., AFRICOM directed an unarmed 
and unmanned surveillance aircraft that was nearby to 
reposition overhead the Benghazi facility. My understanding is 
that that unmanned aerial vehicle (UAV) arrived about 1 hour 
and 11 minutes after the attack had begun and was focused on 
the primary facility there to try to determine what was taking 
place.
    Soon after the initial reports about the attack in Benghazi 
were received, General Dempsey and I met with President Obama 
and he ordered all available DOD assets to respond to the 
attack in Libya and to protect U.S. personnel and interests in 
the region. It's important to remember that, in addition to 
responding to the situation in Benghazi, we were also concerned 
about potential threats to U.S. personnel in Tunis, Tripoli, 
Cairo, Sanaa, and elsewhere that could potentially require a 
military response.
    In consultation with General Dempsey and AFRICOM Commander 
General Ham, I directed several specific actions. First, we 
ordered a Marine Fleet Antiterrorism Security Team (FAST) 
stationed in Spain to prepare to deploy to Benghazi. A second 
FAST platoon was ordered to prepare to deploy to the Embassy in 
Tripoli. A Special Operations Force (SOF) which was training in 
Central Europe was ordered to prepare to deploy to an 
intermediate staging base in Southern Europe, Sigonella, and a 
SOF based in the United States was ordered to deploy to an 
intermediate staging base in Southern Europe as well at 
Sigonella.
    Some have asked why other types of armed aircraft were not 
dispatched to Benghazi. The reason simply is because with armed 
UAVs, AC-130 gunships, or fixed-wing fighters with the 
associated tanking, you have to provide air refueling 
abilities, armaments--you have to arm all the weapons before 
you put them on the planes--targeting and support facilities 
were not in the vicinity of Libya. Because of the distance, it 
would have taken at least 9 to 12 hours, if not more, to deploy 
these forces to Benghazi.
    This was, pure and simple, in the absence, as I said, of 
any kind of advance warning, a problem of distance and time. 
Frankly, even if we were able to get the F-16s or the AC-130s 
over the target in time, the mission still depends on accurate 
information about what targets they're supposed to hit, and we 
had no forward air controllers there. We had no communications 
with U.S. personnel on the ground. As a matter of fact, we had 
no idea where the Ambassador was at that point to be able to 
conduct any kind of attacks on the ground.
    The quickest response option available was a Tripoli-based 
security team that was located at the Embassy in Tripoli. To 
their credit, within hours this six-man team, including two 
U.S. military personnel, chartered a private airplane deployed 
to Benghazi. Within 15 minutes of arriving at the annex 
facility, they came under attack by mortar and rocket-propelled 
grenades. Members of this team, along with others at the annex 
facility, provided emergency medical assistance and supported 
the evacuation of all personnel.
    Only 12 hours after the attacks had begun, all remaining 
U.S. Government personnel had been safely evacuated from 
Benghazi.
    Looking back, our actions in the immediate aftermath of 
these attacks have been subject, obviously, to intense scrutiny 
and review. But let me share with you the conclusion of the 
ARB, which I believe accurately assessed the situation: ``The 
interagency response was timely and appropriate, but there 
simply was not enough time, given the speed of the attacks, for 
armed U.S. military assets to have made a difference. Senior-
level interagency discussions were underway soon after 
Washington received initial word of the attacks and continued 
throughout the night. The board found no evidence of any undue 
delays in decisionmaking or denial of support from Washington 
or from the military combatant commanders. Quite the contrary, 
the safe evacuation of all U.S. Government personnel from 
Benghazi 12 hours after the initial attack and subsequently to 
Ramstein Air Force Base was the result of exceptional U.S. 
Government coordination and military response and helped save 
the lives of two severely wounded Americans.''
    Still, after all of that, it is clear that there are 
lessons to be learned here and steps that must be taken to 
ensure that we're doing everything possible to protect our 
personnel and our facilities abroad. So in concert with the 
State Department and the Intelligence Community, we are in the 
process of developing enhanced security for U.S. persons and 
facilities in the wake of Benghazi.
    There will always be a tension between mission 
effectiveness for personnel, the ability to get out and do what 
they're supposed to do in these countries, and their physical 
security. We're committed to steps that avoid a bunker 
mentality and yet we still must afford greater protection from 
armed attack.
    We're taking steps along three tracks. First, host nation 
capacity. We have been able to better assess and build up the 
capabilities of host governments to provide security for U.S. 
personnel and facilities. The fact is, as you all know, that 
our embassies and consulates depend on host country personnel 
to provide the first line of security. This episode raises 
concerns about the ability of some newly-established or fragile 
governments to properly secure U.S. diplomatic facilities.
    To address these concerns, we are working with the State 
Department in considering how DOD can better help host nations 
enhance the security provided to our diplomatic facilities. 
Where permissible and appropriate, in collaboration with the 
Secretary of State and the U.S. Chief of Mission in the 
affected country, we believe that DOD can assist in their 
development using a range of security assistance authorities to 
train-and-equip those forces in the host country, and we are 
doing exactly that.
    Second, we have to enhance diplomatic security. We have to 
harden these facilities. We again are working with the State 
Department to try to reassess diplomatic security overall, to 
determine what changes may be required. We assisted the State 
Department in the deployment of an interagency security 
assessment team to evaluate the security level at 19 vulnerable 
diplomatic facilities, including our Embassy in Libya, and 
we're in the process of developing recommendations on potential 
security increases, as required.
    As part of this review, we have also considered how the 
role, mission, and resourcing of the MSGs could be adapted to 
respond to this new threat environment. In the near-term, we've 
agreed with the Department of State to add 35 new MSG 
detachments--that's almost 1,000 marines--over the next 2 or 3 
years, in addition to the 152 detachments that are in place 
today. We're working with State to identify those specific 
locations for the new detachments and we will identify any 
necessary resource and force structure adjustments in order to 
support this initiative.
    Although there was not a MSG detachment posted to the 
Benghazi Temporary Mission Facility, based on our review of all 
embassy security incidents that occurred in September 2012, in 
Tunis, in Cairo, in Khartoum, and in Sanaa, we have initiated 
coordination with the Department of State to expand the Marine 
Corps' role beyond their primary mission of protecting 
classified information. As some of you know, their primary 
mission is not providing outside security. Their primary 
mission is to protect classified information. But we believe 
that we can try to augment their role in terms of providing 
greater security protection as well.
    This could include the expanded use of non-lethal weapons, 
as well as additional training and equipment to support the 
embassy regional security officer's response options when host 
nation security force capabilities are at risk of being 
overwhelmed.
    Third, enhanced intelligence and military response 
capacity. We are focused on enhancing intelligence collection 
and ensuring that our forces throughout the region are prepared 
to respond to crisis, if necessary. The U.S. military, as I've 
said, is not, and frankly, should not, be a 9-1-1 emergency 
service, capable of arriving on the scene within minutes to 
every possible contingency around the world. The U.S. military 
has neither the resources nor the responsibilities to have a 
firehouse next to every U.S. facility in the world. We have 
some key bases, particularly in this region. We have some key 
platforms from which we can deploy. We have forces on alert and 
we're prepared to move. But our ability to identify threats, to 
adjust posture, to prevent plots, and to respond to attacks to 
our personnel at home and overseas depends on actionable 
intelligence and it always will.
    Therefore, we're working with the State Department and the 
Intelligence Community to ensure that our collection and 
analysis is linked with military posture and planning. We're 
working to enhance our intelligence collection, to improve the 
responsiveness of contingency assets, and to adjust the 
location of in extremis reaction forces. At the same time, 
we're working closely with State to ensure that they have our 
best estimate of response times for each at-risk diplomatic 
facility, so that they can make the best informed decisions 
about adjustments to their staff presence in areas of increased 
security threat.
    We've deployed key response forces abroad. We have reduced 
their response time. But let me again say to you that even 
those forces that are on a tight alert time of N+2, notice plus 
2 hours, to be able to get on a plane, once those forces are 
put on airlift, it still requires many hours in that part of 
the world to fly long distances in order to be able to respond.
    I firmly believe that DOD and the U.S. Armed Forces did all 
we could do in the response to the attacks in Benghazi. We 
employed every asset at our disposal that could have been used 
to help save lives of our American colleagues. We will support 
efforts to bring those responsible to justice and we are 
working with the task force involved and headed up by the FBI 
to do just that.
    As I said, going forward we intend to adapt to the security 
environment to ensure that we're better positioned and prepared 
to support the Department of State in securing our facilities 
around the world. But in order to be able to effectively 
protect the American people and our interests abroad at a time 
of instability, we must have an agile and ready force able to 
quickly respond.
    Above all--and forgive me for being repetitious--we have to 
end the cloud of budget uncertainty that hangs over DOD and the 
entire U.S. Government. I have to use this opportunity to 
express again my greatest concern as the Secretary of Defense, 
and frankly, one of the greatest security risks we are now 
facing as a Nation, that this budget uncertainty could prompt 
the most significant military readiness crisis in more than a 
decade.
    DOD faces the prospect of sequestration on March 1. If 
Congress fails to act, sequestration is triggered. If we also 
must operate under a year-long CR, we would be faced with 
having to take about $46+ billion out of the defense budget and 
we would face a $35 billion shortfall in operating funds alone 
for our Active Forces, with only a few months remaining in the 
fiscal year.
    Protecting the warfighters, protecting the critical 
deployments we have, we're going to have to turn to the one 
area that we have in order to gain the funds necessary, and 
that's reduction in maintenance. This will badly damage our 
national defense and compromise our ability to respond to 
crises in a dangerous world.
    The responsibility of dealing with this crisis obviously 
rests with the leadership of the Nation. I know the members of 
this committee share the deep concerns that I have raised about 
sequestration, and obviously, I urge you to do whatever you can 
to try to avoid this threat to our national defense.
    The State Department and the Intelligence Community 
obviously also must be provided the resources they need in 
order to execute the missions that we expect of them, including 
the enhancements that I've described today. Whatever steps are 
required to be taken to properly posture U.S. forces for 
possible emergency response operations, those steps would be 
seriously impacted by the readiness crisis caused by uncertain 
resources.
    We have a responsibility, and I take that responsibility 
seriously, to do everything we can to protect our citizens. 
That responsibility, however, rests with both the executive 
branch and Congress. If we work together, we can keep our 
Americans safe.
    Thank you.
    [The prepared statement of Secretary Panetta follows:]
               Prepared Statement by Hon. Leon E. Panetta
    Chairman Levin and Senator Inhofe, members of the committee: I 
appreciate the opportunity to be here today to discuss the terrorist 
attacks on our facilities in Benghazi on September 11, 2012.
    On that tragic day, as always, the Department of Defense (DOD) was 
prepared for a wide range of contingencies, but unfortunately there 
were no specific indications of an imminent attack on U.S. facilities 
in Benghazi. Without adequate warning, there was not enough time given 
the speed of the attack for armed military assets to respond. In the 
months since the tragedy at the Temporary Mission Facility and nearby 
Annex in Benghazi, we've learned these were actually two short duration 
attacks that occurred some 6 hours apart. This was not a prolonged 
assault which could have been brought to an end by a U.S. military 
response. Despite the uncertainty at the time, however, DOD and the 
rest of the U.S. Government spared no effort to save American lives.
    The four Americans who perished in Benghazi--Ambassador Chris 
Stevens, Information Management Officer Sean Smith, and security 
personnel Tyrone Woods, and Glen Doherty--were heroes and patriots. I 
had the opportunity to join President Obama, Secretary Clinton, and 
other U.S. officials at Andrews Air Force Base for the dignified 
transfer ceremony where the bodies of these heroes were returned home. 
I also had the opportunity to meet with the families of the fallen. We 
have a solemn responsibility to these families, and to all diplomatic 
personnel who put themselves at risk, to find out exactly what 
happened, to bring those involved to justice, and to make sure we are 
doing everything possible to ensure the safety of our personnel and 
facilities worldwide.
    To that end, DOD has fully supported efforts by Congress and the 
State Department to review the events and decisions surrounding the 
attacks in Benghazi. We have made every effort to respond promptly to 
numerous requests for additional information, briefings, and testimony 
from members and committees in Congress. In fact, General Dempsey and I 
were among the first U.S. Government senior officials to brief Congress 
on this tragedy when we appeared before this committee on September 14, 
2012, 3 days after the attacks.
    Additionally, the Defense Department participated in classified 
hearing and answered questions before the Intelligence, Foreign 
Affairs, and Homeland Security oversight Committees. We also provided 
all requested support to the Accountability Review Board, the 
independent investigative panel co-chaired by Ambassador Pickering and 
former Chairman of the Joint Chiefs of Staff, Admiral Mullen.
    Based on the information we've compiled and the reviews we have 
conducted, let me describe for you DOD's response to the events of 
September 11, some of the lessons learned, and the adjustments we are 
making to our global force posture given continuing unrest throughout 
North Africa and the Middle East. In fact, the changes we've made have 
already resulted in early decisions to deploy additional security, or 
decisions by the State Department to withdraw diplomatic staff in 
advance of a crisis.
                  dod's response on september 11, 2012
    While DOD does not have primary responsibility for the security of 
U.S. diplomatic facilities around the world, we work closely with the 
State Department and support them as requested. In the months prior to 
the Benghazi attack, we had received several hundred reports on 
possible threats to American facilities around the world. Over the 
course of the day on September 11, General Dempsey and I received a 
number of reports of possible threats to U.S. facilities--including 
those in Egypt--but there were no reports of imminent threats to U.S. 
personnel or facilities in Benghazi.
    By our best estimate, the incident at the Temporary Mission 
Facility in Benghazi began at 3:42 p.m. eastern daylight time on 
September 11th. The Embassy in Tripoli was notified of the attacks 
almost immediately and within 17 minutes of the initial reports--at 
3:59 p.m.--U.S. African Command (AFRICOM) directed that an unarmed, 
unmanned, surveillance aircraft that was nearby to reposition overhead 
the Benghazi facility.
    Soon after the initial reports about the attack on Benghazi, 
General Dempsey and I met with President Obama and he ordered all 
available DOD assets to respond to the attack in Libya and to protect 
U.S. personnel and interests in the region. It is important to remember 
that in addition to responding to the situation in Benghazi, we were 
also concerned about potential threats to U.S. personnel in Tunis, 
Tripoli, Cairo, Sana'a, and elsewhere that could potentially require a 
military response.
    In consultation with Chairman Dempsey and AFRICOM Commander General 
Ham, I directed several specific actions:

        <bullet> A Marine Fleet Antiterrorism Security Team (FAST) 
        platoon, stationed in Spain to prepare to deploy to Benghazi;
        <bullet> A Second FAST platoon to prepare to deploy to the 
        Embassy in Tripoli;
        <bullet> A Special Operations Force, which was training in 
        Central Europe, to prepare to deploy to an intermediate staging 
        base in Southern Europe; and
        <bullet> A Special Operations Force based in the United States 
        to deploy to an intermediate staging base in Southern Europe.

    Some have asked why other types of armed aircraft were not 
dispatched to Benghazi. The reason is because armed UAVs, AC-130 
gunships, or fixed-wing fighters with the associated tanking, 
armaments, targeting and support capabilities were not in the vicinity 
of Libya and because of the distance, would have taken at least 9 to 12 
hours if not more to deploy. This was, pure and simple, a problem of 
distance and time.
    The quickest response option available was the Tripoli-based 
security team. Within hours, this six-person team, including two U.S. 
military personnel, chartered a private airplane and deployed to 
Benghazi. Within 15 minutes of arriving at the Annex facility, they 
came under attack by mortar and rocket propelled grenades. Members of 
this team, along with others at the Annex facility, provided emergency 
medical assistance and supported the evacuation of all personnel. Only 
12 hours after the attacks began, all remaining U.S. Government 
personnel had been safely evacuated from Benghazi.
    Looking back, our actions in the immediate aftermath of these 
attacks have been subject to intense scrutiny and review. Let me share 
with you the conclusion that the Accountability Review Board reached:

          The interagency response was timely and appropriate, but 
        there simply was not enough time given the speed of the attacks 
        for armed U.S. military assets to have made a difference. 
        Senior-level interagency discussions were underway soon after 
        Washington received initial word of the attacks and continued 
        through the night. The Board found no evidence of any undue 
        delays in decision making or denial of support from Washington 
        or from the military combatant commanders. Quite the contrary: 
        the safe evacuation of all U.S. Government personnel from 
        Benghazi 12 hours after the initial attack and subsequently to 
        Ramstein Air Force Base was the result of exceptional U.S. 
        Government coordination and military response and helped save 
        the lives of two severely wounded Americans.

                            lessons learned
    Still, it is clear that there are lessons to be learned and steps 
that must be taken to ensure we are doing everything possible to 
protect our personnel and facilities abroad. In concert with the State 
Department and the Intelligence Community, we are in the process of 
developing enhanced security for U.S. persons and facilities in the 
wake of Benghazi. There will always be a tension between mission-
effectiveness for personnel and their physical security. We are 
committed to steps that avoid a bunker mentality and yet still afford 
greater protection from armed attack. We are taking steps along three 
tracks.

    1.  Host Nation Capacity

    First, we have to be able to better assess and build up the 
capabilities of host governments to provide security for U.S. personnel 
and facilities. The fact is that our embassies and consulates depend on 
host country personnel to provide security, and this episode raises 
concerns about the ability of newly established or fragile governments 
to properly secure U.S. diplomatic facilities.
    To address these concerns, we are now considering how DOD can 
better help host-nations enhance the security provided to our 
diplomatic facilities. Where permissible and appropriate, and in 
collaboration with the Secretary of State and the U.S. Chief of Mission 
in the affected country, we believe that the Defense Department can 
assist in the development of host-nation forces using a range of 
security assistance authorities to train and equip these forces.

    2.  Enhanced Diplomatic Security

    Second, we are supporting the State Department's efforts to look at 
hardening facilities and re-assessing diplomatic security. To determine 
what changes may be required, we assisted the State Department in 
deployment of Interagency Security Assessment Teams to evaluate the 
security level at 19 vulnerable diplomatic facilities, including our 
Embassy in Libya, and we are in the process of developing 
recommendations on potential security increases required.
    As part of this review, we have also considered how the role, 
mission, and resourcing of the Marine Security Guards could be adapted 
to respond to this new threat environment. In the near term, we have 
agreed with the Department of State to add 35 new Marine Security Guard 
detachments over the next 2 to 3 years, in addition to the 152 
detachments in place today. We're working with State now to identify 
specific locations for the new detachments. We will identify any 
necessary resource and force structure adjustments to support this 
initiative.
    Although there was not a Marine Security Guard detachment posted to 
the Benghazi Temporary Mission Facility, based on our review of all 
Embassy security incidents that occurred in September 2012, in Tunis, 
Cairo, Khartoum, and Sana'a, we have initiated coordination with the 
Department of State to expand the Marines' role beyond their primary 
mission to protect classified information. This could include expanded 
use of non-lethal weapons, and additional training and equipment, to 
support the Embassy Regional Security Officer's response options when 
host nation security force capabilities are at risk of being 
overwhelmed.

    3.  Enhanced Intelligence and Military Response Capacity

    Third, we are focused on enhancing intelligence collection and 
ensuring that our forces throughout the region are prepared to respond 
to crisis, if necessary.
    The U.S. military is not and should not be a global 9-1-1 service 
capable of arriving on the scene within minutes to every possible 
contingency around the world. We have forces on alert and prepared to 
move, but our ability to identify threats, adjust posture, prevent 
plots and respond to attacks to our personnel at home and overseas 
depends on actionable intelligence.
    Therefore, we are working with the State Department and the 
Intelligence Community to ensure our collection and analysis is linked 
with military posture and planning. We are working to enhance our 
intelligence collection, improve the responsiveness of contingency 
assets, and adjust the location of in-extremis reaction forces. At the 
same time, we're working closely with State to ensure they have our 
best estimate of response times for each at-risk diplomatic facility, 
so that they can make the best informed decisions about adjustments to 
their staff presence in areas of increased security threat.
            an adequate response demands adequate resources
    I firmly believe that DOD and the U.S. Armed Forces did all that we 
could do in response to the attacks in Benghazi. We employed every 
asset at our disposal that could have helped save the lives of our 
American colleagues. We will support efforts to bring those responsible 
to justice.
    Going forward, we intend to adapt to the security environment to 
ensure we are better positioned and prepared to support the Department 
of State in securing our facilities around the world. But in order to 
be able to effectively protect the American people and our interests 
abroad at a time of instability we must have an agile and ready force, 
and above all, we must end the cloud of budget uncertainty that is 
hanging over the Department and the entire U.S. Government.
    That brings me to my greatest concern right now as Secretary, and 
frankly the greatest security risk we are facing as a nation, which is 
the budget uncertainty which could prompt the most significant military 
readiness crisis in more than a decade.
    Right now, DOD faces the prospect of sequestration beginning March 
1. If Congress fails to act and sequestration is triggered, and if we 
also must operate under a year-long continuing resolution, we would be 
faced with a significant shortfall in operating funds for our Active 
Forces with only 7 months remaining in the fiscal year. This will 
damage our national defense and compromise our ability to respond to 
crises in a dangerous world.
    The responsibility of dealing with this crisis rests with the 
leadership of the Nation. I know that the members of this committee 
share the deep concerns I have raised about sequestration, and I urge 
you to do the responsible thing and avoid weakening our national 
defense. The State Department and Intelligence Community also must be 
provided with the resources they need to execute the mission we expect 
of them--including the enhancements I've described today.
    Whatever steps are required to be taken to properly posture U.S. 
forces for possible emergency response operations would be seriously 
impacted by the readiness crisis caused by uncertainty or dramatically 
reduced resources. The responsibility to protect our citizens rests 
with both the administration and Congress.
    Thank you.
    Chairman Levin. Thank you very much, Secretary Panetta.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Mr. Chairman and Senator 
Inhofe. I will compress my opening remarks, just if you would 
allow me to endorse what the Secretary just said, in particular 
the part about the effect of sequestration.
    I would also say that this hearing continues our full 
support to every effort and every request to understand and 
learn from this tragic event.
    I want to also commend the men and women of our Nation's 
diplomatic corps. They are selfless and courageous. They do 
hard things in hard places. I've stood with them in Iraq and in 
Afghanistan, where their words are America's reputation and 
where their outstretched hand is America's promise.
    In Benghazi, we lost four fellow servants of the Nation--
Chris Stevens, Sean Smith, Tyrone Woods, and Glen Doherty. To 
their family and friends, I offer my personal condolences. We 
mourn their deaths even as we honor their service. We honor 
them most by taking what we learned from their loss to prepare 
for an uncertain future.
    Thank you.
    [The prepared statement of General Dempsey follows:]
            Prepared Statement by GEN Martin E. Dempsey, USA
    Chairman Levin, Senator Inhofe, distinguished members of the 
committee, thank you for inviting us to address the attacks in Benghazi 
on 11 September 2012. As Secretary Panetta stated, we have fully 
supported every effort and every request to understand and learn from 
this tragic event.
    Allow me to begin by publically honoring the service of our State 
Department colleagues. The men and women of our Nation's diplomatic 
corps are selfless and courageous. They do hard things in hard places. 
I have stood side-by-side with them in Iraq and in Afghanistan where 
their words are America's vision, where their deeds are America's 
reputation, and where their outstretched hand is America's promise.
    In Benghazi, we lost four fellow servants of the Nation--Chris 
Stevens, Sean Smith, Tyrone Woods, and Glen Doherty. To their family 
and friends, I offer my personal condolences. They were among the very 
best our Nation has to offer the world. They acted bravely for our 
Nation and for the Libyan people. We mourn their deaths even as we 
honor their service.
    We honor them most by taking what we learn from their loss to 
prepare for an uncertain future. We must keep working together--as we 
are doing here today--to adapt our missions and our forces in order to 
advance America's national interests. Our own security depends on our 
ability to build relationships even under the most challenging of 
conditions.
    The conditions in Libya and all of North Africa were then and 
remain highly dynamic. The balance of influence is shifting. The social 
contract between the governed and the government is being negotiated in 
the streets. Mobile technology and social media have helped to 
accelerate the pace of change. Weaker security institutions are facing 
more empowered non-state actors. Included in this combustible mix are 
terrorists seeking to capitalize on the chaos.
    Although today we are focused on Benghazi, we must not forget that 
it was September 11 everywhere. On that day, we were postured to 
respond to a wide array of general threats around the globe. We 
positioned our forces in a way that was informed by and consistent with 
available threat estimates. In fact, U.S. facilities in many countries 
throughout the Africa Command and Central Command areas were operating 
under heightened force protection levels.
    As events unfolded, we assessed the situation based on the 
available intelligence. We considered the risk to U.S. Government 
personnel as protests broke out across the region. General Carter Ham's 
sound judgment proved critical as we analyzed the complex, rapidly 
evolving situation and our range of response options.
    Our military was appropriately responsive. We acted quickly once 
notified of the attacks on the Temporary Mission Facility. As a result 
of our posture and our ongoing operations, we were able to divert an 
unarmed, unmanned reconnaissance aircraft to Benghazi within minutes. 
It arrived on the scene approximately an hour later.
    We also repositioned forces based on direction from the President 
of the United States and Secretary of Defense. We deployed a Fleet 
Antiterrorism Security Team to Tripoli while a second team prepared to 
deploy. We directed the deployment of a Special Operations Force in the 
United States and one already in Europe to intermediate staging bases. 
We also provided C-17 airlift for medical evacuation. We did what our 
posture and capabilities allowed.
    This does not mean we accept the status quo as sufficient for this 
new security environment. We have worked closely with the State 
Department over the last several months to help improve the security of 
our diplomatic missions. Our work has been informed by the 
recommendations of the Accountability Review Board for Benghazi. I 
commend Ambassador Tom Pickering and my predecessor Admiral Mike Mullen 
for their valuable work.
    Specifically, the military has deployed some of our best security 
experts alongside State Department personnel to reassess the threat to 
many high-risk diplomatic posts. We anticipate that this will result in 
a request to increase our presence at the most vulnerable posts. We are 
looking at how to resource a request for 35 Marine Security Guard 
detachments at new locations. We have also adjusted the alert posture 
of security augmentation forces in the most volatile areas. But, we are 
not done adapting to the emergent security landscape. We will continue 
to work with the State Department and Congress to examine additional, 
proactive options for improving security.
    In closing, I offer my sincere thanks to this committee for your 
dedication to keeping our military strong. I share your commitment to 
supporting those who serve in both a military and diplomatic capacity 
to keep America immune from coercion.

    Chairman Levin. Thank you very much, General Dempsey.
    Let's have a 7-minute round for the first round to get to 
everybody, and if we need a second round we can do that. We got 
a little bit of a late start here this morning.
    Mr. Secretary, you ended up with your plea on sequestration 
and the need to avoid it, and I totally agree with you. There, 
I think, is near universal agreement, perhaps universal on this 
panel, about the devastating impacts that sequestration is 
likely to have on DOD and on other Federal agencies as well.
    I believe, as you do, that it is incumbent on Congress and 
the executive branch to work together to avoid sequestration. 
Toward that end, I as one member of the Senate have advocated 
for a balanced solution to sequestration that includes both 
revenues and spending cuts. I've suggested a specific proposal 
that would raise revenues by closing loopholes that some 
corporations use to avoid taxes by shifting income outside of 
the United States. I've worked with colleagues and in the 
Senate on suggested solutions. I will continue to do so and 
your clarion call here this morning I hope will encourage all 
of us to work in any way that we can to avoid sequestration.
    Now, yesterday you spoke in Georgetown, announced a series 
of steps that the Department will have to take almost 
immediately with respect to deployments, maintenance, 
contracts, other obligations if Congress and the President 
don't act soon to address the issue. We've received memoranda 
from other senior DOD officials laying out steps that would 
have to be taken if sequestration is not avoided.
    Can you give us a timetable? You've already announced some 
actions that you're taking, which you're putting in place now, 
so that even if we can avoid sequestration in the next few days 
or a week from now or 2 weeks from now, some things are being 
taken even before the end of February and before we know 
whether we can avoid sequestration. Can you tell us, first of 
all, whether or not these actions would be reversible if, in 
fact, we avoid sequestration in, say, a week from now or 2 
weeks from now? Do you echo the President's call for a balanced 
approach to avoid sequestration, to include both spending cuts 
and additional revenues?
    Secretary Panetta. Mr. Chairman, first of all, let me 
indicate, and I think General Dempsey can add to this, the 
reason we're having to do this and take actions now is because 
we're operating at a spend rate right now that envisions that 
we would have gotten a fiscal year 2013 appropriations bill. 
Unfortunately, we have no fiscal year 2013 appropriations bill. 
We have a CR.
    But we've been operating at least in these first months 
based on a spend rate that is in line with what we thought we 
were going to get for fiscal year 2013. If sequester hits on 
March 1 and then if we get a CR, as opposed to getting an 
appropriations bill, then we're going to be obligated to take 
out almost $46 billion plus out of our budget. That would have 
to take place in the remaining months of this fiscal year.
    If we protect the warfighters, if we protect those in 
Afghanistan, if we protect some of our critical deployments, 
we're looking at having to take most of that, as I said, out of 
readiness. So what we're trying to do is to slow down that rate 
of spending that's going on so it will not require as deep a 
dive as we're going to have to have in readiness--so what we're 
doing and what I've urged the Chairman and the Service Chiefs 
is to take steps to try to implement savings now.
    We've implemented a freeze on hiring. We've implemented a 
freeze on temporary hires. We're probably going to impact about 
46,000 jobs. We are impacting about 46,000 jobs just by doing 
that. We're cutting back on maintenance. We're cutting back on 
other areas in order to try to find what we can.
    Most of this is reversible. Most of this, if we don't get 
sequester, we're going to be able to reverse and be able to get 
back on track. But obviously if we hit sequester then--some say 
sequester might just happen for a period of a few weeks, which 
I doubt, frankly, if it goes into effect. But the impact of 
sequester then will multiply the impact on our readiness.
    Look, there's only one way to deal with this. I've been 
saying it time and time again and I think there are members 
here that agree. You have to address the larger deficit issue, 
and to address a large deficit issue in my own experience, 
having participated in every budget summit that we've had in 
past years, you have to be able to develop a balanced package 
in order to do that. That's just the nature of dealing with the 
size deficits that you have.
    My preference, frankly, is that Congress would do the big 
deal, get it done, get this behind us, detrigger sequester, 
stop this constant uncertainty, this month-to-month situation 
where we don't know what the hell we're going to get. That 
should end.
    In the absence of that deal, obviously I'll support 
whatever package you can put together to try to detrigger 
sequester, whatever you can do to make sure this doesn't 
happen. I cannot imagine that people would stand by and 
deliberately hurt this country in terms of our national defense 
by letting this take place.
    General Dempsey. I'll only add briefly that most of the 
things we're doing are reversible. That is our goal, that they 
would be reversible. But even if you reverse them, it will take 
some time, and I can't predict that yet. We're trying to 
stretch readiness.
    I want to make sure you realize one other thing. We took 
the decision on the carrier postponement very seriously because 
there's a human dimension to this. If you're getting ready to 
deploy, you cancel your rent, potentially you cancel your 
apartment, you sell your car, you cancel education classes. 
There's a human aspect to this. Now we postpone it and they're 
still there. So the effects are felt even now.
    Chairman Levin. Okay, I guess that ends my time.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think the skunk is about to arrive at the picnic, but I'd 
like to share a couple of things, first of all clarify some 
things to make sure that we all understand things that are 
incontrovertible facts. The National Military Command Center at 
the Pentagon, after receiving the initial reports of the 
incident from the State Department, notified the Office of the 
Secretary of Defense and Joint Staff. This information quickly 
passed on to the two of you, is that correct?
    Secretary Panetta. That's correct.
    Senator Inhofe. I have a great deal of respect for General 
Ham and his two predecessors after we developed AFRICOM. I was 
somewhat significant in that effort. Of course, AFRICOM, with 
the exception of Egypt, has the continent and it has the 
control of that. It would have operational control of DOD 
assets in the event that action in and around Libya would be 
necessary.
    Now, AFRICOM consistently faces resourcing shortfalls. I 
know that sometimes you don't hear this loud and clear, but we 
do over a period of time. We know you can't continue to expand 
into new areas, as we did in AFRICOM. Let's keep in mind, we 
didn't have any activity there, and you know this, prior to the 
time that we made the conscious decision after September 11, 
the original September 11, that we have a serious problem in 
Africa and we're going to have to deal with that problem. We 
came up with the idea of forming five African brigades. A lot 
of these things are going on right now.
    Did you have any conversation, either one of you, with 
General Ham regarding the security situation in North Africa 
prior to these attacks the subject of today?
    Secretary Panetta. Senator, I'm in almost continual touch 
with General Ham. He provides me regular reports from AFRICOM 
as to the issues he's dealing with. There is no question that 
that area of that combatant command has increased in terms of 
the threats that we're dealing with and it's increased in terms 
of the issues related to going after elements of al Qaeda.
    Senator Inhofe. Did he ever request additional assets 
there, Mr. Secretary?
    Secretary Panetta. Senator, my view was whatever General 
Ham asked, we did more than try to respond.
    Senator Inhofe. I know you did, and we did, too. I've 
talked to him about this and we know that the assets just 
weren't available when you look at the other places. It's not 
as if only one place is on fire. They're all on fire right now 
and this is the problem that we have.
    The Washington Post columnist said that the President had a 
briefing with the Principals Committee to review the threats 
and the mitigation of the threats. This would have been the day 
before. The Principals Committee, it's my understanding, is 
made up of the Secretary of Defense, the Secretary of State, 
the Director of National Intelligence, and some others.
    Were the two of you at this hearing or this meeting? It 
would have been the day before, September 10.
    Secretary Panetta. I believe I recall being at a meeting 
that looked at what the potential threats were as a result of 
going into September 11.
    Senator Inhofe. I have a chart over here, and I'm sure 
you've had a chance to see it. No one questions the chain of 
events that happened. On the left side are the things that 
happened prior to all of this, what I consider to be warning 
signals that anyone should be able to look.
    Recognizing the resource problem that we have, what was the 
assessment of the threat in Libya at the time of this 
Principals Committee meeting, either one of you?
    General Dempsey. If I could, Senator, the meeting is a 
routine monthly review of counterterror operations worldwide.
    Senator Inhofe. It happened to be on the 10th, yes?
    General Dempsey. Right. It wasn't uniquely focused on North 
and Western Africa, although clearly North and Western Africa 
are areas of emerging threat.
    Senator Inhofe. I'm sure that subject was there. I can't 
imagine it wouldn't be with all the problems that are on that 
chart and that you're aware of.
    The only thing I'd say in criticism of you, Mr. Secretary, 
is you've said so many times and you gave such a passionate 
plea to resolve this problem. You've talked about the problem 
that is there. You can't continue to look at Congress when, in 
fact, we have in the President's own budget in the 4 years, the 
first 4 years that he was there, $5.3 trillion in deficit. It's 
an oversimplification, but you can say that almost all of 
government under his budget has increased by about 10 percent, 
except for the military, except for defense.
    Now, I can debate that with anyone who wants to debate, but 
that has to be said because this is a problem that we have 
dealt with and you've talked about. But we have to get on 
record that this administration has not given the priorities to 
the military, and that's my statement. You can either agree 
with or not agree with. We're going to have to do something 
about it.
    About an hour and 20 minutes after the first attack on the 
Benghazi compound, Secretary Panetta, you and Chairman Dempsey 
were at the White House for a pre-scheduled meeting on a 
different topic at that time. I think that's when Tom Donilon 
came in and informed all of you and the President about what 
happened in Benghazi. Is that about the right timeframe?
    Secretary Panetta. Yes. I think we have regular meetings 
with the President. This was one of our weekly meetings with 
the President. I should tell you that just before I went into 
that meeting I got an update that there had been the attack 
there. So it was something I introduced to the President.
    Senator Inhofe. Oh, I see. Okay, that's a good 
clarification.
    Let me do this in the interest of time. I want to make two 
definitions here. One would be the definition, I call it the 
compound, some call it the ``Temporary Mission Facility.'' It 
doesn't really matter what you call it. That was what would be 
comparable to an embassy, it was a compound.
    One attack was on the compound. The other was on the annex. 
That was about an hour later and that was about a mile away. So 
those two things we want to clarify. I think both of you would 
agree those, it could be argued, are separate attacks that took 
place.
    The other definition that I'd want in terms is either these 
two attacks or one or the other would be classified as a 
spontaneous eruption of violence or a planned terrorist attack. 
I think CBS reported that the counterterrorism officials--okay, 
let me just run through this real quick here, if you'd give me 
a little tolerance here, Mr. Chairman.
    Chairman Levin. We do have to stick to our 7-minute rule. 
So a little tolerance, of course.
    Senator Inhofe. A little tolerance, all right.
    Chairman Dempsey, at the time of the meeting at the White 
House took place, about 11 o'clock, how would you have 
characterized the attack--or either one of you--on the 
compound, not the annex; the compound?
    General Dempsey. At that point I didn't know. I just knew 
there were Americans----
    Senator Inhofe. It could have been either one, couldn't it?
    General Dempsey. That's right.
    Senator Inhofe. It could have been a spontaneous thing or 
it could have been preplanned. We don't know that right now.
    General Dempsey. Right.
    Senator Inhofe. But I would have to ask you the same 
question about the annex. Wouldn't you agree that that was a 
preplanned terrorist attack unequivocally?
    Secretary Panetta. At the time, obviously, when this was 
going on, we weren't sure what was taking place there. But when 
I later found out that you had RPGs and mortars and there was 
an attack on that second facility, there was no question in my 
mind it was a terrorist attack.
    Senator Inhofe. My position on that would be that they knew 
that at the time, because I've talked to several different 
people who stated that they knew it, and unequivocally that 
would have been a terrorist attack.
    Of course, the thing I'm getting at, do you agree, Mr. 
Secretary, that it was unequivocally a terrorist attack on the 
annex?
    Secretary Panetta. When I appeared before this committee 3 
days afterwards, I said it was a terrorist attack.
    Senator Inhofe. Very good. That's what John Brennan said 
also, and he used the word ``unequivocally.'' I would have to 
say that we'll have to understand some time, someone's going to 
have to ask the question: If that was true and we knew all of 
that at the time on that Sunday that this presentation by 
Ambassador Susan Rice, before all of America said it was: ``we 
have today is that, in fact, this was not a preplanned, 
premeditated attack.''
    I won't even ask you to respond to that, but I think it's 
important that people understand that everybody knew on that 
Sunday that it was a preplanned, premeditated attack.
    Thank you for your tolerance, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Dempsey.
    There were, as you point out in your testimony, two 
attacks, one on the compound, one on the annex. But as the time 
chart indicates, there seems to be a significant gap between 
the first attack and the annex at midnight and the deployment 
of mortars and RPGs. Did that indicate to either of you that it 
took a while for them to organize themselves to conduct a full-
blown attack on the annex, that, in fact, it was something 
akin, General Dempsey, to one of a meeting engagement, where 
they seized an opportunity and then they quickly fill in and 
supplement their firepower and begin a much more coordinated 
attack, suggesting there was a degree of improvisation here as 
well as planning?
    General Dempsey. The second one, Senator, was clearly much 
more deliberate, much more planned, but probably was as well 
opportunistic, because the people had moved from the Temporary 
Mission Facility. There was a considerable gap.
    But I would say two things in addition. First, we accept 
the general timeline. Also--because it's consistent with the 
ARB.
    Second, though, is the gap didn't cause us to do anything 
differently. We acted based on the first attack and it was a 
matter of time and distance at that point.
    Senator Reed. But the timing of the attack suggests--and 
it's very difficult to sort out--a degree not only of planning, 
but improvisation; is that a fair judgment?
    General Dempsey. I haven't thought about the word 
``improvisation.'' It was very well-executed. They dropped six 
mortar rounds on a roof at some distance. That was pretty well 
done.
    Secretary Panetta. I think there's no question that it was 
deliberate, it was opportunistic. I really believe that a lot 
of this was precoordinated, particularly with regards to the 
second attack.
    Senator Reed. Very good.
    Going forward, Secretary Panetta, you have already 
indicated that you're going to augment embassy security 
personnel with additional Marine Corps forces. You also point 
out, which I think was not entirely apparent before this 
attack, that the Marine Corps' major mission was internal 
security and protection of classified documents.
    Secretary Panetta. That's right.
    Senator Reed. Now you're talking about an enhanced mission. 
Can you suggest some aspects of this enhanced mission?
    General Dempsey. Yes, sir. Thanks. The MSGs actually have 
fundamentally three missions: principally the protection of 
classified materials. They have a secondary mission of helping 
to protect the personnel who occupy the embassy; and the third 
one is support for communications.
    What we're looking to do is, in select locations around the 
world, with the support and collaboration of the State 
Department and with the Marine Corps, obviously, who have to 
build this, is to, let's call it, thicken certain locations. 
But to be clear, we will never be able to put a Marine Corps 
security detachment into a country which is located in a 
hostile area. The host nation has to guarantee at some level 
the protection of our facilities or we should make a decision 
to thin it out or potentially close it.
    Senator Reed. Another related aspect of this issue is that 
clearly, even with this expanded role, that security at 
diplomatic missions is the responsibility of the State 
Department and the resources for that, other than the Marine 
Corps presence, are State Department resources, and those 
resources in your view to complement what you're doing should 
be enhanced, Mr. Secretary?
    Secretary Panetta. That's correct. We are working with the 
State Department and that's why we came up with this almost 
1,000 more marines that we would try to deploy at those 
embassies that are identified as the most vulnerable.
    Senator Reed. Let me follow up on the issue of AFRICOM, 
because it is our newest unified combatant command. You have 
taken steps to provide them with more ready reaction forces, 
for want of a better term. Can you indicate the current posture 
of what General Ham has available, understanding it's a big 
area of responsibility (AOR), with long distances, and if you 
don't have adequate intelligence, it's hard to even preposition 
resources to react. But what have you been doing to help?
    General Dempsey. I would never drag you into our internal 
processes, but we have an annual process called the global 
force management process, where combatant commanders and 
Service Chiefs collaborate on distribution of the force 
worldwide based on the threat assessments, national security 
interests.
    AFRICOM is particularly challenged because of the 
commitments we have elsewhere, but also because of the lack of 
basing and authority to place facilities internal to the 
continent. As a result, most of their resources reside in 
southern Europe or afloat when we have them.
    In terms of what we've done to augment, he will have, 
effective 1 October, his own commander's in extremis force. We 
have positioned Fleet Antiterrorism Support Teams and put them 
on a various changing level of alert posture. So if you think 
about response, it's a combination of alert posture and flight 
time, with the necessary, if you can get it, access into a 
country to land and flow. We are better postured today to 
respond to preemptive requests from the State Department, in 
other words left of bang, than we were. When something happens, 
it becomes a far different situation.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Secretary Panetta, I join with all others in thanking you 
for your many years of service. It's been an honor to have 
known you and I appreciate your leadership of DOD. I'm sure you 
will continue to contribute in the future, and we will miss 
you.
    General Dempsey, I was just going over your written 
statement and I have to admit it's one of the more bizarre 
statements that I have ever seen in my years in this committee. 
When you're talking about the Benghazi issue you say: ``We 
positioned our forces in a way that was informed by and 
consistent with available threat estimates.'' Then you go on to 
say: ``Our military was appropriately responsive,'' even though 
7 hours passed and two Americans died at the end of that. Then 
you go on and say: ``We did what our posture and capabilities 
allow.''
    There's a base at Souda Bay, Crete, General. There's a base 
there. It's about an hour and a half flight by a--I've 
forgotten the kind of plane that I took when I went to 
Benghazi. Included in all of those factors on that board there, 
there was a message sent, an urgent message sent back to the 
State Department on August 15 that ``they could not,'' the 
consulate, ``withstand a sustained attack on the consulate.''
    On September 11, I will argue that there was no outpost in 
all of our diplomatic corps that had that sequence of events, 
these warnings, including many warnings from our Ambassador 
about the lack of security, including even a message that was 
found in the rubble of the consulate by a CNN reporter weeks 
later.
    So for you to testify that our posture did not allow a 
rapid response--our posture was not there because we didn't 
take into account the threats to that consulate, and that's why 
four Americans died. We could have placed forces there. We 
could have had aircraft and other capabilities as short a 
distance away as Souda Bay, Crete.
    So for you to testify before this committee that they were 
consistent with available threat estimates is simply false. 
That our military was appropriately responsive--what would have 
been an inappropriate response, since any forces--no forces 
arrived there until well after these murders took place and 
obviously your capabilities allowed you to be positioned to 
intervene very shortly?
    Finally, all of this is a result of the so-called light 
footprint. After Qadafi fell many of us made it very clear that 
they needed our help--secure the arms caches, help them secure 
their borders, a lot of technical assistance. But because of 
the light footprint, we did not provide. So it was almost 
predictable, almost, maybe not predictable, that bad things 
were going to happen in Libya, because here was a fledgling 
government that had never governed before, without the 
assistance that we could have provided them with.
    I begged you, Secretary Panetta, for example, to send a 
hospital ship over there to help treat their 30,000 wounded. 
What did we do? We sent a couple to hospitals in the United 
States of America.
    So I'll be glad to hear your response, General Dempsey, as 
to how the available threat estimates you were informed by, how 
our military was appropriately responsive since four people 
died 7 hours later, with the thousands--hundreds of airplanes, 
ships, planes, and men and women who are serving available in 
that part of the world; and how did you do what your posture 
and capabilities allowed?
    General Dempsey. Thank you, Senator. Let me begin by saying 
I stand by my testimony, your dispute of it notwithstanding. 
But I would like to say that we based----
    Senator McCain. Perhaps you can give me some facts that 
would substantiate it.
    General Dempsey. Sure, I will, Senator. We base our 
response on the combined effects of what we get from the 
Intelligence Community--and that's the network of intelligence 
agencies--as well, importantly, based on what we get from the 
State Department and the chief of mission and chief of station 
in the country.
    Senator McCain. Did you ever get the message that said they 
could not withstand a sustained attack on the consulate?
    General Dempsey. I was tracking that intelligence. I was 
tracking through General Ham----
    Senator McCain. Did you receive that information?
    General Dempsey. I did, and I saw it----
    Senator McCain. So it didn't bother you?
    General Dempsey. It bothered me a great deal. But we never 
received a request.
    Senator McCain. Then why didn't you put forces in place to 
be ready to respond?
    General Dempsey. Because we never received a request to do 
so, number one; and number two----
    Senator McCain. You never heard of Ambassador Stevens' 
repeated warnings about the lack of security?
    General Dempsey. I had, sir, through General Ham. But we 
never received a request for support from the State Department, 
which would have allowed us to put----
    Senator McCain. So it's the State Department's fault?
    General Dempsey. I'm not blaming the State Department. I'm 
sure they had their own assessment.
    Senator McCain. Who would you blame?
    General Dempsey. Sorry, sir?
    Senator McCain. Who is responsible, then? It is clear that 
an assessment was made that they could not withstand a 
sustained attack on the consulate, with it being September 11 
and many other indications that are on that board over there 
and the various attacks that have already taken place.
    General Dempsey. I stand by the report of the ARB. But I 
would also say, Senator, I was also concerned at that time with 
Sanaa in Yemen, Khartoum, Islamabad, Peshawar, Kabul, Baghdad. 
We had some pretty significant intelligence threat streams 
against those places as well.
    Senator McCain. I've seen some of those estimates and none 
of them rose to the level of the threat in Benghazi. Did they 
rise to that level, that they could not withstand a sustained 
attack?
    General Dempsey. Yes.
    Senator McCain. They did?
    General Dempsey. Yes, they did.
    Senator McCain. So basically you're saying what our 
postures--our capabilities allowed, you did what our 
capabilities allowed. We didn't have the capability to station 
forces as short as Souda Bay, Crete?
    General Dempsey. There were forces----
    Senator McCain. Do we have those capabilities?
    General Dempsey. We do have those capabilities, but even 
those----
    Senator McCain. But we didn't use those capabilities.
    General Dempsey. Sir, based on time, distance, and alert 
posture, as I said to Senator Reed a moment ago, they wouldn't 
have gotten there in time.
    Senator McCain. It's an hour and a half flight, General, if 
you'd have had them based there at Souda Bay, Crete.
    Finally, I would ask again both of you what I asked you 
last March when 7,500 citizens of Syria had been killed. It's 
now up to 60,000. How many more have to die before you 
recommend military action? Did you support the recommendation 
by then Secretary of State Clinton, and then head of the 
Central Intelligence Agency (CIA) General Petraeus, that we 
provide weapons to the resistance in Syria? Did you support 
that?
    Secretary Panetta. We did.
    Senator McCain. You did support that?
    General Dempsey. We did.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Udall.
    Senator Udall. Good morning, gentlemen. Thank you for 
appearing here today. I also want to add my voice to those 
here, Mr. Secretary, in thanking you for your long service to 
our country, and we wish you well as you return to your walnut 
farm and your grandchildren in California.
    General, I'd like to look more broadly at the challenges 
that we face in Africa. I want to acknowledge that on September 
11, 2012, when this tragic incident occurred, that you were 
fighting a war in Afghanistan, you were conducting 
counterterrorism missions all over the globe, training troops, 
patrolling our skies and seas, hunting war criminals, and 
providing humanitarian relief. Despite that enormous mission 
load, you've clearly taken the deaths of these four State 
Department employees in Benghazi to heart as if they were your 
own. We will learn from this. We will do everything possible to 
ensure that doesn't happen again. Secretary Clinton made that 
clear in her compelling testimony over the last weeks and I 
know you share that point of view.
    So again, turning to Africa, I know that we've conducted 
training and developed partnerships with a number of African 
militaries for years, I think in North Africa as well as in the 
Sahel. Talk a little bit about those training relationships, 
those formal ties, and how they're going to help us deny 
extremists the opportunity to develop footholds in that part of 
the world? Specifically, should we be expanding training 
missions like Operation Flint Walk or building other DOD-State 
Department partnership programs in the AFRICOM AOR?
    General Dempsey. The short answer is yes, but I won't stop 
at the short answer. The threat network that exists in North 
Africa and West Africa is a group of disparate organizations, 
some of which aspire to and have, in fact, embraced the al 
Qaeda ideology, who network themselves and syndicate themselves 
as they find common cause, or to take advantage of ungoverned 
space.
    So to your point, Senator, what we're seeing here in the 
aftermath of, call it what you will, the wave, the Arab Spring, 
the changes in North and West Africa which have created some 
ungoverned space, is, in fact, a place where we have to be very 
careful not to allow these movements to take sanctuary.
    We are always best at addressing those working through 
partners, whether they're bilateral partners. It's a little 
challenging now to have a relationship with a bilateral 
military force that is itself brand new in some of these 
countries. So we've been also working with regional security 
apparatus, for example African Union Mission in Somalia, and 
Economic Community of West African States (ECOWAS) in West 
Africa.
    To your point, though, we do have to do more to enable 
those partners to control that ungoverned space so that it 
doesn't become a sanctuary.
    Secretary Panetta. Senator, if I could.
    Senator Udall. Please, Mr. Secretary.
    Secretary Panetta. We've learned a lot about how to 
confront terrorists and al Qaeda-affiliated groups, not only 
from what we've done in the Federally Administered Tribul Areas 
(FATA) and Afghanistan and Iraq, but the fact is that we have 
some very effective operations in Yemen. General Ham did an 
outstanding job in Somalia, where a few years ago we thought 
Somalia had no chance to be able to stabilize. But as a result 
of the countries in the region, as well as our providing some 
direct assistance there to assist the forces there and to be 
able to get the intelligence they needed to go after Al-Shabab, 
we have had a very effective operation there at undermining al 
Shabab and their strength in Somalia.
    We're taking the same lessons, General Ham is taking the 
same lessons and applying those to other areas in the region, 
trying to determine how can we best assist the countries in the 
region through intelligence, through training, through our 
presence, be able to ensure that we develop better security in 
their countries as well. He's doing a great job at developing 
that capacity.
    Senator Udall. Mr. Secretary, would you--are you 
suggesting, I should say, that part of what we've done in 
Somalia and what we see developing in these other countries is 
by focusing on resource shortages, creating more educational 
opportunities, using smart power, if you will, we're seeing 
some success? It's conditional success, but what's happening in 
Somalia gives us hope that there's further utility for these 
approaches?
    Secretary Panetta. I agree with that.
    Senator Udall. Could I turn, since you're here--and I know 
this is on everybody's mind--to sequestration. Would you lay 
out your thoughts generally or specifically? In particular, if 
we allow sequestration to take hold would that require 
fundamental change in our National Military Strategy?
    Secretary Panetta. Absolutely. I'd have to--as I've said, 
look, the $487 billion that we were handed through the Budget 
Control Act to be able to reduce the defense budget over 10 
years, we understood that we had a responsibility to do our 
part with regards to deficit reduction. But we wanted to do it 
in a way that wouldn't hollow out the force or make these 
across-the-board cuts that would hurt every area of the 
military.
    So we developed a strategy, a defense strategy, that we 
thought represented what the force of the 21st century ought to 
look like. Then we built a budget based on that. We've 
recommended savings pursuant to that budget that were 
incorporated in our fiscal year 2013 budget. Frankly, we were 
doing the same thing for fiscal year 2014.
    If sequester takes place and we suddenly have another half 
a trillion dollars that I have to take out of the defense 
budget in an across-the-board fashion, frankly, the defense 
strategy we put in place I'd have to throw out the window, and 
it would clearly seriously impact particularly on maintenance 
and readiness. As I said, we would have a terrible readiness 
crisis.
    But as time went on and the erosion that would take place 
in our capabilities, instead of being a first-rate power in the 
world, we'd turn into a second-rate power. That would be the 
result of sequester.
    Senator Udall. General Dempsey, if I could follow up on the 
Secretary's general analysis of where we are. We're talking 
about increasing the number of Marine Corps security personnel 
at our embassies. If sequestration went into effect, how would 
that affect our other missions? I think this is--you're 
potentially robbing Peter to pay Paul.
    General Dempsey. That's right. We haven't done that 
analysis, but what I will say is it would cause us--we'd have 
to go back and look at our national security interests, as we 
always do, and make sure that we're addressing them in the 
right priority. I think where you would see it affect us most 
quickly and most prominently is in the--last year we talked 
about rebalancing to the Pacific. We also talk internally about 
the balance we have vertically. If rebalancing to the Pacific 
is a horizontal activity, vertically we have to decide how much 
of the force can we have forward, how much rotational, how much 
in the Homeland. That balance would change and you'd have less 
ability to project power forward, which means you're less able 
to deter enemies and assure allies. That's a significant 
change.
    The second place is in the defense industrial base. We 
would have significant challenges in our factories, in our 
depots, that will have a long-term effect.
    Senator Udall. I know my time has expired and you may want 
to answer this for the record later. But we're just finally, it 
feels like, getting a handle on operations tempo (OPTEMPO) for 
our personnel, and what I hear you implying in that answer is 
that we're going to go right back to a one-to-one or a one-to-
two even OPTEMPO for our men and women in uniform. We've asked 
a lot of them over the last 12 years. We've really stressed the 
force.
    General Dempsey. I can answer that really quickly. You 
won't find this Chairman arguing that we need to do more with 
less. You'll find me arguing that if that happens, we need to 
do less with less.
    Senator Udall. We'll leave it there. Thank you again, 
gentlemen.
    Chairman Levin. Thank you, Senator Udall.
    Senator Chambliss.
    Senator Chambliss. Thanks very much, Mr. Chairman.
    Mr. Secretary, you and I have been friends for all of my 
now going on 19 years in Congress. I value that friendship and 
I'm very appreciative of your service to our country and your 
commitment to our country.
    Gentlemen, both of you have in previous statements as well 
as in your comments today used the term ``terrorist attack,'' 
``deliberate attack,'' ``precoordinated attack,'' as well as 
other adjectives to describe this incident. Mr. Secretary, you 
have been a leader in the Intelligence Community, of course 
being at the CIA, so you've been on both sides of the issue, 
providing intelligence as well as receiving intelligence. Would 
you consider this incident to be an intelligence failure?
    Secretary Panetta. I think that some of the initial 
assessments that were made, they should have taken more time to 
assess the full situation as to what had taken place. In 
intelligence, like everything else, you make some initial 
assessments and then you go back and you look at it and look at 
it again, get more information, build a picture of what took 
place, and then, based on that, hopefully provide a much more 
accurate picture of what had taken place. I think some of the 
initial assessments here were not on the money.
    Senator Chambliss. General Dempsey, how would you respond 
as to whether or not this was an intelligence failure?
    General Dempsey. Senator, we get asked that question a lot, 
actually, after anything happens. This one I actually think of 
more as an intelligence gap. I think there is an impression--
there's two impressions that have worked against us over time. 
One is that we can be as responsive as necessary. That's not 
always the case. There are some issues of time and distance and 
basing rights and overflight rights that actually affect us in 
our ability to be responsive.
    The second one is that we can--we're all-seeing and all-
knowing. There are some places on the planet where we have some 
gaps and I think North Africa is probably one of them.
    Senator Chambliss. To both of you: If you had had 
intelligence that there was a storm brewing among this group of 
individuals, however we characterize them, with respect to an 
attack at some point in time on that facility in Benghazi, 
obviously you'd have been prepared for it; is that a fair 
statement?
    Secretary Panetta. There's no question. The example of that 
is we've had a number of other embassies that have faced, like 
Khartoum, that we thought there was a real threat to Khartoum. 
We had advance intelligence that that was the case and we were 
prepared to move people out. As a matter of fact, the Embassy 
took steps to move some people out. We've done that there. 
We've done that in several other areas. Where we get that kind 
of advance notice, we can respond.
    Senator Chambliss. You're familiar with the timeline that's 
on that chart over there. Suffice it to say that there were 
attacks on the Embassy--excuse me, on the compound--beginning 
in March 2012. There were a series of other attacks on western 
assets, both U.S., Red Cross, U.K. Was the President aware of 
that timeline of all of those incidents that occurred?
    Secretary Panetta. I'm not sure.
    Senator Chambliss. Were each of you aware of each of those 
incidents that had occurred?
    General Dempsey. We were. Every week General Ham sends a 
report to the Secretary of Defense on events in his AOR and he 
copies me. He had been tracking the security situation in 
Libya.
    Senator Chambliss. Would that report not go to the 
President?
    General Dempsey. No, not routinely.
    Senator Chambliss. Would you not have discussions with the 
President about hot spots around the world and what was going 
on?
    General Dempsey. No, we do.
    Senator Chambliss. Do you know of any other place in the 
world, General Dempsey, where this number of attacks had 
occurred over this period of time?
    General Dempsey. I do actually, Senator. This was not a 
unique situation. In looking back at it, of course, it looks 
like it should have been crystal-clear that there was an attack 
imminent.
    Senator Chambliss. Where else outside of Afghanistan, 
outside of Iraq, have we had weapons fired on a compound, where 
we had a U.K. armored vehicle attacked, where we had a bomb 
thrown over the compound wall, where we had a U.N. special 
envoy attacked, where we had RPG attacks, and so forth and so 
on? Where outside of Afghanistan would that have happened?
    General Dempsey. Yemen, notably. We've had a great deal of 
challenges in Yemen.
    Senator Chambliss. We had that at our Embassy at Yemen?
    General Dempsey. A consistent threat stream against the 
Ambassador personally, yes.
    Senator Chambliss. So what response have you made in Yemen?
    General Dempsey. At the request of the Embassy, we have a 
Fleet Antiterrorism Support Team there to thicken their 
defenses, and we also have aircraft located in a nearby country 
that can respond in extremis.
    Senator Chambliss. So that's the second time you've used 
the phrase the State Department didn't request or in this 
instance in Yemen apparently the State Department did request. 
General Dempsey, I take that as a very weak response and 
reaction to this incident. You are the Chairman of the Joint 
Chiefs. You knew what was happening in Benghazi. You failed to 
respond in a way that provided security to that particular U.S. 
mission complex, when apparently you did respond in a positive 
way in Yemen, you say. Am I correct in that?
    General Dempsey. You're incorrect in saying I failed to 
respond to a request. Look, what we do, in collaboration with 
our agency partners, is we try to distribute our resources.
    Senator Chambliss. General, you----
    General Dempsey. I don't distribute them personally.
    Senator Chambliss.--said earlier in response to Senator 
McCain that you were aware of the August cable from Ambassador 
Stevens in which he said security at Benghazi is not adequate; 
am I correct?
    General Dempsey. I was aware of, Senator--yes, of course, I 
was aware of it, because it came in in General Ham's report. 
General Ham actually called the Embassy to see if they wanted 
to extend the special security team there and was told no.
    Senator Chambliss. Why was that the case, and who was it 
that said we do not need additional security at Benghazi to 
General Ham?
    General Dempsey. I don't know where that decision was 
eventually made. But it's in the ARB results.
    Senator Chambliss. My time is up, but your responses, 
General Dempsey, are very inadequate, and in my opinion, the 
same kind of inadequacy for the security that you provided at 
that consulate.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Secretary Panetta, let me thank you for your service, and 
General Dempsey, yours also. Secretary Panetta, we're going to 
miss you. There's many people who have served with you longer 
than I have, but I can imagine the fondness they have grown and 
the relationships you've had. I can only imagine if we'd had a 
few more dinners we'd have had the same.
    General Dempsey, for your service I want to thank you, too. 
You've been most kind when I've been over to the Pentagon in 
trying to help me understand more of how we can totally secure 
our country and make it a better world.
    West Virginia's proud to house the State Department 
Diplomatic Security Training Center, and the agents who fought 
bravely very likely might have been trained in that part of our 
great State. I understand also that pilots from the West 
Virginia National Guard out of our Clarksburg, WV, were some of 
the first to respond. They changed mission quickly and were 
ready to get resources into Libya, and it shows the strong 
force that the Guard and the support role the Guard plays.
    So with that, gentlemen, I have just a few questions. First 
of all, I was here and I say one of my most profound moments 
and times of being a Senator was when I heard Admiral Mullen at 
that time, before he retired. The question was asked of him, 
what's the greatest threat the United States of America faces? 
I thought I'm learning about the different hot spots of the 
world and all the different things that were going on and the 
challenges we had as a Nation defending ourself in the world, 
and I was ready to hear. He said, without skipping a beat, the 
debt of our Nation is the greatest threat we face as a Nation.
    I took that so seriously, and I've been committed to a 
large fix, a big fix, the Bowles-Simpson approach, which is the 
three-pronged template. We have had a hard time moving forward 
on that.
    Now we've come down to where we've said if we didn't get 
the fix we would have sequestering. So we're faced--the 
American public is watching us, engaging what we do, and what 
we say--if we do what we say and fulfill our promises. If we 
can't come to the financial fix the country needs, sequestering 
is our penalty. We don't want to penalize and, like you say, 
hollow out the force, if you will.
    How can we help fulfill our promise to the American people 
that we'll, since we can't come to this--I hope we can. I hope 
we avoid it. But if we don't, is there language we could give 
you to live with the amount of sequestering that the cuts will 
bring?
    Secretary Panetta. Senator, there is no fix here. I have to 
tell you that it would be irresponsible for Congress to allow 
sequester to go into place. Sequester was not designed as a 
mechanism that was supposed to happen. It was designed to be so 
nuts that everybody would do everything possible to make sure 
it didn't happen. That's what sequester was about.
    Now to say somehow we can't come together to figure out 
what savings we have to put in place in order to not trigger 
sequester, so I guess we'll just have to let sequester happen, 
I think is irresponsible.
    Senator Manchin. Would you not agree if you were still 
sitting in Congress and we can't come to an agreement--I would 
hope that we could come to an agreement, that we can find a $4 
or $5 trillion swing over 10 years, is what's been recommended. 
There's going to have to be reform and have to be revenue and 
there has to be cuts in spending, and everyone has to 
participate.
    I look at the spending and I look over the period of time. 
I think you and I have spoken about that. This is the least 
amount of drawdown post-war that we have asked for, but it 
seems to be doing the most damage. I think you were telling me 
the timing of it is hitting you harder than anything else; is 
that correct?
    Secretary Panetta. That's right.
    Senator Manchin. If I can move on to General Dempsey. 
General, my question is, what is happening in Mali right now? 
If you can give me a little oversight on that. There's a weak 
central government, a strong al Qaeda presence, rampant armed 
militants. When you look at Mali, are there any lessons from 
Benghazi that can be applied to our security posture there?
    General Dempsey. To what's happening, the French have had 
some good success in pushing the armed groups north into the 
northern desert. The important point now would be to have the 
ECOWAS forces that they're training flow in behind them. Then 
at some point Mali will need help with its governance 
challenges because at some level these are also disputes 
between the Touregs and the northern Malians and the southern 
Malians.
    But I do think there's always lessons to be learned. In 
terms of learning from Benghazi, I think, to your point about--
we've been in close touch with the Embassy in Bamako. They've 
thinned out the ranks a bit. That's a prudent measure.
    As the Secretary said earlier, Senator, the way you avoid 
these issues in the future is somewhat with hardening, somewhat 
with early decisionmaking. When the security situation appears 
to be moving in a negative direction, the decision to either 
reinforce or to thin or to close needs to be taken in a timely 
fashion.
    Senator Manchin. Secretary Panetta, after September 11 we 
undertook a whole-of-government approach to make sure our 
intelligence systems are integrated. Can you tell me if 
something has gone wrong there and did we miss something? I'm 
hearing people have legitimate concerns, great concerns, and 
our hearts go out and prayers go out to the families of our 
four brave Americans we lost, and we want to prevent that from 
happening. But did something break down, sir, that we can 
repair?
    Secretary Panetta. Look, there obviously were a number of 
reforms on the intelligence agencies coming out of September 
11, and I can tell you from my own experience that I think 
there was--we have developed tremendous teamwork within the 
Intelligence Community, in which we share information, we go 
after targets together, we develop the best analysis that we 
can on the threats that are confronting the country.
    The problem that happens here--and this is something that 
does need attention--is whether or not we have the best 
intelligence assets, the best intelligence resources in the 
areas where we need good information. We have a lot of assets 
around. We have a lot of resources that are there. We have 
signals intelligence (SIGINT), we have human intelligence 
(HUMINT). But if you have an area where you don't have 
resources there, if you don't have good intelligence, then it's 
going to create a gap, as General Dempsey said.
    I think with regards to those specific individuals that 
were involved in this attack, there was a gap. We didn't have 
the intelligence that would have given us a heads-up that this 
kind of thing was going to happen. That is something that we do 
need to pay attention to.
    Senator Manchin. My time is up. Thank you both.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to share in what all of my colleagues have said 
about your distinguished service, Secretary Panetta, and how 
grateful we are for everything that you've done for our 
country, deeply appreciate it. I thank you both for being here.
    I wanted to follow up, General Dempsey, as I understand it, 
you received briefings from General Ham that would include 
intelligence reporting as well as the reports from the State 
Department, and you received those regarding the situation in 
Libya, including the information about the prior attacks within 
Benghazi, including those on our consulate; is that right?
    General Dempsey. Yes, Senator. We get reports weekly from 
each combatant commander.
    Senator Ayotte. So as the ARB found, and the Senate 
Homeland Security and Governmental Affairs Committee did a 
report on this as well, but the ARB had said that there was a 
clear and vivid picture of a rapidly deteriorating threat 
environment in eastern Libya. Would you agree with that?
    General Dempsey. Yes.
    Senator Ayotte. Okay, thank you. One of the things you had 
said is that, Mr. Secretary, that you were aware that 
Ambassador Stevens, of his cable, that said the consulate could 
not withstand a coordinated attack; is that right?
    Secretary Panetta. Correct.
    Senator Ayotte. General, you had said that previously you 
were aware of that?
    General Dempsey. Yes, I was aware of the communication back 
to the State Department.
    Senator Ayotte. You said that the State Department didn't 
request assistance; is that right? General, I believe you said 
that?
    General Dempsey. Yes.
    Secretary Panetta. That's correct.
    Senator Ayotte. Did you ever bring that to the attention of 
Secretary Clinton? This is a pretty surprising and shocking, 
important cable to receive from an ambassador, that where our 
people are housed could not withstand a coordinated attack. Did 
you ever speak with Secretary Clinton about that?
    Secretary Panetta. Senator, as I mentioned in my testimony, 
NCTC had identified almost 281 facilities that were under a 
threat of one kind or another. To deal with that, that's not 
our responsibility. That's the State Department's 
responsibility.
    Senator Ayotte. I just would add my straightforward 
question, I think, and in particular to both of you, 
particularly to General Dempsey, you said you were aware of the 
cable. Did you ever bring it to Secretary Clinton's attention, 
given that it said from our Ambassador that the consulate could 
not withstand a coordinated attack? Yes or no?
    General Dempsey. I did not. The cable was actually to the 
State Department, not to me.
    Senator Ayotte. I understand. But you were aware of it. 
It's a pretty important cable. You said you were also aware of 
the deteriorating security situation.
    General Dempsey. As a result of our meetings on the 
counterterrorism globally.
    Senator Ayotte. But you did not bring it to Secretary 
Clinton's attention?
    General Dempsey. I did not.
    Senator Ayotte. Did you ever bring it to the President's 
attention, either of you?
    Secretary Panetta. No.
    General Dempsey. No.
    Senator Ayotte. Based on the deteriorating security 
situation, we have this map that has the potential military 
bases in the area.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Ayotte. As I understand it, we have F-16s at 
Aviano; is that true?
    General Dempsey. That's correct.
    Senator Ayotte. Were they deployed that night?
    General Dempsey. They were not.
    Senator Ayotte. Why not?
    General Dempsey. For a couple of reasons. First, is that in 
order to deploy them it requires the--this was the middle of 
the night, now. These were not aircraft on strip alert. They're 
there as part of our commitment to NATO and Europe. So as we 
looked at the timeline, it was pretty clear that it would take 
up to 20 hours or so to get them there.
    Second, Senator, importantly, it was the wrong tool for the 
job.
    Senator Ayotte. I guess it's not clear to me why would--you 
said in your testimony that we were on heightened alert on 
September 11--why it would take over 20 hours. We know that 
flight time for an F-16 is certainly not 20 hours, even if we 
were to refuel from Aviano. Given the deteriorating security 
situation that you've described, it really is--I don't 
understand why we didn't have armed assets somewhere in the 
area that could have responded in time at least for the second 
attack on the annex. That's not clear to me. I think that is 
insufficient as we look at what happened here.
    But I do have a follow-up question. Secretary Panetta, you 
said that you were in a briefing with the President of the 
United States.
    Secretary Panetta. Yes.
    Senator Ayotte. I believe it was about 5 o'clock our time. 
You had just learned about the incident on the consulate. What 
conversation did you have with the President? What did he ask 
you to do as a result of this attack? Throughout the night what 
communications were you having with him? Can you tell us on a 
timeline as to who was calling the shots there; if it wasn't 
him, another member of the White House?
    Secretary Panetta. At the time, we were concerned about 
Cairo and demonstrations in Cairo. Then we had just picked up 
the information that something was happening, that there was an 
apparent attack going on in Benghazi. I informed the President 
of that fact, and he at that point directed both myself and 
General Dempsey to do everything we needed to do to try to 
protect lives there.
    Senator Ayotte. Did he ask you how long it would take to 
deploy assets, including armed aviation to the area?
    Secretary Panetta. No. He basically said, do whatever you 
need to do to be able to protect our people there.
    Senator Ayotte. Did you have any--so he didn't ask you what 
ability we had in the area and what we could do?
    Secretary Panetta. No, I think he relied on both myself as 
Secretary and on General Dempsey's capabilities. He knows 
generally what we've deployed in the region. We've presented 
that to him in other briefings. So he knew generally what was 
deployed out there. But as to specifics about time, et cetera, 
et cetera, no, he just left that up to us.
    Senator Ayotte. Did you have any further communications 
with him that night?
    Secretary Panetta. No.
    Senator Ayotte. Did you have any other further 
communications--did he ever call you that night to say ``how 
are things going, what's going on, where's the consulate?''
    Secretary Panetta. No. But we were aware that as we were 
getting information on what was taking place there, 
particularly when we got information that the Ambassador, his 
life had been lost, we were aware that that information went to 
the White House.
    Senator Ayotte. Did you communicate with anyone else at the 
White House that night?
    Secretary Panetta. No.
    Senator Ayotte. No one else called you to say, ``how are 
things going?''
    Secretary Panetta. No.
    Senator Ayotte. Okay. Since then, has the President asked 
you, ``why weren't we able to get, in light of the second 
attack that occurred 7 hours later, armed assets there in order 
to help those who were left and attacked in the annex?''
    Secretary Panetta. The President has made very clear to 
both myself and General Dempsey that, with regards to future 
threats, we have to be able to deploy forces in a position 
where we can more rapidly respond.
    Senator Ayotte. But just to be clear, that night he didn't 
ask you what assets we had available and how quickly they could 
respond and what we could do to help those individuals?
    Secretary Panetta. The biggest problem that night, Senator, 
was that nobody knew really what was going on there.
    Senator Ayotte. There was no follow-up during the night, at 
least from the White House directly?
    Secretary Panetta. No, no, there wasn't.
    Senator Ayotte. Thank you.
    General Dempsey. I would, if I could just correct one 
thing. I wouldn't say there was no follow-up from the White 
House. There was no follow-up to my knowledge with the 
President, but his staff was engaged with the National Military 
Command Center pretty constantly throughout the period, which 
is the way it would normally work.
    Senator Ayotte. But no direct communication from him?
    General Dempsey. Not on my part, no.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you both for being here today. Of course, thank you 
for your service. We're incredibly grateful for all that you 
do.
    Secretary Panetta, you said in your November remarks to the 
Center for American Security about al Qaeda: ``We've slowed the 
primary cancer, but we know that the cancer has also 
metastasized to other parts of the global body.'' Presumably, 
you're including Yemen, Somalia, Mali, and elsewhere. How would 
you recommend reorganizing our strategy to stem the growing and 
changing al Qaeda global threat?
    Secretary Panetta. We are working on that with the other 
agencies involved. What is needed here is a comprehensive 
strategy overall that focuses on al Qaeda and its various 
affiliates to make sure that they have no place to hide. We've 
obviously done a very effective job in the FATA, done a good 
job in Afghanistan, Iraq. We're doing a good job in Yemen and 
Somalia.
    As these affiliates are beginning to appear elsewhere, in 
Mali and North Africa, in Syria, we have to develop a 
comprehensive strategy that allows us to be able to develop 
operations against them wherever they're at. We're in the 
process of working on that strategy. We have already 
implemented some steps to try to deal with that. But we really 
do need to take a big picture view of all of the elements of al 
Qaeda and how we can best make sure that they have no place to 
hide.
    Senator Gillibrand. I have some specific follow-up 
questions that I'll submit for the record, but they may be 
classified, the answers, so that's why I'll submit them 
separately.
    I want to turn to cyber. According to recent reports, the 
Pentagon has approved a major expansion of its U.S. Cyber 
Command to include growing its ranks from approximately 900 to 
4,900 personnel cyber warriors. According to these same 
reports, there will be three types of forces: those who will 
fortify DOD's own networks; those who will help commanders 
abroad plan and execute offensive attacks; and those who will 
protect critical infrastructure like power grids and power 
plants.
    Needless to say, this is absolutely necessary to protect 
our Nation against what is becoming a leading security threat. 
However, I'm particularly interested in the last group, those 
who will protect national infrastructure. The majority of this 
critical infrastructure is owned and operated by the private 
sector. Given this, will the military rely on the National 
Guard, which is able to operate under both titles 10 and 32 
authorities?
    General Dempsey. Senator, your description of how we are 
trying to prepare the force is accurate. We clearly don't have 
authority to do all of that, but we are trying to grow the 
right force so that if it became necessary and we had the 
authority to do all of those things we would be prepared.
    The National Guard will always be part of any endeavor. I 
think we'll find the right balance of Active and Guard as we 
move ahead.
    Senator Gillibrand. Are there any particular obstacles that 
you can see now in terms of using the Guard with a greater deal 
of responsibility in cyber?
    General Dempsey. No, not uniquely, not any obstacles that 
we don't have as well on the Active side.
    Senator Gillibrand. A broader question. How do you see our 
plan for recruiting and retaining enough cyber personnel, 
particularly ones capable of working in the offensive side? One 
idea that I had considered thinking through is, we do Reserve 
Officer Training Corps (ROTC), but imagine doing ROTC 
specifically for cyber personnel. So you're getting these young 
men and women coming out of the Massachusetts Institute of 
Technology and Stanford and Rensselaer Polytechnic Institute 
who are some of the country's greatest engineers early on, to 
hone their skills for cyber defense and cyber attack missions 
within the DOD.
    Secretary Panetta. Senator, let me just say, in talking to 
Keith Alexander at the National Security Agency, he does not 
have any shortage of young people that want to be part of that 
effort. They view it as an opportunity to get involved, be on 
the cutting edge of the technology with regards to cyber, 
develop tremendous skills there, and be able to then go out and 
use those skills in the private sector. So he has a lot of 
young people, a lot of young very bright people, who are 
anxious to participate in this effort.
    General Dempsey. To include coming out of our military 
academies.
    Senator Gillibrand. Now turning to the subject of the 
hearing, Benghazi specifically. I would like to talk a little 
bit about what you've learned from these events and how you 
would advise the next Secretary of Defense to better prepare 
for similar events and how DOD should adapt to the next 
generation, including obviously the metastazation of al Qaeda 
and other terrorist groups and cyber attacks, both of which 
obviously pose very serious threats to the security of our 
Homeland.
    I'm specifically concerned that this was an attack in a 
country that the United States helped liberate from decades of 
dictatorship. That day, September 11, 2012, witnessed 
demonstrations in other countries that were part of the Arab 
Spring, countries that were supported--that we supported the 
voice of democracy. But throughout these countries we continue 
to see jihadists and fundamentalist movements align against us 
and against our interests, and perhaps funded by some of the 
Gulf countries.
    What leverage should we be using with the Gulf governments 
to address the support for groups that threaten our security?
    Secretary Panetta. As I've testified here, and I certainly 
would give this guidance to my successor, in dealing with these 
threats you have to address each area of concern. First of all, 
you have to develop better host country capabilities. That's 
one of the gaps right now in some of these countries that we 
just saw, they have not been able to develop a sufficient host 
force that provides that kind of security. We have to work with 
them. We have to bring as much leverage as we can on these 
countries, that they have a responsibility to be the first line 
of security for our embassies, and we have to help them develop 
the training and capabilities that are necessary to do that.
    Second, we have to harden these facilities. We do have to 
strengthen the security around some of these embassies, be able 
to develop, add the additional marines that are necessary to 
try to help provide that security as well, and ensure that they 
have the right training for the security guards that are around 
that embassy.
    Third, we need better intelligence. We just absolutely have 
to have good intelligence. Whatever we do, wherever we're 
located, if we don't get that advance intelligence, that heads-
up that we need, there isn't any way that we can respond in 
time. So we have to have better intelligence as to what these 
groups are doing.
    Then lastly, we have to have a response force in the 
vicinity to be able to respond quickly. Once we get a heads-up, 
once we get an indication that something's going to happen, 
forces have to be in place and have a shorter response time in 
order to be able to deploy. There's no question these response 
times were too long, and so we're trying to shorten that.
    But I also want to just let you know that we are dealing 
with the problem of distance in that area. It takes hours to be 
able to respond. It's just the nature of being able to notify 
people, get them ready, get airlift there, make sure they can 
move quickly, and then fly to the target. All of that has to be 
considered.
    But the more heads-up we get, the better off we can 
respond.
    Senator Gillibrand. Thank you both very much again for your 
service and your testimony.
    Chairman Levin. Thank you very much, Senator Gillibrand.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Thank you for 
having the hearing.
    Secretary Panetta, you will be missed. You've served our 
Nation well. You will be missed. General Dempsey, thank you for 
your service.
    Now, this is a hearing about Benghazi. We've talked about 
sequestration, which is important. I just want to make sure 
that we understand what happened on September 11 regarding 
Benghazi.
    Your testimony as I understand it, Secretary Panetta, is 
that you talked to the President of the United States one time?
    Secretary Panetta. Talked to him on September 11 with 
regards to the fact that we were aware that this attack was 
taking place.
    Senator Graham. One time?
    Secretary Panetta. Right.
    Senator Graham. What time did you tell him that?
    Secretary Panetta. I think that was approximately about 5 
p.m.
    General Dempsey. Yes, about 5 p.m.
    Secretary Panetta. About 5 p.m.
    Senator Graham. General Dempsey, did you ever talk to the 
President of the United States at all?
    General Dempsey. I was with the Secretary that same time.
    Senator Graham. Did you talk to the President?
    General Dempsey. Yes.
    Senator Graham. You talked to him how many times?
    General Dempsey. The same one time.
    Senator Graham. How long did that conversation last?
    General Dempsey. We were there in the office for probably 
30 minutes.
    Senator Graham. So you talked to him for 30 minutes one 
time and you never talked to him again, either one of you?
    General Dempsey. Until afterwards.
    Senator Graham. Until after the attack was over?
    General Dempsey. That's right.
    Senator Graham. Thank you.
    Were there any AC-130 gunships within 1,000 miles of 
Benghazi, Libya?
    General Dempsey. No, sir.
    Senator Graham. Were there any AC-130 gunships within 2,000 
miles of Benghazi, Libya?
    General Dempsey. I would have to go back and look at a map 
and figure out the distance. The nearest ones I was aware of 
were----
    Senator Graham. You said the F-16 was not a good platform 
to defend the consulate. What would have been the appropriate 
platform?
    General Dempsey. The appropriate platform, Senator, would 
have been to have boots-on-the-ground ahead of the event. After 
the event is in conduct, it would be very difficult to have a--
--
    Senator Graham. Let's just--would an AC-130 have been a 
good platform to help defend the consulate after the attack?
    General Dempsey. If we had the adequate understanding of 
what was on the ground so that we weren't killing----
    Senator Graham. Is there a saying in the military, when you 
go into harm's way we have your back?
    General Dempsey. Of course, yes, sir.
    Senator Graham. Don't you think that saying has been 
undermined here? How can people in the military or the foreign 
service believe we have their back when, after over seven--one, 
did you know how long the attack was going to last, Secretary 
Panetta?
    Secretary Panetta. No idea.
    Senator Graham. Well, it could have lasted for 2 days.
    Now, my question is, was one airplane anywhere in the world 
deployed in the aid of the consulate? Did anybody launch an 
airplane? Was any airplane launched anywhere in the world to 
help these people?
    Secretary Panetta. We ultimately did launch 130s to go in 
and rescue the people.
    Senator Graham. When were they launched?
    Secretary Panetta. They were launched in the period of time 
when the team went in there and when we concluded that the 
attack was concluded. We said we have to get the people out of 
there and that's when we----
    Senator Graham. Was any airplane launched anywhere in the 
world before the attack was concluded?
    General Dempsey. If you're talking about a strike aircraft, 
no, Senator.
    Senator Graham. Was any soldier en route to help these 
people before the attack was concluded?
    Secretary Panetta. We had deployed the FAST teams and they 
were----
    Senator Graham. Were they----
    Secretary Panetta.--on orders to move.
    Senator Graham. Was anybody in motion before the attack 
concluded to help these people, anybody?
    General Dempsey. Only the personnel that were in Tripoli.
    Senator Graham. Okay. Was any DOD asset ever deployed to 
help these people before the end of the attack?
    General Dempsey. Would you rephrase? Would you repeat the 
question?
    Senator Graham. Was any DOD asset, aircraft, or individual 
soldier, ever sent, put in motion, to help these people before 
the attack was over?
    General Dempsey. If I could, as soon as we knew there was 
an attack the National Mission Force and the FAST Teams began 
preparing to deploy.
    Senator Graham. My question is, did anybody leave any base 
anywhere to go to the aid of the people under attack in 
Benghazi, Libya, before the attack ended?
    Secretary Panetta. No, because the attack ended before they 
could get off the ground.
    Senator Graham. Thank you. We didn't know how long it would 
last.
    Now, back to the threat assessment. These 281 threats that 
we've received, can you go back and look and see if any of 
these threats have a cable from a U.S. Ambassador saying if 
we're attacked, the consulate is attacked in a coordinated 
fashion, we cannot defend the consulate, and oh, by the way, 
there are al Qaeda flags flying over government buildings? Is 
there any other situation of these 281 that rise to that level, 
because I want to know about it if there is?
    Secretary Panetta. The State Department would have the 
answer to that question.
    Senator Graham. Okay. Let's talk about the State 
Department. General Dempsey, it seems to me that General Ham 
kept you pretty well informed.
    General Dempsey. I agree with that.
    Senator Graham. I agree with that, too. Did General Ham on 
that night ever suggest that a military asset--did he order a 
military asset in motion and someone told him to stand down?
    General Dempsey. No. In fact, he was with us in the 
Pentagon that day.
    Senator Graham. Okay, so he was with you.
    Now, you knew about the cable from Ambassador Stevens 
because General Ham informed you of it; is that correct, 
General Dempsey?
    General Dempsey. In a written weekly report.
    Senator Graham. Okay. So when Secretary Clinton testified a 
few weeks ago that she had a clear-eyed assessment of the 
threat we faced in Libya, is that really a credible statement 
if she didn't know about the Ambassador's cable on August 15, 
saying we can't defend this place?
    General Dempsey. I don't know that she didn't know about 
the cable.
    Senator Graham. She said she didn't.
    General Dempsey. Then that's a----
    Senator Graham. Are you stunned that she didn't?
    General Dempsey. I would call myself surprised that she 
didn't.
    Senator Graham. Okay.
    Are you surprised that the President of the United States 
never called you, Secretary Panetta, and say, how is it going?
    Secretary Panetta. Normally in these situations----
    Senator Graham. Did he know the level of threat----
    Secretary Panetta. Let me finish the answer. We were 
deploying the forces. He knew we were deploying the forces. He 
was being kept updated as to the----
    Senator Graham. I hate to interrupt you, but I have limited 
time. We didn't deploy any forces.
    Secretary Panetta. No, but----
    Senator Graham. Did you--wait a minute.
    Secretary Panetta. It was over by the time----
    Senator Graham. Mr. Secretary, you didn't know how long the 
attack would last. Did you ever call him and say, Mr. 
Secretary, it looks like we don't have anything to get there 
any time soon?
    Secretary Panetta. The event was over before we could move 
any assets.
    Senator Graham. It lasted almost 8 hours, and my question 
to you is: During that 8-hour period, did the President show 
any curiosity about how is this going, what kind of assets do 
you have helping these people? Did he ever make that phone 
call?
    Secretary Panetta. Look. There is no question in my mind 
that the President of the United States was concerned about 
American lives.
    Senator Graham. With all due respect----
    Secretary Panetta. I think all of us were concerned about 
American lives.
    Senator Graham.--I don't believe that's a credible 
statement if he never called and asked you, are we helping 
people, what's happening to them.
    Secretary Panetta. As a former chief----
    Senator Graham. We have a second round and we'll take it up 
then.
    Secretary Panetta. As a former chief of staff to the 
President of the United States, the purpose of staff is to be 
able to get that kind of information, and those staff were 
working with us.
    Senator Graham. Do you think it's a typical response of the 
President of the United States to make one phone call, do what 
you can, and never call you back again to ask you, how is it 
going, by the way? Show any frustration we don't have any 
assets in there to help these people for over 7 hours?
    Secretary Panetta. The President is well-informed about 
what is going on. Make no mistake about it.
    Senator Graham. That is interesting to hear. We'll talk 
about that in the second round.
    Chairman Levin. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both, Secretary Panetta and General Dempsey, for 
being here this morning. Secretary Panetta, thank you so much 
for your long and very important service to this country.
    I think, as you all have pointed out, that it is important 
for the administration to continue to be open and upfront about 
what happened in Benghazi. I think it's important for us to 
look in a factual, objective way, to the extent that we can, at 
what has happened here and to try and address that; and that 
grandstanding and finger-pointing is not really helpful.
    So I appreciate your willingness to look at what happened 
here. As has been acknowledged, the bottom line is that our 
agencies didn't do enough to protect our people on the ground 
and we have to do better. As the ARB pointed out, there were 
security failures, there were leadership and management 
deficiencies. I appreciate that Secretary Clinton took 
responsibility for that and that we are looking at 
recommendations to address that. So thank you for your 
willingness to be part of that process.
    One of the things that happened in the follow-up to the ARB 
was an effort by the Senate to address the transfer of funds 
that the State Department requested to provide the necessary 
resources to address security risks and to transfer the 
personnel to meet mission imperatives around the world. I'm 
pleased that again this week the Senate has tried to do that. I 
certainly hope the House will take up that legislation and pass 
it so that we can address the resources that are required to 
make sure this doesn't happen again in our embassies and 
missions around the world.
    Both the ARB and the Senate Homeland Security and 
Governmental Affairs Committee reports pointed out that 
Congress and the administration share in the responsibility for 
making sure that those resources are available.
    Now, my question really goes to a follow-up to what Senator 
Graham was discussing, and I understand it was raised earlier. 
It's something that I raised with Deputy Secretary Nides before 
the Senate Foreign Relations Committee, and it does have to do 
with what capacity we have in dangerous regions to provide 
support from the military when we have diplomatic missions and 
embassies that get into trouble.
    I wonder if you could--you've talked about the fact that we 
don't have or did not at the time of Benghazi have those assets 
in the region. But can you talk about what kind of coordination 
you envision going forward to address areas where there is 
potential risk? Obviously, Northern Africa and the Middle East 
are certainly these days those kinds of areas. What kind of 
communication and coordination are we doing to address this?
    Secretary Panetta. We have worked with the State Department 
on a team to assess the different embassies there to determine 
what are the additional steps that have to be taken in order to 
provide security and also what additional steps do we need in 
order to ensure that we have the intelligence necessary to give 
us a heads-up.
    So we are taking steps. We're going to provide another 
almost 1,000 marines as detachments to be able to target those 
embassies that are most vulnerable. In addition to that, 
obviously, we're going to try to do what we can to strengthen 
the host nations' capabilities to provide security. I know the 
Intelligence Community is working to develop better 
intelligence, to be able to give us a heads-up. Frankly, we're 
doing the same thing. We're deploying forces to the area and 
giving them much shorter response times, so that if we do have 
to deploy them, they'll be able to get up in the air and to the 
area in a more rapid fashion.
    Senator Shaheen. Is there going to be an ongoing structure 
to do that, an ongoing system that will be put in place, so 
that it's not just this one review of what the circumstances 
are, but for the foreseeable future we'll expect to have 
communication and coordination between DOD and State?
    Secretary Panetta. We are doing that and we are trying to 
develop a tighter team that can work together to make sure that 
we protect our lives abroad.
    Senator Shaheen. Thank you.
    General Dempsey, I understand that in earlier testimony you 
acknowledged that there are gaps in our intelligence and what 
we know, and that better intelligence would have given us a 
heads-up about what we might have needed in the region. Will 
some of the assets that are used in Afghanistan be redirected 
to AFRICOM for future use, do you think?
    General Dempsey. As assets become excess capacity anywhere, 
we have that process, as I mentioned to Senator Reed, called 
the global force management process, where we do it on an 
annual basis, but then monthly, we meet to redistribute as 
necessary as threats go up and down. So, yes, absolutely, I 
would expect that over time additional assets would be made 
available.
    Senator Shaheen. Reports suggest that AFRICOM has been 
under-resourced because of Afghanistan. Is there a 
reprioritization that we should be doing as we are drawing down 
forces in Afghanistan and looking at what we need to do? Given 
the challenge of, the potential challenge of sequestration if 
we can't act in Congress to address that--and I certainly hope 
that we can; I think it's responsible for us to do that. But 
how do you expect that reprioritization to occur, given the 
budget challenges we're facing?
    General Dempsey. First, I'd like to suggest a little 
different wording. You said is AFRICOM disadvantaged because of 
Afghanistan. The answer is no. The resources we have that are 
in Afghanistan are there because that's where the threat, the 
greatest threat to the homeland resides, in western Pakistan 
and in some cases, northeastern Afghanistan. So those are 
direct threats to the homeland. It's Afghanistan, but it 
happens to be where the threat is.
    So as the threat migrates and changes, we reprioritize. To 
your point about sequestration, yes, you will see a definite 
degradation if we have to absorb both the magnitude and the 
mechanism of sequestration.
    Senator Shaheen. Thank you. Just to be clear, I suggested 
that other reports have indicated that they may have been 
under-resourced. So I didn't intend to make that accusation, 
but really just to raise it as a question.
    So thank you very much.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to both of you for being here today and thank you 
for your service and all you do for our country.
    I certainly appreciate and respect the fact that, as you 
acknowledged in your opening statements, it isn't possible for 
you to be all things to all people. It's not possible for you 
to be anywhere in the world within notice of only a few 
minutes, and we need to keep that in mind as we look at this 
sad, unfortunate situation.
    We also recognize the concern that you have for U.S. 
personnel everywhere around and respect what you do for them.
    I do want to follow up a little bit on some of the 
questions that Senator Graham was asking a few minutes ago. 
Secretary Panetta, a few minutes ago you indicated that we 
didn't have boots-on-the-ground, we didn't deploy forces, 
because the attack came to an end. But as Senator Graham 
pointed out, this is an attack that lasted nearly 8 hours from 
start to finish. So at some point there had to have been a 
decision made not to deploy them. At what point in that 
timeframe was it made, or was it not made, until after the 
attack had ended, nearly 8 hours after it began?
    Secretary Panetta. Senator, again, just to bring you back 
to the events as they took place, there was this initial attack 
on the facility at Benghazi. Within an hour or so that ended, 
and, very frankly, we thought that was the end of what had 
occurred there, and we had no intelligence that a second attack 
would take place at the annex, 2 miles away.
    Senator Lee. But we didn't know. We didn't know. What we 
did know was that a lot of people were still unaccounted for. 
So the immediate attack was perhaps not visibly underway, but 
you weren't certain that there wouldn't be more fighting.
    Secretary Panetta. Obviously, you're not certain about what 
may or may not happen. But the issue of whether or not you 
suddenly deploy a platoon or a team into an area, you still 
have to determine whether or not the situation requires the 
deployment of that force there. Frankly, when we were told that 
the attack was over we immediately--although we had the forces 
in place, we would have responded if something had indicated 
more, we had no intelligence to indicate that that was the 
case.
    Senator Lee. Okay, and to what point are you referring 
right now? You were talking about the initial attack on the 
compound?
    Secretary Panetta. That's correct, that's correct.
    Senator Lee. So was that decision revisited hours later 
when in the early hours of the morning Benghazi time another 
pretty considerable attack came about?
    General Dempsey. Let me make sure. Once the attack 
occurred, we started moving forces. It didn't matter really 
whether there was another attack. We were moving the forces, 
and as they were moving we would direct them where they were 
needed. I actually thought they would likely be needed in 
Tripoli, but they were moving. Nothing we did slowed that 
process down.
    Senator Lee. Did they get to Tripoli?
    General Dempsey. They did. They're there now.
    Senator Lee. Why didn't they move forward to Benghazi?
    General Dempsey. There was no need to do it by the time 
they got there.
    Senator Lee. How did you know there was no need to do it?
    General Dempsey. Because everybody was out of Benghazi.
    Senator Lee. Okay, and yet it took another 23 days, as I 
understand it, to secure the compound after the attack had 
completed, had ended. So why did it take 23 days to secure the 
compound?
    Secretary Panetta. Senator, we were not requested to secure 
that compound. When the FBI decided to go in and then requested 
us to provide security, we did.
    Senator Lee. After the FBI requested that, at that point?
    Secretary Panetta. That's correct.
    Senator Lee. But again going back to the early morning 
hours Benghazi time when there was still fighting going on, how 
did you know that that was the end of it? Or are you saying it 
didn't matter at that point because you had removed all the 
Americans from the compound and from the annex?
    General Dempsey. What I've said, Senator, is that when we 
put the forces in motion, they continued in motion until they 
arrived at the location.
    Senator Lee. At what point did you put them in motion?
    General Dempsey. Immediately, but there's notification to 
liftoff and then there's transit time. It was a significant 
amount of time.
    Senator Lee. Had they been on alert or at a higher state of 
alert, could you perhaps have gotten them there faster?
    General Dempsey. I think, yes, they could have. We 
routinely leave forces at N+6. Some of them were at N+4, some 
of them were at N+2. No one is ever sitting there on the tarmac 
waiting, but we do dial up and dial down the alert posture.
    Senator Lee. Looking back, given that it was an important 
anniversary, September 11, was there good reason to have put 
them at a higher state of alert than they were?
    General Dempsey. Looking back is a lot clearer than looking 
forward. I will tell you that as part of this study that the 
Secretary of Defense described we have changed our alert 
posture globally. The question is whether we can sustain it 
over time. It's challenging to sustain those kinds of alert 
postures.
    Senator Lee. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, Mr. Ranking Member, 
General Dempsey, Secretary Panetta.
    Mr. Secretary, your testimony is where I'm going to start, 
and an observation and then some questions. The line that I 
find the most provocative: ``That brings me to my greatest 
concern right now as Secretary and, frankly, the greatest 
security risk we are facing as a Nation, which is budget 
uncertainty, which could prompt the most significant military 
readiness crisis in more than a decade.''
    That's a provocative statement, ``greatest security risk as 
a Nation.'' Iran, North Korea, al Qaeda, including al Qaeda in 
the Maghreb. But I gather the thrust of the point is our 
ability to respond to any of those security threats is 
completely dependent upon a national security posture that is 
informed by budget decisions rather than budget indecision.
    Yesterday, it was announced that you had approved a 
decision to take the USS Harry Truman and the USS Gettysburg 
and delay their deployment pursuant to a U.S. Central Command 
(CENTCOM) desire that they be deployed in the Middle East, and 
to delay the deployment purely because of the effect of the 
March 1 sequester and the now-increasing likelihood that that 
would happen. I regret that you had to make a decision of this 
kind, to sacrifice our Nation's readiness. You were faced with 
the choice of deploying a second carrier in the Middle East 
that could provide some additional security, including in the 
area that we're talking about at this hearing. Instead, you 
decided to keep that carrier homeported in Norfolk because of 
budgetary concerns.
    You shouldn't have had to make that decision. The safety of 
the men and women we have deployed in Afghanistan, in the 
Middle East, and Pakistan is at stake and the very matters 
we're talking about at this hearing are at stake when you have 
to make a decision of that kind, the ability of our military to 
respond to crises in some volatile parts of the world.
    You didn't cancel the carrier deployment because this part 
of the world suddenly was safer. Our ability to respond is at 
stake and, as you pointed out in an earlier answer, this also 
affects individual morale of individuals who subleased 
apartments. There was an article this morning in the Virginian 
Pilot. It said, ``Airman Carly Grice, 20, of Kentwood, LA, said 
she had been excited to go on the first deployment. ``This was 
a letdown. Actually, I'm disappointed,'' said Grice. She joined 
the Navy in August and hopes to make a career in the service. 
She wonders whether that's realistic, given the budgetary 
issues.''
    The military today is filled with 20-year-olds or newly-
minted lieutenants or others who will be the future leadership 
of our military. There's probably someone in the military right 
now, General Dempsey, who will be a future head of the Joint 
Chiefs of Staff. But I suspect that virtually all of them are 
wondering whether a career in the military is realistic given 
what they've seen from this body, what they've seen in terms of 
the budget that might inform whether they can make that a 
realistic choice.
    I hope Congress is taking notice of your provocative 
comment, which, I think, is an accurate one. The decision 
regarding the Truman is going to be the first of many, I 
suspect, unless we do something to replace sequester. We all 
know sequester was never intended to happen, Mr. Secretary, as 
you mentioned. We should, in my view, finish last year's 
appropriations process, enact deficit reduction to align the 
sequester with the budget process, do a meaningful budget 
process, and make the decisions exactly as you described.
    You did a national security review inside DOD and then let 
that drive some budgetary decisions. We're letting our budget 
drive national security. Even worse, we're letting budgetary 
inaction drive national security, and I fear greatly for our 
security posture as a result of where we are right now.
    So, Mr. Secretary, I gather we're likely to see a whole lot 
of things like the Truman announcement yesterday that would 
potentially weaken our readiness, demoralize our Active Duty 
men and women, and leave us less safe, unless we find an 
alternative to sequester.
    Secretary Panetta. I truly hope that that does not become 
the case. Senator, we can do this right. The United States of 
America is the strongest military power on Earth. We're the 
strongest democracy on Earth. If we have to reduce the budget, 
as we do, $487 billion, I can get that done pursuant to a 
strategy that protects the strongest military on Earth.
    There is no reason why an arbitrary legislative mechanism 
that was designed, not because it was good policy, but because 
it was bad policy, to drive action, should now take place. I 
cannot imagine that Congress would simply stand by and let that 
happen because the consequences are just as you've described. 
If we go into sequester, then we are going to have to take 
steps to implement another $500 billion in cuts in a way that 
will, make no mistake, hollow out the force and weaken the 
United States of America as a military power.
    We don't have to do that. This is a self-inflicted wound. 
We do not have to do this. That's why I think the General and 
I, we're trying to take steps to prepare for that, should it 
happen. But we're trying to do it in a way that makes these 
steps reversible, so that we can again get back to the business 
of defending this country.
    But if this continues and if this happens, then you are 
absolutely correct, this is the beginning of a number of steps 
we're going to have to take that are going to badly damage our 
readiness.
    Senator Kaine. What does it mean, when CENTCOM has decided 
that there should be two carriers in the Middle East and 
decides purely because of sequester we can't do that, what does 
that mean to our readiness posture and what message does it 
send to allies and adversaries?
    Secretary Panetta. First, I'm going to assure you, and I 
think General Dempsey can speak to this, we're going to do 
everything we can to make sure that we are prepared to deal 
with the threat from Iran. We will have one carrier there. We 
will deploy other forces there so that we can hopefully fill 
the gap. But our hope had been that we could have two carriers, 
which would give us the flexibility to have the kind of rapid 
response that we will need if we have to deal with a crisis 
there.
    Senator Kaine. In terms just of the sheer organizational 
effort, I assume it's thousands of hours for your personnel to 
try to figure out how to contort your budget to comply with the 
sequester, that would much better be spent looking forward and 
working on a fiscal year 2014 budget.
    Secretary Panetta. You bet.
    Senator Kaine. Thank you.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Secretary, General Dempsey, I'd like to begin by 
thanking the two of you for being here this morning and for 
your extended service. I will say, Secretary Panetta, I regret 
that you and I have not had the opportunity to work together 
since I'm a new member of this committee. But I will tell you, 
you have over many years earned a reputation for being fair-
minded, for looking for bipartisan compromise, and for looking 
for solutions.
    Indeed, I will pass along a comment that was made to me by 
a more senior Republican on this committee about you, in which 
you were characterized as a ``straight shooter,'' which as you 
know in Washington is both a rare compliment and a very high 
compliment. So I want to thank you for your principled 
dedication to this country and your long service.
    I want to likewise thank you, General Dempsey, for your 
service, your many decades defending the Nation, and your 
passionate commitment to standing with the men and women of the 
military and protecting the interests of the United States.
    It is my hope that this hearing can be a helpful moment in 
terms of learning productive lessons learned from the tragic 
attack at Benghazi. What I would like to focus on principally 
is the window between when the attack began and 5:15 a.m. in 
the morning when Navy SEALs Glen Doherty and Tyrone Woods lost 
their lives. There are roughly 7\1/2\ hours there.
    I recognize that in any military conflict one inevitably 
faces the proverbial fog of war. But what I'd like to ask you 
to do is use the 20-20 hindsight we have now. If you could go 
back in time with the knowledge you have today and play it over 
again, if at 9:42 p.m. Benghazi time when the first attack 
began you knew that at 5:15 a.m. two former SEALs would be on 
the roof of that annex and would face mortar fire, what 
specifically could have been done if we had that knowledge--and 
I recognize that is a hypothetical, but if we had that 
knowledge--what military options would there have been to 
prevent that loss of life and to stop that attack at the annex?
    Secretary Panetta. Senator, as you said, it's tough to 
respond to a hypothetical. As long as we're talking about 
hypotheticals, the best that would have happened here is that 
we would have had a heads-up and we would have had troops on 
the ground to protect that facility. That's the best scenario 
and that's what works the best.
    Once an attack takes place, the biggest problem you have is 
getting accurate information about exactly what is taking place 
in order to then develop what response you need to do it. You 
can't just willy-nilly send F-16s there and blow the hell out 
of a place without knowing what's taking place. You can't send 
AC-130s there and blow the hell out of a target without knowing 
what's taking place. You have to be able to have good 
information about what is taking place in order to be able to 
effectively respond.
    Senator Cruz. So in your judgment, if I understand you 
correctly, the most effective means would have been to have 
boots-on-the-ground?
    Secretary Panetta. That's correct.
    Senator Cruz. If--and again this is a hypothetical--at 9:42 
p.m. you had received a direct order to have boots-on-the-
ground to defend our men and women there, what is the absolute 
fastest that that could have been carried out?
    General Dempsey. Based on our posture at the time, it would 
have been N+6 plus transit time with the closest ground force 
available. So you're looking at something best case between 13 
and 15 hours.
    Senator Cruz. So if I understand your testimony correctly, 
in your military judgment there was no way conceivably to get 
troops on the ground sooner than 13 to 15 hours?
    General Dempsey. That's correct.
    Senator Cruz. How about assets like an AC-130. If you had 
received an order at the outset to deploy an aircraft like an 
AC-130, what would have been the absolute fastest it could have 
arrived at Benghazi?
    General Dempsey. I don't even know exactly where they were, 
but I know there were no AC-130s anywhere near North Africa 
that night.
    Senator Cruz. I'd like to also spend a few moments on the 
decisionmaking as this crisis unfolded. I take it neither of 
you received the hypothetical order at any point to get boots-
on-the-ground immediately?
    Secretary Panetta. No, that's right.
    Senator Cruz. Now, both of you mentioned that at 5 p.m. 
Washington, DC, time you met with President Obama for a 
regularly scheduled meeting, during which you discussed the 
attack at Benghazi that had happened about an hour and 20 
minutes earlier. You said the total meeting lasted roughly 30 
minutes. How much of the meeting would you estimate covered 
Benghazi?
    Secretary Panetta. We teed up that issue when we walked 
into the Oval Office, so I would say that the first 15 or 20 
minutes were spent on the concern about that, as well as Cairo 
and what might happen there.
    Senator Cruz. After that 15 or 20 minutes discussion of 
Benghazi, do I understand your testimony correctly that neither 
of you had any subsequent conversations with the President the 
rest of that day and that evening?
    Secretary Panetta. We continued to talk. I think we teed up 
some other issues that we were dealing with at the time to 
inform the President, and then once that concluded we both went 
back to the Pentagon and immediately I ordered the deployment 
of these forces into place.
    Senator Cruz. In between 9:42 p.m. Benghazi time when the 
first attack started and 5:15 a.m. when Mr. Doherty and Mr. 
Woods lost their lives, what conversations did either of you 
have with Secretary Clinton?
    Secretary Panetta. We did not have any conversations with 
Secretary Clinton.
    Senator Cruz. General Dempsey, the same is true for you?
    General Dempsey. Yes.
    Senator Cruz. One final question because my time has 
expired. Senator Lee asked you about securing the compound and 
noted that it took some 23 days to do so, and I think to the 
astonishment of many viewers, we had CNN crews discovering what 
appeared to be sensitive documents, rather than U.S. forces or 
law enforcement.
    I just want to make sure I understood your answer 
correctly, in that you said that you were not requested to 
secure the compound and had you been requested to secure the 
compound, in your judgment, the U.S. military could have done 
so and it could have done so effectively?
    Secretary Panetta. Yes.
    Senator Cruz. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cruz.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary Panetta, as I'm sure everybody said, this is your 
last time before this committee. We certainly want to take an 
opportunity to thank you for your extraordinary service as 
Secretary and all the other accolades and services that you 
have provided to the people of the United States. So I too want 
to echo my sincere thanks.
    General Dempsey, thank you too for your continued service 
as we go forward.
    The September 11 attack drew attention to the use of local 
militia by the Department of State for protection in Benghazi. 
On the night of the attack, security consisted of three armed 
militia members as well as four locally hired unarmed guards 
and five armed Diplomatic Security agents. I understand that 
the three militia personnel were members of the February 17th 
Martyrs Brigade, which is a local militia that participated in 
the anti-Qadafi uprising.
    Documents recovered from the post indicated that, while the 
local militias trained with U.S. officials for this role, 
militia members were generally expected to provide their own 
weapons and their own ammunition in order to protect.
    To what extent has DOD also relied on such arrangements in 
high-threat areas in which central government forces did not 
fully control the territory, such as Afghanistan? How should 
the committee view the use of local militias for force 
protection? Both of you, if you can answer this question, 
please.
    General Dempsey. During my time in Iraq, we had third-
country nationals who provided contracted support, as well as 
some U.S. contractors for support. We never reached the point 
where, in my time there, we were using Iraqis, for example. 
Now, I do know that it's common practice in most countries to 
use local bodyguards and local security forces, so it is the 
norm, not the exception.
    Senator Hagan. Typically that's with the country, though, 
that has an organized government.
    General Dempsey. Yes, I think that's a fair 
characterization.
    Secretary Panetta. It's something you see in tribal 
societies, obviously. We see that in Afghanistan, where they've 
developed local militias in some of the different areas, to 
provide security. I think the key there is that sometimes it 
works very well as a way to secure that community, depending on 
the quality of the militia involved, and sometimes it can get 
out of control.
    Senator Hagan. Secretary Panetta, in your opening statement 
you suggested DOD is looking at how you can assist the 
development of host nation forces using a range of security 
assistance authorities to train and equip these forces. I chair 
the Emerging Threats and Capabilities Subcommittee, which does 
have jurisdiction over DOD's train-and-equip authorities, and 
I'd be interested in hearing whether you think DOD currently 
has the authority to conduct these training operations or 
whether you would need to seek new authorities?
    Secretary Panetta. I feel pretty good about the authority 
we have now in the ability to go in. Again, you have to have 
the country, the host country, actually request this kind of 
assistance and this kind of training. But if they're 
cooperative and if they want this kind of help, we have the 
capability and the authorities to help provide that.
    Senator Hagan. Are the host nation forces you're looking to 
engage members of the military, civilian law enforcement, or 
are these local guard forces that would be employees of the 
diplomatic post?
    Secretary Panetta. We can work with whatever security 
forces that that particular country wants to get trained. We 
can help provide the training necessary. It's up to the country 
as to just exactly what kind of security they're going to 
provide around an embassy.
    Senator Hagan. What is your comfort level if they decline 
to have assistance with training?
    Secretary Panetta. It makes me very nervous.
    Senator Hagan. Then what's Plan B in that case?
    Secretary Panetta. I think Plan B, in that instance, is 
that you do have to do everything possible to harden that 
embassy, make sure it's secured, make sure that we have the 
marines in place to try to provide additional security, make 
sure that they have the additional security hired with the 
embassy to protect it in that event, and make sure that we have 
the ability to respond quickly if we're asked to be able to go 
in and do what we have to do to help those that are located in 
the embassy.
    Senator Hagan. Did you feel comfortable with the training 
of the local militia in Libya?
    Secretary Panetta. Not at all. I think it was having been 
at the CIA, we did some work to try to assist the militias, the 
opposition forces that were involved against Qadafi at the 
time. But as usual, in this instance these are groups that are 
pretty dispersed and represent a number of different opposing 
elements. It's not a well-coordinated opposition, and I think 
that was the case with the militias.
    Senator Hagan. I guess I was concerned when I read, too, 
about them providing their own ammunition and weapons.
    Secretary Panetta. It's not--Libya--as we've pointed out, 
these countries that are going through the transitions that 
have taken place since their various revolutions, one of the 
areas that's hurting is the quality of their ability to provide 
security to the embassies that are located in their country. 
That's a problem that we're having to confront more and more in 
that part of the world.
    Senator Hagan. We certainly need to take in mind, as I'm 
sure you do, the safety and security of our Embassy personnel 
first and foremost.
    A variety of organizations have been named in media reports 
as responsible for the attack against our U.S. facilities in 
Benghazi and more recently on the British Petroleum (BP) 
facilities in Algeria. Some of these organizations are familiar 
names, but others, such as the Ansar Al-Sharia, are not well 
known. Of the violent extremists operating in North Africa, are 
there any groups or individuals DOD has designated as eligible 
for targeting under the authorization for use of military 
force? Also, how is such a determination made?
    Secretary Panetta. Obviously, al Qaeda and its affiliates 
are at the top of the list. If it's al Qaeda and al Qaeda-
related, then obviously we do have authorities to be able to go 
after them. But in order to do that, you have to identify who 
the individuals are, what is the threat that they constitute. 
The lawyers then review that and determine whether or not 
that's somebody who can actually be targeted.
    General Dempsey. There are a handful of high-value 
individuals or high-interest individuals who have been 
designated. In terms of those perpetrators of the Benghazi 
attack, we continue to try to develop the intelligence, so to 
this point none of them have been designated, although we work 
with other agencies to try to build the intelligence case to do 
so.
    Senator Hagan. My time has expired. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    Secretary Panetta, congratulations on a very interesting 
and distinguished career. I'm honored to have served with you 
in the House of Representatives and to have been your 
colleague. I wish you the best in your future endeavors.
    Having said that, you were very forceful today in talking 
about sequestration. I heard you in the media yesterday making 
a very forceful statement about how irresponsible it would be 
not to fix this before it goes into effect. Let me just suggest 
this.
    Our colleagues at the other end of the building in the 
House of Representatives came forward with a bill. They put it 
into bill language. They had it scored. They passed a rule. 
They voted on it and sent it to us. Agree with it or not, they 
came up with a specific answer to it, and there's been no 
answer back from the Senate side.
    The President made a pronouncement about it a few days ago. 
Mr. Secretary, you can't score a speech. You can't score 
general concepts. When you see the President, tell him we'd be 
happy to hear his specific views about how those revenues 
should come in to fix this problem because, frankly, people 
from my side of the aisle have been calling on the President 
for specific suggestions, specific proposals that you can 
score, that you can put in bill language, and we haven't had 
that for over a year. So when you see the President, please 
make that suggestion to him.
    Now, General, let me ask you this. I don't see where the 
intelligence gap is that you mentioned in response to Senator 
Chambliss' question. He asked if this was an intelligence 
failure and you said no, it's an intelligence gap. Then in 
fleshing out the testimony, it seems that you knew everything 
you needed to know: the militia fire onto the compound, the IED 
attack on the UN, the attack on the Red Cross, the abduction of 
Red Cross workers, the Red Cross deciding then to pull out of 
Benghazi; the same thing with the United Kingdom, an RPG attack 
on them. The United Kingdom got the message and pulled out.
    Yet, we didn't take the same message, apparently. We didn't 
make the same decisions at least from the attacks on the United 
States and U.S. interests.
    Are you suggesting that there was something else that you 
needed to know from intelligence sources? Or are you suggesting 
in the alternative that really the only thing missing was a 
request from the State Department? You got it in Yemen and you 
acted on it. You didn't get that request from the State 
Department officially on Benghazi, so you didn't make 
arrangements for security there. Would you clear that up?
    General Dempsey. Yes. Thanks for the opportunity, Senator. 
First of all, what I did know is what I was told in General 
Ham's weekly reports, which reflected a deteriorating security 
situation in Eastern Libya.
    Senator Wicker. Let me interject there.
    General Dempsey. Sure.
    Senator Wicker. Did those come up through the military 
personnel on the country teams?
    General Dempsey. No. These are reports directly from the 
combatant commander to the Secretary of Defense.
    Senator Wicker. Where did the combatant commander get his 
information?
    General Dempsey. He's in constant touch with those deployed 
throughout the region, defense attaches, and in some cases----
    Senator Wicker. The defense attache would be a member of 
the country team?
    General Dempsey. Sure.
    Senator Wicker. Okay. Then proceed ahead.
    General Dempsey. Okay. So I was made aware that a cable 
expressing that concern had been sent. I didn't read the cable 
myself. I'm reflecting what I knew from General Ham.
    Furthermore, I don't know whether the cable on the 16th of 
August resulted in any request from the Embassy team in Tripoli 
to the State Department. All I can tell you is we didn't get a 
request at DOD. So I'm not suggesting that State got it and 
didn't do anything with it. I don't know what--I think the 
internal deliberations in Tripoli were still ongoing.
    What I can tell you with great confidence is we didn't get 
any request for additional security.
    Senator Wicker. Did you know that the Red Cross had been 
attacked, that Red Cross workers had been abducted, and that 
the Red Cross subsequently suspended their Benghazi operation? 
Did you know that?
    General Dempsey. I did.
    Senator Wicker. You did, okay. Did you know that the United 
Kingdom had undergone an attack and that they had decided to 
close their mission in Benghazi?
    General Dempsey. I did.
    Senator Wicker. Did you then know about the attack on 
American interests?
    General Dempsey. Through the course of the summer?
    Senator Wicker. Through General Ham, you knew about the 
attacks on the United States.
    General Dempsey. General Ham was very good about reporting 
the deteriorating security situation in Libya.
    Senator Wicker. You did not feel that you as Chairman of 
the Joint Chiefs of Staff were in a position based on that to 
make a decision to send in extra security for those American 
interests there?
    General Dempsey. I'd like to answer that in two ways. 
First, this deteriorating situation in Libya wasn't unique. It 
was in the context--I know that some will suggest it was the 
worst thing going on. It was among the worst things going on. 
So in context, the threat streams in Libya were equaled 
elsewhere with equally significant and threatening 
intelligence.
    Second, that's not what we do. We don't impose resources 
into a country without the permission, the request of the host 
nation or the country team in a country.
    Senator Wicker. Do you get military resources close by and 
ready to respond, or must you wait for a State Department 
request to do that also?
    General Dempsey. We adjust alert postures according to 
intelligence where we think the threat is highest.
    Senator Wicker. In retrospect, do you wish you had adjusted 
your alert posture?
    General Dempsey. In retrospect, looking backwards, in 
hindsight----
    Senator Wicker. 20-20 hindsight.
    General Dempsey.--sure.
    Senator Wicker. What would you have done?
    General Dempsey. First of all----
    Senator Wicker. Would you have put them in Crete? Would you 
have put them in Libya?
    General Dempsey. Given the kind of attack that occurred, if 
they weren't in the immediate vicinity they would not have been 
able to affect the outcome. As we've discussed previously, this 
has to be some combination of early decisions.
    Senator Wicker. Secretary Panetta, lessons learned. It 
seems that two factors that allowed this situation to go from 
bad to worse were the very same ones that allowed the first 
September 11 attacks to succeed: First, the lack of effective 
intelligence-sharing. I think enough Americans knew what they 
needed to know to know this was really, really bad. Second, 
stovepiped communications between organizations that are 
supposed to be working together on these sorts of things toward 
common goals.
    So 11 years after September 11, my final question to you: 
Do you believe we're any closer to breaking down these 
institutional barriers, and what steps has DOD taken in this 
regard in response to the Benghazi incident?
    Secretary Panetta. First of all, I do believe, again based 
on my experience at the CIA, involved with intelligence issues 
there, that the Intelligence Community is working much better 
in terms of sharing information, working together, developing 
the teams necessary to be able to gather intelligence, sharing 
that intelligence between the entire community. They're much 
better at doing that and much more effective.
    I think the problem remains that it is the gaps on 
intelligence resources that are out there that, no matter how 
good your sharing is concerned, if you don't have the 
information from a resource out there there's going to be a gap 
and you're going to have the problems that we saw happen here. 
We have to be able to fill those gaps. We have to be able to 
get better HUMINT, better SIGINT, into those areas that we 
don't have good information on. That's number one.
    Number two, we have to--in response to this, what we have 
done is to make sure that we deploy those FASTs that are out 
there. We've located them in key areas. We've reduced their 
response time. We now have airlift associated with them. The 
fact is some of these FASTs did not have airlift; airlift we 
would have had to deliver from other areas. We now have airlift 
that is associated with those teams. So we have taken a number 
of steps to try to improve our ability to respond.
    Senator Wicker. When did you take that last step, on the 
airlift? When did you impose that last?
    Secretary Panetta. We did that early on, soon after what 
happened.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I was sitting here and whenever Senator Graham questions 
witnesses it's always--I'm an old prosecutor, too, and he is 
quite the cross-examination expert and he does a withering 
cross-examination of witnesses when he's trying to make a 
point.
    I started to feel sorry for you, Secretary Panetta. Then I 
thought for a minute about who you are and what you have done 
in this Nation's capital, the service you have provided at the 
White House, at the Pentagon, at the CIA, in Congress, the 
years and years of valuable service that you have given to this 
country. Then I realized you'd be just fine. You didn't need my 
help with Senator Graham's questioning at all. I thank you for 
those years of service.
    General Dempsey, I want to clarify that you have said today 
that once the attack occurred you were moving forces.
    General Dempsey. Yes.
    Senator McCaskill. All right. Now, I want to ask, is 
anybody here from the State Department in the audience? If 
you're here from the State Department, would you raise your 
hand?
    [One hand raised.]
    Senator McCaskill. Okay, we have one hand from the State 
Department. I say that because I have a history that I have 
been involved in doing oversight on embassy security. This 
history goes back to 2009 when the contracting subcommittee 
that I chair did a hearing on the embarrassment of ArmorGroup 
and their ability to protect the Embassy in Kabul.
    After that hearing in 2009, ArmorGroup was let go. Then 
there was a February 2010 hearing of this committee on security 
contracts in contingencies, and it was a sensational hearing 
and I mean that in both senses of the word, because there was 
information that came out at that hearing that, if I were at 
the State Department, I would want to absorb it and get busy.
    Now, a report based on that hearing was issued in a 
classified nature weeks before September 28. But the public 
report came out on September 28. In that report it said that 
local Taliban was working with warlords to provide guards and 
weapons for use in EOD Technology's contracts. It came out that 
they were failing to adequately investigate the guards' 
previous employment, which resulted in the company's hiring 
individuals who had previously been fired for sharing sensitive 
information, security information, with Taliban warlords; 
failure to appropriately vet guards, some of whom, according to 
U.S. intelligence reports, may have been involved in anti-
American activities.
    Now, all that information was out in a classified way 
several weeks before September 28--and was out in public 
September 28. Guess who the State Department gave the contract 
to for guarding Kabul on September 29? EOD Technology. Then, of 
course, they were fired for failure to perform, because they 
could never perform adequately.
    Now, we actually--then they wanted to litigate. Now, 
meanwhile guess who's still guarding? We still had Aegis 
guarding, which was another problem contractor at Kabul. We 
still have ArmorGroup. Then we did a contract with Aegis. Now, 
Aegis finally took over this summer.
    Now, I urge you to take a look--you don't have to, 
Secretary Panetta. You can read a novel. But General Dempsey, I 
hope you will look at the article that was written January 17 
in Foreign Policy magazine about Aegis at the Kabul Embassy and 
the problems that have already surfaced about them.
    Now, I have talked to Patrick Kennedy about this and his 
staff has come over and briefed my staff that they believe 
Aegis is doing just fine.
    The end of this, I have to tell you: the umbrella contract 
for high-level security at embassies is a $10 billion contract 
over 5 years, and it's tasked out to eight different companies. 
I won't go into the IG report on the background checks that 
have been done on the eight. But the people that are at Kabul 
now, it's $100 million a year we're paying them.
    I can't believe we can't use the marines in these 
situations. Somebody has to do a cost-benefit analysis. All 
that I told you--can you imagine the amount of money that we've 
spent fooling around with these contractors that weren't 
getting the job done? Can you imagine the time we've spent on 
this and the money that has been spent?
    I really would like, General Dempsey, for you to talk about 
the cost-benefit of putting marines on our embassies when we 
are in contingencies and why in the world this is so hard for 
us to get our arms around, and where is the analysis that shows 
me we're saving any money?
    General Dempsey. Senator, just to react briefly to what 
would be necessarily a much longer conversation, the marines 
are not--that's not their role. That's not what they do for the 
Nation. Could it be at some point? Potentially. I'd hate to 
think we'd make that decision based on cost. But it would 
require a longer conversation.
    Senator McCaskill. I guess my point is, God forbid we have 
something happen at Kabul, but if we did, a hearing like this 
would look like child's play if you look at the history of 
what's gone on in terms of the guard force at Kabul. I want to 
be reassured that private contractors are working in these 
situations, but when we do a $10 billion umbrella with the 
ability to do tasks out for Pakistan, Iraq, Afghanistan, 
Jerusalem, and it's costing the kind of money it's costing, and 
we know that these embassies are going to be targets, it just 
worries the heck out of me that we are going to be in another 
one of these situations where it's uncomfortable to talk about 
hindsight instead of foresight.
    So I would really like you to look at the highest levels, 
at a macro level, because the War Contracting Commission said 
we should not be using private contractors on embassies when we 
have this kind of heightened security risk. I really think it's 
time for us to do a gut check on whether or not we should, in 
fact, be relying on inept local militia or inept contractors.
    Secretary Panetta. Senator, let me just commend you for the 
work you've been doing with regards to these kinds of contracts 
and the quality of individuals that are involved.
    The reality is that the State Department, as a matter of 
fact, my old agency, rely on these kinds of contracts for 
security and that's a reality. Anything you can do to try to 
make sure that these individuals are well-trained, do the job, 
and that we're not wasting money would be extremely helpful, 
because right now we depend a great deal on that kind of 
contracting.
    Senator McCaskill. Is there a way we can get back to the 
point, Secretary Panetta, that we're not relying on a contract 
force to do what is inherently a government function? It's 
almost like I hit a brick wall every time I talk about this. 
Why is it that this has to be a contract function? Why can't we 
use the best-trained military in the world to protect our most 
valued assets in our most dangerous places?
    Secretary Panetta. I think the reality, just speaking with 
regards to my old agency, is that we're deployed in so many 
areas that you can't expect the military to pop up there and 
provide that kind of protection; they have to get security on 
site and get it from the very best people that they can 
contract with. That has become the reality that we're dealing 
with.
    Senator McCaskill. Because of the need to integrate into 
the community and therefore if you have military it stands out?
    Secretary Panetta. That's right.
    Senator McCaskill. I can see that, particularly under the 
aegis of the intelligence agency.
    Secretary Panetta. That's right.
    Senator McCaskill. But for embassies it seems to me that 
this shouldn't be such a hard reach.
    Thank you both. Thank you, General Dempsey. I hope you 
enjoy the California weather.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service to this country. 
We are so much in your debt for time after time answering the 
call. Thank you very much.
    Major--General Dempsey--much better being a general. Thank 
you for everything you have done for our forces and for our 
country.
    I want to express my condolences to all the families who 
have suffered losses in this tragedy; and that we will do 
everything we can to make sure it never happens again.
    Earlier in the hearing, Mr. Secretary, you said that it is 
not DOD's job to be 911. So the question that struck me is: So 
when this happens, and it happens so fast and so quick that 
when you respond in an hour it may already be over by that 
time. Are we relying on the home country to be 911? If so, as 
you go through what they're providing to us--you mentioned some 
are not up to the quality of others at this time. But how are 
you making that decision that we have people in harm's way and 
we're relying on a host nation that might not be up to taking 
care of our people?
    Secretary Panetta. Obviously, it's very important that the 
ambassador determine what is the situation and whether or not 
there's a need for action. The 911 is basically the host 
country that has to respond quickly and provide immediate 
security around. If that's not there, you have to have security 
within the Embassy itself. If that's not there, you have to 
have intelligence that gives you a heads-up that it's a 
dangerous situation and it's subject to an attack. Then if 
that's not there, obviously we have to be hopefully in a place 
where we can be able to respond if we have to.
    That's your overall 911 to try to deal with situations in 
the embassies that are out there.
    Senator Donnelly. Because my concern is, as much as some of 
these host nations are our friends, that their ability 
obviously is not as successful as our ability in defending our 
own. So how do you determine, other than the ambassador telling 
you, hey, we think we're here or we think we're there? Are 
there reviews done at DOD when you look at say in a Benghazi 
or--I don't want to go city by city for obvious security 
reasons, but when you look at these? How often do you 
determine, we'll take a look at this this week and see where we 
are security-wise? I know State is a big part of that as well.
    Secretary Panetta. The best thing we did was State asked us 
to join a team that would look at security at 19 embassies and 
determine what exactly was needed there in order to better 
secure those facilities. I think based on that it gives us the 
opportunity to then deploy additional marines if we have to and 
take additional steps to try to make sure that those embassies 
are not vulnerable.
    So we do work with the State Department when asked to try 
to help provide some guidance with regards to security.
    Senator Donnelly. How often is a review done in some of 
these places, for instance a Benghazi? Is it on a when the 
ambassador says, hey, things are getting a little tougher, or 
every couple of weeks is it looked at as this has deteriorated 
or has gotten better? What kind of matrix is used?
    Secretary Panetta. The primary matrix for that has to rest 
with the State Department and the ambassador within that 
country to be able to review just exactly what is the degree of 
threats that they're confronting and then what actions they 
should take in order to deal with that.
    DOD is in a position where we will respond. If we're asked 
to do something, we will do it. But we're not out there 
basically making judgments about what embassies are secure or 
not secure, what are the threats in the various embassies. You 
have to leave that up to the chief of station and chief of 
mission to be able to make that determination.
    Senator Donnelly. With our noncombatant evacuation 
operations plans that we have, we have approximately 285 
diplomatic missions out there. How far along are we in having 
plans for all of them?
    Secretary Panetta. As you said, we have a number of 
embassies that are out there in the world, and not all 
obviously are Benghazi or Tripoli or Tunisia. The reality is 
that in most countries in the world we can rely on the host 
country to provide security. They're there, they're willing to 
do it, and they do a good job.
    There are some of these embassies in some of these more 
volatile countries that are of concern, and those were the 19 
that were designated by the State Department as ones we had to 
look at more closely and then try to develop a better approach 
to providing security, because their part of the problem is the 
host countries are not very good at providing that kind of 
security.
    Senator Donnelly. It seems this is so much of a distance 
and time challenge, that when it happens, how quickly can we 
respond, how far away are we. Is there almost like a playbook 
for ambassadors, for the people in those facilities, that 
here's the steps to follow, jump on these immediately; if this 
doesn't click, we go to this; if this doesn't click, we go to 
that?
    Secretary Panetta. The best playbook--I'll let the General 
respond to this as well. The best playbook is an ambassador who 
says: We have serious security problems here; we are 
threatened, and therefore we need to take steps to reduce the 
number of personnel in our Embassy; we need to take steps to 
evacuate if we have to. We can then prepare our forces to be 
able to provide help in that situation. That's the best kind of 
situation in terms of being able to respond.
    General Dempsey. Just if I could add, Senator. Each Embassy 
has a resident security officer, well-trained, and an emergency 
action plan for every Embassy. Generally speaking, it's updated 
annually, because I've sat on country teams in various jobs. 
Then the attaches are integrated into that process as part of 
the country team.
    So that process exists. What Secretary Clinton asked me to 
do soon after Benghazi was to collaborate with her to see if we 
could make improvements to that system.
    Senator Donnelly. General, thanks again for your service.
    Mr. Secretary, it's been an honor to have you serve in our 
Government.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Donnelly.
    Senator King.
    Senator King. Mr. Secretary and General, thank you very 
much for your being here. I'd like to associate myself with 
Senator Cruz's comments, that I only regret being a first-year 
Senator, Mr. Secretary, and not be able to work with you, 
although I am in the process of hiring a legislative assistant 
for this committee. So if you go back to California and get 
nostalgic for Washington, let me know, will you? I somehow 
think that's rather unlikely. [Laughter.]
    Secretary Panetta. Been there, done that. [Laughter.]
    Senator King. I want to follow up on a question from 
Senator McCain. The Crete base. I don't know the capacity, but 
given that that was pretty close in terms of transportation 
time, why was that not an option to get people there faster? 
Was it a question of who and what is at the Crete base? General 
Dempsey?
    General Dempsey. The bases that we have in southern Europe 
in the Mediterranean area generally speaking have aircraft. The 
first point I made is that it wasn't the right tool for the 
particular threat we faced.
    Second, the aircraft we have in Europe generally are there 
in support of NATO and on a different alert posture. That was 
not among the forces--the aircraft were not among the forces 
that we had at heightened alert. The heightened alert related 
to these boots-on-the-ground capabilities that could 
preemptively get into an embassy or into a compound to thicken 
its defenses if we had reason to do so.
    Senator King. Those types of troops were not at the Crete 
base at the time of this?
    General Dempsey. No.
    Senator King. Now, to follow up, you talk about how 
everybody wants a fire station next door, it doesn't work. On 
the other hand, in this case, as you testified, there was about 
a 13- to 15-hour practical limitation. I gather since this 
incident you're trying to shorten that. Do you have a target? 
What would we like to be able to do, particularly in these hot 
spots, which we can identify in advance?
    General Dempsey. We're not done making adaptations, but 
what we did initially was take these Commander's In Extremis 
Forces, and the FASTs. The standard has generally been N+6 to 
lift off, plus transit time. So we can reduce the alert posture 
and we do so, watching not only intelligence, but also watching 
things like the social media, because sometimes these events 
crop up out of the social media, believe it or not.
    Second then--but you still can't reduce the transit time. 
That is the limiting factor in AFRICOM, in particular. When I 
say we're not done making adaptations, we've asked each of the 
Services to examine their capability to build additional 
reaction light forces, small, rapidly deployable forces, a 
small Marine Air-Ground Task Force (MAGTAF) for the Marine 
Corps, for example, MAGTF and the Army is looking at some 
options as well, to increase the number of these resources 
across the globe.
    The limiting factor, though, will always be basing, 
especially in AFRICOM.
    Senator King. So you are moving the fire stations nearer.
    General Dempsey. We're trying to build more firemen. The 
question is whether I can build the stations to house them.
    Senator King. I got it.
    Secretary Panetta, a question that doesn't really relate to 
today's discussion, but you're in a unique position. This 
committee is considering a nominee to be your successor, 
Senator Hagel, and later today I'm going to be at a hearing of 
the Senate Select Committee on Intelligence, talking to John 
Brennan. Could you give a brief assessment of those two 
gentlemen and their capabilities and readiness to assume these 
important positions?
    Secretary Panetta. Obviously, that's something that the 
committees now have the opportunity to evaluate. But in my 
view, both of them are outstanding individuals that have a 
great deal of experience and capability to be able to perform 
in an outstanding fashion in each of their jobs. Senator Hagel 
is someone who served in the military, worked up here on the 
Hill, understands the issues that are involved there, and I 
think can be a very effective leader at the Pentagon.
    John Brennan is somebody I worked with as Director of the 
CIA and continued to work with in this capacity. I always found 
him to be very responsible about how we can effectively conduct 
operations against al Qaeda and against those that would attack 
this country. He is, as somebody said, a straight shooter, 
somebody who gives you his best opinion. He doesn't play games. 
He's someone who I think can really honestly represent the best 
protection of this country in that job.
    Senator King. Thank you very much. I also want to thank you 
for your forthright comments today about the sequester. 
Ironically--as I've taken some notes on what you've said and 
what you said in your statement--it appears that as of today 
the greatest threat to American national security is the U.S. 
Congress.
    Thank you, Mr. Secretary.
    Chairman Levin. Thank you, Senator King.
    Let me mention this. After Senator Nelson, the first round 
will be over. There may be a number of us that would want a few 
minutes on a second round, and you two witnesses have been here 
for about 3 hours and you may need a 5- or 10-minute break. The 
question is do you want that immediately following Senator 
Nelson or do you want to go right through? I can't guarantee 
you how many Senators will come back and want 2 or 3 minutes 
each.
    Secretary Panetta. I think if we can take a short break it 
would be helpful.
    Chairman Levin. Right after Senator Nelson we will then 
have a 10-minute break.
    Senator Nelson. Do you need a short break before? What's 
your pleasure, Mr. Chairman?
    Chairman Levin. Since you ask----
    Senator Nelson. I'll make it quick.
    First of all, thank you, Mr. Secretary. You've been an old 
and dear friend and you have served your country exceptionally 
well. Thank you.
    I want to just hit a couple of things, because we've had 
accusations made here that there was 7 hours of warning. The 
truth is when--now, I'll give you some leading questions and if 
you will just answer what you can in an unclassified setting. 
The so-called first attack was not an attack of shooting, was 
it? Wasn't it suddenly the guards out front disappeared and 
suddenly people just walked into the compound?
    Secretary Panetta. That's correct.
    Senator Nelson. This occurred until someone fire-bombed the 
main building, which housed the ambassador and the mission; is 
that correct?
    Secretary Panetta. That's correct.
    Senator Nelson. Then a response team coming from a nearby 
location tried to get there by one route and determined that 
route was not the correct one and went another route; is that 
correct?
    Secretary Panetta. Correct.
    Senator Nelson. But then they got there, got inside, 
rescued one of the people, but in the process of getting them 
out, in all of the smoke and the fire, the ambassador was not 
retrieved from the building.
    Secretary Panetta. That's right.
    Senator Nelson. Okay. Then things stopped and they stopped 
for a number--as the rescue team and the survivor retreated to 
the annex, which was some distance away. I don't recall the 
amount of distance.
    Secretary Panetta. About a couple of miles.
    Senator Nelson. Okay. So everything stopped. An hour or 2 
later, then there was an attack on the annex. Is it true that 
the main building at the annex was not penetrated?
    Secretary Panetta. That's correct.
    Senator Nelson. Okay. Then that subsided; is that correct?
    Secretary Panetta. That's correct.
    Senator Nelson. Then for a period of some 3 hours or more 
nothing happened. Then the attack of the mortars, which is 
going through the roof. That's what killed the two that were 
there in that building.
    Secretary Panetta. I think they were actually on the roof. 
That's how they got----
    Senator Nelson. I see. Then that's a lot different from 
saying that suddenly you had 7 hours of warning, that what 
appeared to start stopped, a retreat to an annex, an attack 
there that was successfully repelled and stopped, and then 
hours later a mortar attack. So I would, Mr. Chairman, like the 
record to show that what has been characterized here is in the 
evaluation of the decisionmakers about their ability to get a 
response team in there--is it also correct that the response 
team from Tripoli were landing on or about the time that the 
mortar attack started?
    Secretary Panetta. That's about right. When they landed, 
they immediately went there and came under fire.
    Senator Nelson. Finally, I'd just say, going to the 
sequester, to respond to these kind of attacks in the future--
and there will be these kinds of attacks in the future--
sequester certainly wouldn't put you into a better position in 
order to respond, would it?
    Secretary Panetta. Absolutely not. We'd have a hard time 
trying to provide the resources that we would need in order to 
be able to do this.
    Senator Nelson. Thank you, Mr. Secretary.
    General Dempsey. If I could----
    Senator Nelson. General?
    General Dempsey. I want to make just one comment related to 
your chronology because I think it's important. Once we started 
moving forces, nothing stopped us, nothing slowed us. The only 
adaptation we thought about making was for a period of time we 
thought we were going to be entering a hostage rescue because 
we didn't know where the ambassador was. But once we started 
forces moving, they didn't slow, they didn't stop.
    Senator Nelson. You didn't know the situation with regard 
to the ambassador until hours later, when, in fact, some 
Libyans had come into that facility and tried to rescue him and 
found him at that point unresponsive from smoke inhalation.
    Secretary Panetta. That's right.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    We're going to take a 10-minute recess.
    [Recess from 1:25 p.m. to 1:36 p.m.]
    Chairman Levin. We have two Senators, one of whom is here 
and the other one who is coming, who have not had a first 
round. Senator Blunt is the first of those two Senators who has 
not had a first round, so I'm now going to call on Senator 
Blunt.
    Senator Blunt. Thank you, Mr. Chairman, and thank you for 
your indulgence. I was at a press conference talking about a 
mental health bill that I think, General Dempsey, will have 
some real impact on people who have left the military, and 
they're looking at the community health centers as a mental 
health model.
    One question I have. I saw, General Dempsey, in your 
comments over the weekend--I think it was on ``State of the 
Union''--that looking back you don't know of anything you could 
have done differently. Was that your response?
    General Dempsey. That was my response, yes, Senator.
    Senator Blunt. How about looking forward? What would you do 
differently or what are we--let's do that in two questions. 
One, what would you do differently if the same circumstance 
occurred again? What are you doing to prepare for a different 
kind of response?
    General Dempsey. Two things. One is the ARB, the Pickering-
Mullen review board, made 29 recommendations and both the State 
Department and DOD have accepted and will implement all of 
those.
    Separately, Secretary Clinton and I agreed to a review of 
embassy security in any number of locations, the result of 
which will be to focus on 19 of them to try to improve their 
security situation.
    We also, internally to the Joint Staff and with the 
combatant commanders, worked on a white paper, described as 
``The New Norm,'' to account for the lack of host nation 
capability in some parts of the world. The Secretary already 
mentioned that some of the results of that include the 
augmentation of the MSGs, changing the posture level, directing 
combatant commanders to have additional forces as reaction 
forces. So we're continuing with----
    Senator Blunt. With ``The New Norm,'' are we repositioned 
in a way in this dangerous part of the world and many areas you 
have both mentioned today where we could respond now quicker 
than 7 hours? If we had the same 7-hour window, could we get 
somebody there?
    General Dempsey. Senator, in many places the answer is yes. 
The limiting factor in Africa are bases, frankly. We don't have 
a base architecture, with the exception of Djibouti on the east 
coast, where we could position forces. So what that requires is 
earlier decisionmaking collaboratively with the State 
Department and I'll describe them as preemptive requests. The 
earlier decisionmaking can be to close an embassy, as we did 
recently--I say ``we''; the State Department did--in the 
Central African Republic. It can be thinning it out, as they 
did in Khartoum. Or it can be asking for additional security 
forces.
    Senator Blunt. On one other area, I know at least for the 
first several years after September 11 there was always an 
active discussion of what was going to happen on September 11. 
Now, on September 10 Zawahiri did a video where he actually 
talked about al-Libbi, the Libyan, being killed by Americans, 
and how they must get even. Secretary Panetta, are you aware, 
was there any evaluation of what that might mean and whether we 
should be thinking about how to respond to that threat?
    Secretary Panetta. My recollection is that that was all 
part and parcel of looking at the general counterterrorism 
situation that we were concerned about in the region. The 
issue, frankly, that was probably more preeminent the day 
before was what would be the impact of that video that was 
coming out that inflamed a lot of the situation in the area.
    Senator Blunt. I would have thought from the Zawahiri video 
that there would have been some sense that Libya could be a 
target. I don't know if we have stepped back from our view that 
al Qaeda was able to do things, and I'm not saying this was a 
total al Qaeda operation, but clearly al Qaeda's out there 
talking about a Libyan that was killed and how we needed to get 
even with the Americans for that the day before all this 
happened. It concerns me that there appears not to have been 
the evaluation that I think went on pretty aggressively for the 
first 8 years or so after September 11. I hope one thing surely 
we're getting out of this is that there are still terrorists in 
the world and they still want to do us harm.
    Secretary Panetta. No question about that. Senator, there 
are elements of al Qaeda throughout that part of the world, and 
they represent a continuing threat in that part of the world. 
That's why we're doing the operations we're doing in Yemen. 
That's why we're doing the operations in Somalia and, frankly, 
that's why we're assisting the French with regards to al Qaeda 
in the Islamic Maghreb.
    We do have to be vigilant about the elements of al Qaeda, 
where they are, where they can be, and the kind of threat that 
they represent.
    Senator Blunt. My last question will be: Did we call on 
anybody else who had friendly forces in Benghazi to come to our 
assistance? The Turks? People we had helped in that area 
recently by coming to their assistance, did we ask for any help 
that might have already been on the ground there?
    General Dempsey. The only military forces were the 17 
February Militia and the call went to them immediately, because 
they had been supportive of us ever since the overthrow.
    Senator Blunt. There were no alternative security forces--
--
    General Dempsey. No.
    Senator Blunt.--that other countries had?
    General Dempsey. None that we were aware of.
    Senator Blunt. That we could have called on? If we weren't 
aware of them, I guess we didn't call on them.
    Now, we had come to the aid of--I think there was an attack 
on someone from Turkey within the previous month, and we had 
sent some people to that scene. I've always wondered why we 
didn't try to further secure the people we had there, if we 
couldn't get people there. You're telling me, General, that 
there was really nobody to call on?
    General Dempsey. I'm telling you that I wasn't aware of 
any, nor was the Commander of AFRICOM.
    Senator Blunt. Are we evaluating whether we're going to use 
groups like February 17 again or not?
    General Dempsey. Absolutely.
    Senator Blunt. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Hirono.
    Senator Hirono. Thank you very much, Mr. Chairman.
    Secretary Panetta and General Dempsey, thank you so much 
for your testimony for the last number of hours. Of course, 
Secretary Panetta, I join my colleagues in thanking you for 
your service to our country. You came out of retirement to help 
this country and serve in very challenging times, and my very 
best to you in your future endeavors. Of course, you did an 
outstanding job at both the CIA and at DOD, and especially 
today as we talk about the need to coordinate the efforts 
across various departments, I think, your experience will be 
very much missed. You led the men and women of both 
organizations with tremendous competence, passion, and 
conviction. I thank you very much.
    Of course, I am very envious of the fact that you get to go 
back to a beautiful place, the Monterey Peninsula, a place that 
I've visited often.
    For the Americans who lost their lives in Benghazi--
Ambassador Chris Stevens, Sean Smith, Tyrone Woods, and Glen 
Doherty--they were heroes and they represented our country 
proudly. While I understand that there are often risks involved 
in diplomatic work, I want to ensure, as do all of us, that we 
do everything we can to ensure the safety and security of our 
people who take on these assignments in often dangerous 
circumstances.
    Now, the State Department's ARB described a gap in 
intelligence coverage for the area and it is one of their 
findings, number 4. Mr. Secretary, drawing from your experience 
at DOD and the CIA, in your estimation what caused this gap in 
intelligence? Was it a tasking prioritization issue with just 
too many areas to watch? Or are there structural impediments 
within or among the intelligence organizations that led to the 
tragedy in Benghazi? How would you improve the situation?
    Secretary Panetta. It's a huge challenge. Obviously, our 
ability to develop the sources that we needed in going after al 
Qaeda in Pakistan was critical. The same thing was true in 
Afghanistan, to be able to go after the targets there, develop 
those resources. In Yemen, we had to develop a whole base of 
better sources in order to be able to conduct the operations 
there. The same thing was true in Somalia.
    So there's a whole issue of prioritizing what are those 
areas where we have to develop essential resources in order to 
get better intelligence. I'm sure that was one of the things 
involved here.
    Second, there was a situation where Libya to some extent 
and what happened in Libya--I'm sure that there was an effort 
to try to develop the security capabilities within Libya so 
that they could develop their own resources to try to assist in 
providing that information. Sometimes if that--normally in most 
countries, it isn't just our ability to use our own sources. We 
in many places rely on other countries and their intelligence 
sources to be able to add to our intelligence. Libya was having 
a much more difficult time being able to do that. I think it's 
for those reasons we didn't have the kind of intelligence we 
should have had.
    Senator Hirono. So in places such as Libya, which is an 
emerging new government, that goes into your assessment of the 
prioritization that needs to occur?
    Secretary Panetta. That's right.
    Senator Hirono. Having learned from what happened, if we 
are in that kind of a situation where we really can't rely on 
the capacity within the country's forces, I think that probably 
leads to a more heightened priority for those areas in terms of 
the safety of our people.
    Secretary Panetta. Yes. It's obvious now that, recognizing 
that we try to do what you can to develop your own sources, try 
to develop the other country's capabilities with regards to 
intelligence, and develop other approaches that we have in 
terms of technology, being able to gather the kind of 
intelligence we need.
    Senator Hirono. Is that happening?
    Secretary Panetta. Yes, it is.
    Senator Hirono. I don't know if there are--can you cite to 
a very specific thing that is fostering this kind of change as 
a result of our tragedy in Benghazi that you can talk about?
    Secretary Panetta. I think the Intelligence Community, 
recognizing the recommendations that came out of the 
accountability report, are taking steps to try to ensure that 
that gap no longer exists.
    Senator Hirono. So in terms of just the coordination, there 
are some specific steps that are being taken to coordinate 
between State, the Intelligence Community, and DOD?
    Secretary Panetta. That's correct, trying to improve the 
ability to get the intelligence, get it to the State 
Department, and then the State Department, based on that, can 
make decisions as to whether or not they should request our 
help.
    Senator Hirono. Now, in listening to your earlier 
testimony, I think that some of it was that there seemed to be 
gaps in terms of the information you were getting as to what 
was happening in Benghazi. So have steps been taken to make 
sure that those kinds of communications occur instantaneously 
or while the event is occurring?
    Secretary Panetta. Steps I know are being taken to try to 
improve that intelligence capability.
    Senator Hirono. Can you talk a little bit more--I think I 
still have a little bit of time--on what the impact of 
sequestration would be in terms of our ability to safeguard our 
men and women in these hundreds of embassies and offices 
throughout the world?
    Secretary Panetta. If sequester did take place and we had 
to take the amount of money that is required by sequester, 
clearly the one place we'd have to go is into our readiness and 
maintenance accounts. Readiness would require that we had to 
reduce training for our military in each of the branches. So 
that the problem you ultimately confront is that, while you 
have capable, trained people in the war zone and elsewhere, 
that you lack the capability to have well-trained individuals 
that you can deploy elsewhere. That creates a real readiness 
crisis for us.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you.
    Chairman Levin. Thank you very much, Senator Hirono.
    Senator Blumenthal is next.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join my colleagues in thanking you, Secretary 
Panetta, for your extraordinary service to our Nation and the 
personal association and time that you've devoted to all of us 
on this panel and other Members of Congress.
    General Dempsey, thank you as well for your service, and to 
both of you for your very forthright and credible and 
significant testimony today explaining some answers to 
questions that are painful, I think, for all of us and I know 
for you, having attended the services and ceremonies in honor 
of these brave patriots and heroes, as you called them, and 
also your knowledge personally of them.
    I am struck, as Senator Kaine was, by the provocative, I 
would prefer to call it powerful, statement that you've offered 
regarding the effect on the Nation's readiness in the event of 
sequester. Like Senator Kaine and other members of this panel, 
I believe that we ought to do everything we can to avoid those 
catastrophic consequences of across-the-board cuts. I share 
your alarm about them, not only in the effect on deployments, 
but also on the readiness that results from adequate training 
and preparation, which in turn affects our ability to respond 
to crises like Benghazi.
    All of us are fond of saying that our people are our 
greatest asset, which is true. The failure to provide the 
training and career opportunities to them that are needed, I 
think, would be one of the most catastrophic consequences of 
sequester.
    Secretary Panetta. Senator Blumenthal, if I could.
    Senator Blumenthal. Please.
    Secretary Panetta. Specifically, with regards to something 
that's in your State, Electric Boat, and the magnificent 
workforce that's up there that puts our submarines together, if 
we're in a situation where we have to cut back on maintenance 
and cut back on that kind of production, the worst thing that 
could happen is losing the skills in that kind of workforce, 
because once they're laid off or once they don't have a job, 
the ability to be able to regain that kind of expertise is not 
easy to do.
    Senator Blumenthal. Not only not easy to do; sometimes 
impossible to do.
    Secretary Panetta. That's right.
    Senator Blumenthal. Our defense industrial base is often 
unappreciated, our civilian workforce and the tremendous skills 
they bring to the production at Electric Boat; likewise at 
Pratt and Whitney, where the Joint Strike Fighter engines are 
produced; similarly at Sikorski, where helicopters are made; 
across Connecticut, across the country. I think the defense 
industrial base is under threat, and it is the skilled, 
dedicated workforce that is the companion asset to our men and 
women in uniform that are so important.
    I would hope that, whatever the results in the next month, 
that we can continue to keep in place that workforce. I think 
you share that view.
    Let me turn to another area of personnel that I think is 
very important. Because you are here for your last time--and I 
know you will deeply regret not appearing before this panel. 
You can agree with me because you're not under oath. I'm taking 
advantage of your being here to raise a question about an area 
that, I think, is very important, the decision of the Pentagon 
and the Department of Veterans Affairs (VA) to abandon the plan 
for a unified health care records system, announced very 
recently.
    This decision is a tremendous setback for an effort that 
really has been ongoing for years, if not decades, to provide 
for a streamline in timely process, faster decisions on 
benefits, less duplication of medical testing, more efficient, 
cost-effective treatment for both physical and mental health 
needs. This single unified health care system has been a 
longstanding goal and I am very regretful and disappointed that 
the decision has been made to abandon it after devoting a 
billion dollars, I think so far, a billion dollars, to create 
it. I would invite your explanation.
    Secretary Panetta. Thank you, Senator. First of all, let me 
say I do not believe that the idea of developing ultimately 
that unified system has been abandoned. What we wanted to do 
was we knew that developing that system has taken years, it's 
going to take more years, it's going to cost a great deal of 
money as we do that. But in the interim we have to do 
everything necessary to create interoperability between the VA 
and the DOD so that doctors who are dealing with these 
individuals can bring that information together.
    We can do that interoperability using existing systems, and 
we've been able to do it at some of the institutions. We wanted 
to develop that at about nine other institutions to do that. We 
can get that done by July of this year, and that's why we 
wanted to stress that.
    But I want to assure you that the work on an ultimate 
single system that will require new technology to be able to 
get that accomplished is still going to continue to be worked 
on.
    Senator Blumenthal. That's good news, and it also conflicts 
with some of the news reports I've seen, which, to quote one, 
``Defense Secretary Leon Panetta and VA Secretary Eric Shinseki 
announced on Tuesday that they were scrapping the one-time plan 
to create an integrated electronic recordkeeping system.'' You 
are saying that you and Secretary Shinseki are not doing so?
    Secretary Panetta. No. We're not scrapping that. Our intent 
is obviously to continue working on that. But what we wanted to 
do was to create this interoperability sooner and on a faster 
track so we could provide the information doctors need in order 
to be able to create some symmetry between DOD and the VA.
    Senator Blumenthal. So if I can articulate it a different 
way, in oversimplified layman's language, in effect you're 
adopting a first stage solution that involves interoperability, 
but proceeding with the larger system and longer term more 
effective single health care records system that's 
contemplated?
    Secretary Panetta. That's correct.
    Senator Blumenthal. Thank you. Thank you very much to both 
of you for your testimony today. It's been very helpful, and 
thank you for your service as well.
    Thank you, Mr. Chairman.
    Chairman Levin. We're going to begin a second round and 
we're going to have a 3-minute second round, and then our 
witnesses must leave by no later than 2:30 p.m. and I hope 
before because we have a vote scheduled for 2 p.m.
    I just have two questions. The first has to do with the 
question which was asked to you by Senator Graham. I think both 
of you answered this, I think mainly you, Secretary Panetta, 
about how many times did you talk to the President during the 
day of these events. I think your answer was once during. I 
think, General, you also indicated once during.
    Then there was a question as, you mean he never got back to 
you to find out what was going on? I think you were starting to 
say, Mr. Secretary, that he has a number of other sources of 
important information, including his own chief of staff, and I 
presume too the chairman of the National Security Council or 
others that he would be in touch with could call, who were much 
closer at hand in the White House to him than you are at DOD.
    Do you know how many times that day, if any, the President 
talked to his chief of staff or to the National Security 
Council people?
    Secretary Panetta. I don't know how many times he was in 
contact, but we were in contact with the staffs there. There 
was a DC, which is a deputies meeting, of the National Security 
Council that met at I think 5 or 6, 6 or 7 p.m. that evening, 
in which everybody was represented, including obviously the 
National Security Council team, as well as the teams from State 
and elsewhere, CIA, the Director of National Intelligence 
(DNI).
    In addition to that, obviously our staffs were in constant 
touch with the White House to alert them as to what was taking 
place and what information we had. So, it's just the nature of 
the White House that Presidents of the United States make use 
of a broad sphere of staff that are involved with these issues 
to work these issues and continue to be in touch with him as to 
what's taking place.
    Chairman Levin. Now, relative to those unclassified talking 
points that were prepared at the request of Congress by the 
Intelligence Community that were erroneous, through no fault of 
her own Ambassador Rice used them, bore the brunt of the 
criticism for the use, although she didn't prepare them. Are 
you familiar, either of you, with those talking points and did 
the Defense Intelligence Agency (DIA), participate in the 
production of those talking points, do you know?
    Secretary Panetta. We did not and we were not aware of the 
talking points at the time.
    Chairman Levin. Do you know whether or not DIA was part of 
the Intelligence Community which prepared those talking points?
    Secretary Panetta. I am not aware that they were involved 
in that. I think it was the DNI that prepared the talking 
points.
    Chairman Levin. Okay, thank you. You don't know how he 
could have been--have you talked to him as to how he could not 
have known or how they could not have known that the talking 
points that they handed to Ambassador Rice and others were 
erroneous?
    Secretary Panetta. I have not.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I want to try to do this fast here, one more run at this 
same issue that no one else seems to be wanting to talk about. 
It could be argued that there are two attacks, one on the 
compound, one on the annex. I'm not sure how close they were 
together, but let's just assume that that's one of the 
possibilities. Let's forget about the compound one. Just the 
annex attack.
    The Intelligence Community has said that it's irresponsible 
for any terrorist professional not to know that it was a 
planned terrorist attack at the moment the RPG and the six 
coordinated mortars took place. I think almost everyone else 
agrees with that. That happened right on the same day or the 
morning after because it was in the middle of the night.
    Secretary Panetta, do you believe that unequivocally at 
that time we knew that this was a terrorist attack?
    Secretary Panetta. There was no question in my mind that 
this was a terrorist attack.
    Senator Inhofe. Okay, good. I was going to say that and I 
appreciate that very honest answer. That took place, that 
realization took place, at the time that the RPG and all these 
sophisticated things, such as the coordinated attack took 
place; is that correct?
    Secretary Panetta. My own experience was that RPGs show up 
and these other arms show up, that there's something that's 
planned here.
    Senator Inhofe. This was a planned terrorist attack. I was 
going to suggest----
    Secretary Panetta. It's a terrorist attack. I think 
Secretary Clinton and others also identified it as a terrorist 
attack, and that was my view.
    Senator Inhofe. Mr. Brennan, who is going to be having a 
hearing later on today that I will not be able to attend, I 
would consider him to be one of the foremost intelligence 
experts around, with what, 20 or 25 years experience; would you 
agree with that?
    Secretary Panetta. Yes, indeed.
    Senator Inhofe. He stated to me and will state again this 
afternoon the same thing you just said, that we realized at 
that moment it was a planned terrorist attack.
    Now, the only question I want to ask you, and I'll ask you 
for an answer now and I doubt if you will have a very good 
answer--but after that I'd like to have you think about it and 
give an answer for the record--and that is, with everyone 
agreeing, including Secretary Clinton, that right after this 
took place that it was, in fact, a planned terrorist attack, 
how in the world could Ambassador Rice say, ``The 
information''--this is 5 days later--``The information, the 
best information, and the best assessment we have today is 
that, in fact, this was not a preplanned, premeditated 
attack''?
    Secretary Panetta. Again, I was not involved in the talking 
points that were presented to her, but obviously the 
Intelligence Community provided an assessment to her and she 
relied on that assessment when she went on the news.
    Senator Inhofe. I certainly believe that it was to the 
benefit of the administration to try to push that. But it 
didn't work, and I would only suggest that people pay attention 
not to that fact, because to me, with all the things we've been 
talking about, this is one of the really significant things 
that has not yet been explored. I appreciate your very 
straightforward and honest answer to that.
    [The information referred to follows:]

    As I stated during the February 7, 2013, hearing, there was no 
question in my mind that the attack on September 11, 2012, was a 
planned terrorist attack. As the Department of Defense was not involved 
in the preparation of Ambassador Rice's talking points, I am unable to 
comment further on the details included in those talking points, and I 
refer the committee to the Office of the Director of National 
Intelligence for further information.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I wanted to ask about--as I understand it, General Dempsey, 
you had, I don't know if it was on a show, but Senator Blunt 
had asked you, that looking back you didn't know anything you 
could do that could be done differently. As I understand it, we 
had a security team in Tripoli. Six of them came to Benghazi. 
They arrived about 15 minutes at the annex before the second 
attack. Is that right?
    They had two DOD personnel with them, remnants of the site 
security team that were in Tripoli. Originally, we had a larger 
site security team in Benghazi, so they had to charter a plane 
to get there. That surprises me, to think about the fact that 
you testified earlier that you were aware from what Ambassador 
Stevens said that the consulate couldn't withstand a 
coordinated attack; the assets that we did have in theater, 
that they'd actually have to go out and try to charter a plane 
to get somewhere.
    Why wouldn't we have an Osprey, a standard helicopter, any 
aviation assets there to be able to get to an area within 
country to provide assistance, in light of the fact that there 
was a deteriorating security situation, in light of the fact 
that you were aware that the Ambassador had said that the 
consulate couldn't withstand a coordinated attack?
    General Dempsey. Thanks, Senator. While you were out I 
actually made sure I was clear about how I knew what I knew. 
Everything I knew was from General Ham's report to the 
Secretary through me.
    Second, in terms of--we didn't have an official DOD 
presence in Libya.
    Senator Ayotte. But I'm shocked that we had to rely on 
chartering a plane. Why wouldn't we have something there, some 
kind of aviation asset that would allow us to get from Tripoli 
to Benghazi, in light of what we knew about the security 
situation and the attacks listed on that board?
    General Dempsey. I would just reiterate, we didn't have an 
official DOD presence in Libya.
    Senator Ayotte. But two DOD personnel had to charter a 
plane. I think about what it takes to charter a plane. If we 
had had aviation, some form of aviation assets there, we could 
have gotten to Benghazi sooner; would you agree?
    General Dempsey. If they had a plane, sure, they would have 
gotten there sooner.
    Senator Ayotte. Also, I wanted to ask you, Secretary 
Panetta. You had said that you didn't end up deploying based on 
a response--I think Senator Graham had asked you, why didn't we 
have people going, moving? We had them on deployment status, 
but we didn't have them moving. I believe you said you thought 
that it was because it was over after the first attack.
    Secretary Panetta. Again, the forces were moving. We had 
deployed these FASTs. They were moving. We did not in any way 
stop the movement forward. The problem was taking them then and 
deploying them to Benghazi. By the time we reached that point, 
the attack was over and we had evacuated all of the people out 
of Benghazi.
    Senator Ayotte. But were planes flying? Were troops moving? 
The minute this attack occurred we had an ambassador missing. 
Were people going to Benghazi?
    Secretary Panetta. We had alerted all of these task forces 
to be in place, to move in that direction, and they were moving 
to get there. The problem we had, as I've explained, is again 
the issue of time and distance and being able to move them 
quickly enough to respond before the event was over. That just 
was not the case.
    The board that was headed up by the Ambassador and Admiral 
Mullen came to that conclusion. There was no time or space 
available to be able to respond in time. That was their 
conclusion.
    Senator Ayotte. I know my time is up, but when I look at 
your testimony or the list that we were given, on page 2, 
there's a list of prepare to deploy, prepare to deploy, prepare 
to deploy. It's not deployment, actually going toward Benghazi. 
So it doesn't seem to me that we were moving with a sense of 
urgency, given that we had an ambassador missing.
    General Dempsey. If I could just help with that one, 
Senator. The process as you tell a unit to prepare to deploy, 
when they report readiness you tell them to move. That's just a 
piece of the process. There was nothing that held them up.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Graham.
    Senator Graham. Mr. Chairman, I'd like unanimous consent to 
put this map into the record here, as part of the file.
    Chairman Levin. That would be fine. Can you tell us what 
map that is?
    Senator Graham. Yes. It talks about different airbases, 
naval bases, surrounding Benghazi, Libya.
    Chairman Levin. Thank you.
    Senator Graham. So I'll put that in the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Graham. One, you've been both very candid. Thank 
you.
    I want to make sure I understand what you said about Syria. 
Both of you agreed with Petraeus and Clinton that we should 
start looking at military assistance in Syria; is that correct?
    Secretary Panetta. That was our position. I do want to say, 
Senator, that obviously there were a number of factors that 
were involved here that ultimately led to the President's 
decision to make it non-lethal--I supported his decision in the 
end. But the answer to your question is yes.
    Senator Graham. For both of you?
    General Dempsey. Yes.
    Senator Graham. It's certainly up to the President to make 
all these decisions.
    Who was in charge in Benghazi? Were you in charge, 
Secretary Panetta?
    Secretary Panetta. What do you mean, in charge?
    Senator Graham. As running the operation, trying to find a 
way to save our Ambassador who was lost, trying to prevent our 
people from being killed, providing assistance to people who 
were under attack. A simple question. If the families ask me, 
would it be fair to say that you were in charge?
    Secretary Panetta. It's not that simple. I think the people 
that were in charge were the people on the ground----
    Senator Graham. Would you say Secretary Clinton was in 
charge?
    Secretary Panetta. Pardon me?
    Senator Graham. Was Secretary Clinton in charge?
    Secretary Panetta. The people that were in charge were the 
Ambassador there at Benghazi during the course of the attack--
--
    Senator Graham. But they were trying to save their lives. 
They weren't in charge. Somebody had to be in charge of 
coordinating assistance. Was it you, the Secretary of State, or 
the President? Who was in charge?
    Secretary Panetta. I think we're all in charge in the sense 
of trying to move our forces as quickly as possible to save 
lives.
    Senator Graham. Did you ever talk to Secretary Clinton at 
all that night, September 11?
    Secretary Panetta. Not that night, but obviously we had 
people in touch with her and----
    Senator Graham. Did you as Secretaries of Defense and State 
ever consult each other before the attack was over?
    Secretary Panetta. Did we consult?
    Senator Graham. Yes, did you talk? Did you individually 
talk with each other?
    Secretary Panetta. No.
    Senator Graham. When did you talk to the President after 
your initial meeting around 5 p.m.? When did you talk to him 
again?
    Secretary Panetta. I'm not sure.
    Senator Graham. Was it on September 12?
    Secretary Panetta. It could very well have been that I----
    Senator Graham. Did you go to bed that night? Did you go to 
bed before the attack was over?
    Secretary Panetta. No. I was at DOD.
    Senator Graham. Nor did you, General Dempsey?
    General Dempsey. No. We were----
    Senator Graham. Do you know if the President went to bed 
before the attack was over?
    General Dempsey. I don't know, sir.
    Senator Graham. Do you know who was talking to the 
President at the White House?
    Secretary Panetta. I assume the chief of staff was talking 
to the President.
    Senator Graham. Do you know--but you don't know?
    Secretary Panetta. I don't know.
    Senator Graham. Do you, either one of you, understand some 
of the frustrations we have? This is the first time in 30 years 
we lost control of an ambassador and no small deal.
    I would just conclude, Mr. Chairman, saying I want to know 
more about what the--finally, do you know if the President knew 
of these prior attacks, March, April, June?
    Secretary Panetta. I can't.
    Senator Graham. I want this committee to continue to ask 
questions about what the President knew before and during this 
attack. Apparently, we're going to have to call other people.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you.
    Secretary Panetta. Senator, if I could just say, we share 
your frustrations. Any time you lose four Americans----
    Senator Graham. It's not about your caring. I know the 
President cares. It's not about that. It's about were we ready. 
We looked hard at the Bush administration. They screwed up a 
bunch. So you're going through nothing they weren't going 
through. We're trying to learn.
    You will be missed, Leon Panetta, you have served this 
country well. General Dempsey, thank you. But this to me is 
system failure at every level before, during, and after. The 
President of the United States deserves credit for Osama bin 
Laden. He was hands on. We need to find out where he was at and 
what he was doing here.
    Thank you.
    Chairman Levin. Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Secretary Panetta, I want to say also that I think you've 
done a great job both at the CIA and here and in your other 
jobs. Frankly, I think you and Secretary Gates are two of the 
great public servants in these kinds of jobs in the history of 
the country. He knows I think that and I want you to know I 
think that as well.
    I am concerned when Senator Graham asks who was in charge 
and there's not an answer. Somebody should have known that 
night that there is one focal point. Maybe I guess at the end 
of the day it's the President, though the President doesn't 
seem to be very engaged. I think that's a concern.
    You said, I believe, to Senator Ayotte that you thought--
what time did you--when did you think the attack was over?
    General Dempsey. Could I help with the answer, who was in 
charge?
    Senator Blunt. You could have helped when the question was 
posed earlier.
    General Dempsey. It was pretty tough actually.
    Senator Blunt. All right. Who was in charge?
    General Dempsey. The responsible agent inside of a country 
for security until the introduction of DOD is the resident 
security officer (RSO), who works for the ambassador, in 
collaboration with----
    Senator Blunt. I think what Senator Graham was asking, 
though, was who was in charge of our response from here. You 
can't just be talking with no thought of conclusion.
    General Dempsey. Okay, but I can help with that concern. I 
got that. So internal to the country, before we arrive, it's 
the RSO. Once we arrive, it's the combatant commander, the 
Commander of AFRICOM.
    I want to assure you, had we been able to--there's been a 
whole bunch of speculation about we were risk-averse, we needed 
the country's permission to come in. If we had been able to get 
there with anything, we'd have gone in there under the command 
of the Commander of AFRICOM.
    Senator Blunt. Of the marines that were on the plane in 
Rota, Spain, did eventually--did those marines eventually go to 
Tripoli?
    General Dempsey. They did.
    Senator Blunt. Why were they taken off the plane and told 
to change from their uniforms to other clothes?
    General Dempsey. At the request of the host nation, relayed 
through the Embassy.
    Senator Blunt. How much did that slow that response up?
    General Dempsey. Probably 30 minutes.
    Senator Blunt. Now, I've read other places an hour and a 
half to 2 hours. You think 30 minutes?
    General Dempsey. I'm saying that it would--that's my 
estimate. I just know that it was an occurrence.
    Senator Blunt. Why did they go to Tripoli instead of 
Benghazi?
    General Dempsey. By the time they were arriving there, 
there was no one left in Benghazi.
    Senator Blunt. When did we get the last person out of 
Benghazi that we brought out?
    General Dempsey. I'd have to look at the timeline.
    Secretary Panetta. I think it was within 12 hours we had 
moved all of the people there out.
    Senator Blunt. Did they go to Germany?
    General Dempsey. We did move them to Ramstein.
    Senator Blunt. A question I've had since the very start of 
this is why didn't somebody ask them at that time what happened 
before this all started, which would have solved the question 
about whether there was a demonstration going on or not. I 
asked that question once before, and only the FBI was allowed 
to talk to them, which made no sense to me at all and still 
makes no sense to me.
    We're talking to people who were in Algeria a few days ago. 
We were talking to them the next day. I don't know of anybody 
that's really talked directly on this committee, Mr. Chairman, 
to people who were in Benghazi and who within 12 hours were 
somewhere where they could have been talked to, to ask what 
happened.
    Now, I'll go back to my original question, Secretary 
Panetta. When did you think that the activity was over and 
under some reasonable level of control?
    Secretary Panetta. It was soon after the second attack, and 
at that point our biggest concern, Senator, was the fact that 
we couldn't find the Ambassador. We were then teeing up the 
rescue team to get ready to go in because we thought we had a 
hostage rescue mission that we were going to have to conduct.
    Senator Blunt. The second attack was the attack that was 
over around midnight?
    Secretary Panetta. At the annex, that's correct.
    Senator Blunt. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    A couple of areas of brief inquiry. I want to make sure I 
understand your testimony from earlier this morning correctly, 
that you said post-September 11 the State Department requested 
additional security in Yemen and DOD has provided that 
additional security?
    Secretary Panetta. No, no. Pre-September 11.
    Senator Cruz. Oh, that was pre-September 11.
    Secretary Panetta. Right.
    Senator Cruz. Is it correct then that had the Department of 
State responded to the request from the Ambassador for 
additional security and requested from DOD additional security, 
that that would have been provided in Benghazi as well?
    General Dempsey. Yes. If we'd have been asked, we would 
have responded. But I was going to make it clear: I'm not clear 
on whether the Embassy in Tripoli ever sent a request. I don't 
think they did. I think they were still in internal 
deliberations inside of Tripoli.
    Senator Cruz. If the State Department had requested 
additional security so that there were additional boots-on-the-
ground in Benghazi, is it your military judgment that that 
would have prevented the loss of four lives, including our 
Ambassador, in Benghazi on September 11?
    General Dempsey. Honestly, not dodging the question, that's 
a hypothetical that's just actually hard to process. I think, 
first of all, the request would have come in to put 
augmentation in Tripoli, and then the question would have been 
could you get to Tripoli and back. But we could very well have 
put lift there to support it. It's so hypothetical, I just 
can't answer it.
    Senator Cruz. In your judgment, would additional troops on 
the ground in Benghazi have prevented the loss of life from the 
assault that we sustained?
    General Dempsey. Additional or any troops on the ground in 
Benghazi would have added to the security of the consulate.
    Senator Cruz. One other topic that has not been focused on 
yet. A lot of this focus has been on the events of September 11 
and September 12, and I'd like to shift to the nearly 5 months 
that have transpired since then and ask about the topic of 
retribution. A number of terrorists murdered four Americans, 
including the U.S. Ambassador. To the extent you are able in an 
open hearing, I would like to know what our progress is in 
tracking down those terrorists and exacting serious 
retribution?
    Secretary Panetta. Obviously, a fuller explanation ought to 
be done in a more classified setting. But what we have is, an 
FBI team was immediately assembled that involves the CIA plus 
DOD, and that team has made very good progress in identifying 
individuals that were associated with that attack. We now have 
a list of those that we are all looking for to determine 
exactly where they're located. I think the Department of 
Justice is part of that team, and also trying to see what kind 
of cases can be developed should we either be able to capture 
or detain them in some way.
    Senator Cruz. Two final questions. Had the compound been 
secured in a timely manner rather than 23 days later, do you 
think that would have assisted in the effort to track down who 
committed these acts of terrorist?
    Secretary Panetta. Again, hard to tell what the crowd did 
there and what that scene looked like. Obviously, the ability 
to get into a scene and gather evidence, just based on my own 
legal background, anything you find can help you make a case.
    Senator Cruz. My final question. In the months that have 
followed since then we have seen other terrorist attacks. We 
have seen, tragically, a suicide bomber in Ankara in Turkey, 
and we have seen the horrific attack in Algeria that murdered, 
among others, two Texans, Victor Lovelady and Frederick 
Buttaccio. Do you think the lack of a public visible response 
and retribution for this terrorist attack may have had the 
effect of emboldening those who would seek to do harm and take 
the lives of Americans?
    Secretary Panetta. Senator, these people are emboldened, 
period. Their basic intent is to go after our citizens, to go 
after our facilities, to attack us in any way possible. I don't 
think we ought to be surprised that they are making every 
effort to try to do that in every location that is convenient 
for them.
    So I would just tell you that I am not surprised by the 
fact that we see these attacks taking place, because that is 
what this enemy does, and that's why we having to do everything 
possible to make sure that al Qaeda never has that opportunity.
    Senator Cruz. Do you agree with the reports that have 
suggested that Osama bin Laden was emboldened by what he 
perceived as the lack of a vigorous response of the United 
States to prior terrorist attacks and that that was a 
contributing factor to September 11, 2001?
    Secretary Panetta. They were planning that for a long time. 
I think a lot of this has been gone over time and time again, 
but the reality is that at some point, I think, they were going 
to try to conduct an attack that would make clear to the world 
their intent to come after the United States, and they were 
successful at doing that.
    I will tell you this, that as a result of what happened on 
September 11 and the fact that we have gone at them in every 
way possible, I think, it is because of that effort that we 
have been able to deter attacks up to this point.
    Senator Cruz. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cruz.
    Thank you, Secretary Panetta and General Dempsey, for 
coming here today for this important hearing. We are grateful 
to both of you for your service to our Nation.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Joe Manchin III
                        interagency coordination
    1. Senator Manchin. Secretary Panetta, since Benghazi, what has 
changed in terms of real-time coordination between the Department of 
Defense (DOD) and the Department of State (DOS) to respond to threats 
against diplomatic facilities? For example, how was the DOD-DOS 
response to last week's embassy attack in Turkey different from what it 
would have been pre-Benghazi?
    Secretary Panetta. DOD-DOS communication regarding the security of 
U.S. diplomatic facilities remains a strong point in the relationship 
between the two agencies. Coordination between the Departments during 
and after events like the attacks in Benghazi and Turkey is timely and 
thorough; my staff and I enjoyed nearly seamless cooperation and 
information exchange with our counterparts during those time periods.

    2. Senator Manchin. Secretary Panetta, what was DOD's specific role 
in sharing information about and responding to this attack?
    Secretary Panetta. Less than half an hour after I was notified of 
the attack, General Dempsey and I attended a previously-scheduled 
interagency meeting at the White House where we discussed potential 
responses to the emerging situation. Immediately after that meeting, I 
provided verbal authorization for the deployment of the forces I 
outlined in my testimony. We constantly shared information with our 
interagency partners throughout the crisis.

    3. Senator Manchin. General Dempsey, on the Interagency Security 
Assessment Teams (ISAT) that visited 19 high-threat diplomatic posts, 
what new roles in diplomatic security are being contemplated for DOD to 
assume moving forward?
    General Dempsey. DOD is developing new approaches to work with DOS 
to protect U.S. personnel and activities. As before, DOS remains the 
lead for the security of our diplomatic missions and DOD will continue 
to support. Our emphasis is on proactive decisionmaking, more widely 
distributed reaction forces, and adaptable alert postures. Our 
combatant commanders are assessing ways that we can provide early 
reinforcement to threatened U.S. facilities as well as posture military 
forces within the geographic combatant commands to respond to 
increasing indications and warnings of an attack. The Departments will 
continue to share and monitor indications and warnings at all locations 
in order to increase force protection levels, provide DOD security 
augmentation early, and begin the process of ordered departures and 
reductions in staff to proactively reduce the risk to U.S. citizens and 
facilities as situations develop. When indicated by situations and 
warnings, the geographic combatant commanders (GCC) will adjust the 
alert postures of their security augmentation forces. In addition to 
GCCs regularly engaging with Chiefs of Mission on security issues, we 
will also work with DOS to increase emphasis on host nation security 
arrangements and capabilities.

    4. Senator Manchin. General Dempsey, since high-threat environments 
are highly fluid, will these assessments be formalized in an ongoing 
process to ensure we don't fall back into business as usual?
    General Dempsey. Yes. DOS and DOD have developed a more proactive 
approach to the ``New Normal'' global unrest. Our GCCs are working with 
Chiefs of Mission in high threat areas to update their emergency action 
plans to account for the ``New Normal.'' These plans will include more 
specificity on proactive actions to be taken and planned response 
times. The Departments will continue to share and monitor indications 
and warnings at all locations in order to increase force protection 
levels, provide DOD security augmentation early, and begin the process 
of ordered departures and reductions in staff to proactively reduce the 
risk to U.S. citizens and facilities as situations develop. When 
indicated by situations and warnings, the GCCs will adjust the alert 
postures of their security augmentation forces.
    Additionally, the U.S. Special Operations Command (SOCOM) will 
continue deployments of Regional Survey Teams (RST), under the 
Integrated Survey Program, to collect and produce detailed tactical 
planning data for diplomatic facilities and supporting interests 
overseas for possible contingency operations. The RST products provide 
critical information for reactive measures (contingency operations), 
but do not include vulnerability assessments. SOCOM hosts an annual 
conference to determine the following year's survey locations based on 
the DOD and DOS priorities and a Defense Intelligence Agency (DIA) 
threat analysis.

    5. Senator Manchin. General Dempsey, will Congress be briefed on 
the results of the assessments when they are complete?
    General Dempsey. DOD and DOS are working together to conduct the 
assessments. A combined brief can be arranged.

    6. Senator Manchin. General Dempsey, I understand that the military 
has forces designated as the ``global response force'' or other quick-
response-type forces. I would appreciate a staff-level update on those 
forces and their response times. Would you arrange that staff update in 
the next 3 weeks?
    General Dempsey. Yes, we will coordinate a brief with the committee 
and your office.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                            africom response
    7. Senator Shaheen. Secretary Panetta, Dr. Cynthia Watson, a 
professor at the National War College, stated, ``U.S. Africa Command 
(AFRICOM) hopes to avoid that traditional combatant command goals of 
warfighting in favor of war prevention, making its orientation quite 
different from other parallel organizations.'' Do you agree with this 
assessment?
    Secretary Panetta. U.S. combatant commands are prepared to conduct 
the full spectrum of assigned missions. AFRICOM was designed with a 
particular emphasis on synchronizing security and stabilization efforts 
with whole-of-government diplomatic and development tools during every 
phase of conflict management, from war prevention to warfighting and 
war recovery.

    8. Senator Shaheen. Secretary Panetta, do you think that this 
mission focus prohibited AFRICOM from being effective in responding to 
the Benghazi incident?
    Secretary Panetta. The lack of specific intelligence or indications 
of an imminent attack, coupled with the speed of the attack, meant that 
there was not enough time for armed military assets to respond. The 
Accountability Review Board (ARB) shared this view.

    9. Senator Shaheen. Secretary Panetta, the AFRICOM commander has 
testified that intelligence and surveillance continue to be a challenge 
and that more assets are needed. You also insist that better 
intelligence would have given the agency a heads-up and enhanced its 
ability to provide better support to Benghazi. Do you think that more 
assets in the region would have provided DOD with more timely 
intelligence about events in Benghazi?
    Secretary Panetta. With the benefit of hindsight, I would say yes. 
For example, if we had more Predators airborne and in the area we could 
have provided more intelligence on events in Benghazi. However, while 
the Predator has proven to be one of our most effective intelligence, 
surveillance, and reconnaissance (ISR) platforms, it is greatly 
affected by weather conditions and would have to travel a good distance 
from its takeoff and landing base in order to be overhead Benghazi. We 
continue to evaluate where the most optimum locations to base our ISR 
assets given the constraints and limitations placed on us with respect 
to geography and resources.

    10. Senator Shaheen. Secretary Panetta, according to the Senate 
Homeland Security and Governmental Affairs Committee (HSGAC) report, 
AFRICOM did not have a dedicated U.S. Special Operations Forces 
Commander's in-Extremis Force (CIF). It shared one with U.S. European 
Command (EUCOM), which was too far away to rapidly respond. Largely in 
response to the September 11, 2012, attacks in Benghazi that killed the 
U.S. Ambassador to Libya and three other Americans, a dedicated SOF CIF 
was established in early October 2012. Please explain how the AFRICOM 
CIF will be used. Will it be positioned in a location that gives it the 
flexibility to respond more quickly in times of regional crisis like 
Benghazi?
    Secretary Panetta. CIFs are used at the discretion of the 
commanders to respond to contingencies in their areas of responsibility 
(AOR). The establishment of the AFRICOM CIF was planned before the 
events in Benghazi, and I am pleased that force is now available to the 
commander of AFRICOM as of the beginning of this fiscal year. AFRICOM's 
response capabilities are challenged by the size of the continent and 
the lack of basing rights and authority to place facilities on the 
continent. As a result, most of AFRICOM's resources will continue to 
reside in southern Europe or afloat for the foreseeable future. It is 
incumbent upon us in the DOD, then, to work and plan closely with our 
DOS colleagues to ensure their planning and risk management strategies 
take such logistics factors into consideration.

    11. Senator Shaheen. Secretary Panetta, do you think that it could 
have made a difference in Benghazi?
    Secretary Panetta. Taken by itself, the addition of a CIF alone is 
unlikely to have changed the outcome in Benghazi. However, I believe 
our current approach--which combines proactive measures such as 
hardening facilities and improving intelligence and warning--and 
improving response and reaction posture will help to prevent such an 
event from happening in the future.

                        interagency cooperation
    12. Senator Shaheen. Secretary Panetta, during a hearing on 
December 20, Assistant Secretary Nides of DOS told me that 
``unprecedented cooperation'' between DOS and DOD occurred in the 
aftermath of the Benghazi attacks. Those efforts entailed sending 5 
interagency support teams to 19 posts in 13 countries, sending 35 
additional marine detachments (225 marines) to serve as deterrents, and 
plans to build new barracks where feasible to house the security teams 
and marines. It obviously shouldn't take a tragic event like this one 
to ignite unprecedented cooperation between DOS and DOD. How do we 
ensure that this is the standard way of doing business in the future?
    Secretary Panetta. As I mentioned, our coordination with our DOS 
colleagues was excellent during and after the Benghazi attacks. The 
experience did provide a number of lessons on how DOS and DOD personnel 
in the field interact when U.S. facilities and personnel are at risk 
overseas. I can tell you that DOD is absorbing and propagating those 
lessons with a significant emphasis on tying our plans and posture to 
those of DOS. This will require new internal processes for us, many of 
which are already underway.

    13. Senator Shaheen. Secretary Panetta, how would you assess the 
interaction between DOD/military combatant commanders and DOS at the 
time of the attack?
    Secretary Panetta. Senior DOD leadership and the National Military 
Command Center were in close coordination with former Secretary Clinton 
and her staff as well as the operations center at DOS during and after 
the attacks.

    14. Senator Shaheen. Secretary Panetta, the HSGAC report faulted 
both DOD and DOS for the fact that they had not jointly assessed the 
availability of U.S. assets to support the Temporary Mission Facility 
in Benghazi in the event of a crisis. Is this something that should 
have happened?
    Secretary Panetta. As I mentioned, our coordination with our DOS 
colleagues was excellent during and after the Benghazi attacks. The 
experience did provide a number of lessons on how DOS and DOD personnel 
in the field interact when U.S. facilities and personnel are at risk 
overseas. I can tell you that DOD is absorbing and propagating those 
lessons with a significant emphasis on tying our plans and posture to 
those of DOS. This will require new internal processes for us, many of 
which are already underway.

    15. Senator Shaheen. Secretary Panetta, do we have plans to jointly 
assess the security of diplomatic facilities in the future?
    Secretary Panetta. We participated in the deployment of ISAT with 
DOS to evaluate the security level at 19 diplomatic facilities in some 
of the most vulnerable locations, including our Embassy in Libya, and 
we are in the process of developing recommendations on potential 
security increases required. DOD personnel can and do participate in 
security assessments as part of the country team. Finally, and most 
importantly, some of the new processes we are currently developing will 
make it easier for DOD to support the security of U.S. diplomatic 
facilities in a proactive fashion, and to make doing so part of our 
standard operating procedure.
                                 ______
                                 
           Questions Submitted by Senator Kirsten Gillibrand
                     jihadist movements and funding
    16. Senator Gillibrand. Secretary Panetta, in the wake of the Arab 
Spring, in countries where people rose up and overthrew corrupt regimes 
hoping to usher in the freedoms associated with democratic rule, we are 
now watching jihadist and fundamentalist movements aligned against our 
interest move into those areas and take root. Who is funding these 
movements and what are, or should, DOD and the broader U.S. Government 
be doing to stem this support?
    Secretary Panetta. [Deleted.]

    17. Senator Gillibrand. Secretary Panetta, is there evidence that 
funding is coming from Gulf countries? If so, what leverage should we 
use to address their support for groups and movements that threaten our 
security?
    Secretary Panetta. [Deleted.]

    18. Senator Gillibrand. Secretary Panetta, as al Qaeda's footprint 
expands in a decentralized manner, so too must its funding streams. 
From where does this funding come--both geographically, but also the 
means?
    Secretary Panetta. [Deleted.]

    19. Senator Gillibrand. Secretary Panetta, is the funding coming 
primarily through criminal activities like kidnap for ransom, piracy, 
or drug and arms smuggling?
    Secretary Panetta. [Deleted.]

    20. Senator Gillibrand. Secretary Panetta, how do we effectively 
stem the flow of money?
    Secretary Panetta. DOD is not the U.S. Government lead agency in 
counter threat finance, but DOD can play a critical role working with 
other departments and agencies, and with partner nations, to fight our 
adversaries' ability to derive revenue from licit and illicit 
activities. DOD works very closely with the Department of Treasury, 
U.S. law enforcement agencies, as well as the National Intelligence 
Manager for Threat Finance. In addition to these excellent 
partnerships, DOD supports other U.S. departments and agencies and 
works with partner nations to deny, disrupt, or defeat and degrade 
adversaries' ability to use global licit and illicit financial networks 
to affect U.S. interests negatively. DOD brings unique capabilities, 
such as planning, intelligence analysis, and the integration of 
intelligence into operations. DOD developed and sharpened these 
capabilities over the past decade through the establishment of and work 
with the Iraq Threat Finance Cell and Afghanistan Threat Finance Cell.

    21. Senator Gillibrand. Secretary Panetta, you have stated that we 
have to better assess and build up the capabilities of host governments 
to both provide security for U.S. personnel and facilities and to build 
more long-term and effective counterterrorism forces. How do you 
respond to those who say the United States wasted over $1 billion since 
2005 in training security forces, securing borders, and reducing 
poverty in North and West Africa, leaving us to face an adapting enemy 
that is well-resourced and potentially deadlier than ever?
    Secretary Panetta. The U.S. Government has worked to train, equip, 
organize, and support African partner forces to counter shared threats 
and to enable them to do a better job in providing for the security of 
their territory and populations. The partnership and ongoing engagement 
with these militaries has helped develop key capabilities. Our efforts 
in countries like Mauritania, Chad, and Niger have been focused on the 
counterterrorism mission and we are also getting a strong return on our 
investments. Chad, which is actively engaged in combat in Mali, stands 
out as a key success. However, it is also important to note two factors 
that can limit our ability to build regional capability: the lack of 
capacity that characterizes many governments in the region, and the 
risk of political or institutional instability. To address these 
issues, we work with African forces to find areas where we can best 
enable partner units. Further, development and humanitarian assistance 
for the region, which is primarily funded through DOS and U.S. Agency 
for International Development, contribute to stabilizing partner 
nations and we believe they have had some successes that enable 
military engagement.

    22. Senator Gillibrand. Secretary Panetta, in addition to preparing 
to respond to the next attack or incident, what can or should DOD do to 
preempt the growth and spread of al Qaeda and its adherents and 
affiliates and strengthen U.S. abilities to proactively counter efforts 
to radicalize and recruit the next generations of terrorists or violent 
extremists?
    Secretary Panetta. The U.S. Government is engaged in a multi-
departmental, multi-national effort to combat al Qaeda. DOD undertakes 
key activities to support this strategy, including: training, advising, 
and assisting partner security forces; supporting intelligence 
collection on al Qaeda; conducting information operations against al 
Qaeda; and, when appropriate, capturing or killing al Qaeda operatives. 
DOD also works to help enable our intelligence and law enforcement 
partners, both in the United States and overseas, in their efforts to 
counter this threat.

                         intelligence community
    23. Senator Gillibrand. Secretary Panetta and General Dempsey, in 
Arab Spring countries, the Intelligence Community--particularly human 
intelligence--is facing the challenge of reestablishing intelligence 
assets and sources with access to the new governments and evolving 
leadership. How do you assess our Intelligence Community capabilities 
in these countries?
    Secretary Panetta and General Dempsey. DOD has referred this 
question to the Director of National Intelligence as head of the 
Intelligence Community, in accordance with the Intelligence Reform and 
Terrorist Prevention Act of 2004 (P.L. 108-458).

    24. Senator Gillibrand. Secretary Panetta and General Dempsey, how 
do you assess DOD's Intelligence Community capabilities?
    Secretary Panetta. [Deleted.]
    General Dempsey. [Deleted.]

    25. Senator Gillibrand. Secretary Panetta and General Dempsey, does 
DOD remain intent on creating its own Defense Clandestine Service 
(DCS)? If so, why is this necessary and not duplicative of the National 
Clandestine Service?
    Secretary Panetta. [Deleted.]
    General Dempsey. [Deleted.]

    26. Senator Gillibrand. Secretary Panetta and General Dempsey, how 
do you ensure that in creating such similar services, you don't run the 
risk of stovepiping collection efforts and intelligence activities--
problems that contributed to our failure to see and preempt the attacks 
of September 11 over 11 years ago?
    Secretary Panetta and General Dempsey. The DCS, under the 
authority, direction, and control of the Director, DIA will foster 
closer collaboration with key Intelligence Community partners by 
integrating collection and streamlining coordination processes. DOD 
policies, procedures, and agreements are in place to govern defense 
human intelligence (HUMINT), provide the rules under which DCS 
personnel will operate to accomplish their defense mission, ensure 
coordination of operations, and prevent stovepiping.

    27. Senator Gillibrand. Secretary Panetta and General Dempsey, 
drones have proven themselves to be effective both for intelligence 
collection and for targeting and destroying designated terrorists or 
terrorist facilities. How would you characterize the relationships 
between DOD and the Central Intelligence Agency (CIA) in terms of 
command and control of the drones and their specific missions?
    Secretary Panetta. The DOD and CIA cooperate closely on many 
national security efforts. I can provide further details of that 
relationship in a classified forum.
    General Dempsey. There is a strong and close relationship between 
the DOD and the CIA, including operations of Remotely Piloted Aircraft 
(RPA). While DOD operates under title 10 and its limitations, the CIA 
operates under other authorities. DOD performs the command and control 
of all drone activities operated by DOD personnel; however, 
intelligence sharing occurs between the two entities when the mission 
and target sets cross agency/department lines of responsibility.

                           combatant commands
    28. Senator Gillibrand. Secretary Panetta and General Dempsey, the 
relevance of AFRICOM to our national security has become more 
pronounced; yet, it remains the only regional combatant command that is 
neither in the United States nor its AOR. While sensitivities may 
remain with basing in the region, why did the recent DOD study on a 
potential relocation focus on the United States rather than also 
considering a move to the continent?
    Secretary Panetta. The study was completed in accordance with 
congressional language contained in the House Armed Services Committee 
Report accompanying H.R. 1540, the National Defense Authorization Act 
for Fiscal Year 2012; which requested an assessment of the cost-benefit 
of maintaining AFRICOM headquarters in Stuttgart, Germany, versus 
relocating the headquarters in the United States. DOD conducted the 
study by assessing the strategic and operational risks associated with 
both locations (Germany vs. United States) as well as the relevant 
costs for moving the headquarters to the United States.
    General Dempsey. House Report 112-78, accompanying H.R. 1540, the 
National Defense Authorization Act for Fiscal Year 2012, requested an 
alternative basing review for AFRICOM. Cost Assessment and Program 
Evaluation (CAPE) assessed strategic and operational factors along with 
the relevant costs of moving the headquarters to continental United 
States (CONUS).
    The study identifies significant operational concerns associated 
with relocating AFRICOM to CONUS-specifically, access to AOR and 
assigned forces. It is the commander's judgment that AFRICOM would be 
less effective in CONUS given shared forces with EUCOM; currently these 
commands are colocated in Europe. With respect to costs, the study 
estimates that annual recurring costs could be reduced by half if 
relocated to CONUS, with the initial investment being recovered in 2 to 
6 years.
    Given the imperative of operational effectiveness, it has been 
decided that AFRICOM will not relocate to the United States.

    29. Senator Gillibrand. Secretary Panetta and General Dempsey, how 
will AFRICOM be resourced to ensure it can match growing interests and 
engagement in Africa?
    Secretary Panetta. AFRICOM recognizes that Africa is a ``low-cost, 
small-footprint'' theater and that adequate resources to conduct every 
desired engagement, exercise, and other military-to-military activities 
will not be available. AFRICOM works in close collaboration with other 
agencies to employ the full range of U.S. Government tools and 
authorities in the most efficient ways possible. Detailed planning and 
vigorous prioritization of available resources enable AFRICOM to focus 
on the activities that are most critical to U.S. and regional security. 
DOD will continue to identify any additional authorities and funding 
AFRICOM needs to accomplish its mission.
    General Dempsey. We continually assess AFRICOM's requirements 
against both our global requirements and available resources to achieve 
the right balance. We also work with our partners to build partner 
capacity in the region to address emerging threats and bring optimal 
capabilities to bear in a timely manner.

    30. Senator Gillibrand. Secretary Panetta and General Dempsey, are 
you confident that the overlap of logistics and resources with EUCOM 
will suffice?
    Secretary Panetta. EUCOM and AFRICOM coordinate closely and their 
physical proximity in Germany enables good planning and optimization of 
available resources. AFRICOM will continue to identify opportunities to 
realize efficiencies and flexibility through assigned resources.
    General Dempsey. Yes. We continually assess EUCOM's and AFRICOM's 
overall resource requirements including their logistics requirements to 
ensure the appropriate balance. During crises, these two combatant 
commands are well-positioned to be mutually supporting as well, which 
helps mitigate risk. Additionally, our regional allies and partners can 
share in the immediate burden, ensuring adequate logistical resources 
are available to support contingencies.

    31. Senator Gillibrand. Secretary Panetta, you have said that as 
the size of the military is reduced, DOD will continue to grow its 
Special Forces cadre, with a projection from 64,000 today to 72,000 by 
2017. How do you foresee our force placement shifting throughout the 
world given this combined growth in Special Forces, but decrease in 
overall personnel?
    Secretary Panetta. Our SOF have been deploying at a high 
operational tempo since September 11--higher than DOD goals--which has 
resulted in a degradation of our SOF's ability to conduct the full 
spectrum of operations and concerns about the force and our SOF 
families fraying. The growth of SOF that was directed in the 2006 and 
2010 Quadrennial Defense Reviews was predicated on establishing a force 
capable of meeting our operational tempo goals to allow predictability 
in deployments and the ability to make sure our SOF are properly 
trained for the full range of special operations. It is also important 
to recognize that increasing the number of SOF takes several years due 
to the requirement to increase the throughput of our SOF training 
school houses and the immutable fact that it takes several years to 
produce a fully-trained SOF operator. After nearly 10 years of 
responsibly expanding the force, we are on track to level off growth in 
2015, and posture SOCOM for persistent, long-term engagement with 
security partners around the globe. We are looking at SOF posture as we 
continue to work out the details of DOD's plans to support our defense 
strategy and the effects that service personnel drawdowns will have on 
our global presence.

    32. Senator Gillibrand. Secretary Panetta, as you said, the 
National Security Agency does not have a shortage of people interested 
in being part of U.S. Cyber Command's efforts. ``They view it as an 
opportunity to get involved, be on the cutting edge of the technology 
with regards to cyber, develop tremendous skills there, and be able to 
then go out and use those skills in the private sector.'' After 
investing time and resources into developing these skills, how will DOD 
retain such personnel so they don't simply go out and use those skills 
in the private sector?
    Secretary Panetta. DOD recognizes that the competition from the 
private sector for the same competencies and capabilities is 
significant. To address this challenge, DOD must ensure its 
recruitment, training, retention, and compensation policies and 
strategies are flexible and responsive to this emerging domain. 
Therefore, DOD is actively developing strategies for the effective 
recruitment, development, retention, and competitive compensation of 
highly qualified and skilled personnel in the cyber workforce, both 
military and civilian. We recognize the need for significant 
investments of time and resources to build and maintain a competent and 
cutting-edge cyber workforce, and we are investing now. As necessary, 
DOD will work with the Office of Personnel Management and Congress to 
seek necessary hiring and retention authorities. While no decisions 
have been made, these may include directed/expedited hiring 
authorities, critical skill retention bonuses, and special pays.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                        defense internal review
    33. Senator Inhofe. Secretary Panetta, DOD reportedly has conducted 
an internal review of the Benghazi attacks. I would like to understand 
what the major findings are of the review and what steps have been 
taken to answer those major findings. What was the focus of the DOD 
internal review of the Benghazi attacks and what were the major 
findings?
    Secretary Panetta. An exhaustive review of the Benghazi events has 
established that DOD responded appropriately to the attacks. Our 
coordination with our DOS colleagues was excellent during and after the 
Benghazi attacks. The experience did provide a number of lessons on how 
DOS and DOD personnel in the field interact when U.S. facilities and 
personnel are at risk overseas. I can tell you that DOD is absorbing 
and propagating those lessons with a significant emphasis on tying our 
plans and posture to those of DOS. Lastly, we fully support the 
recommendations of the ARB. We stand ready to assist in the 
implementation of these recommendations.

    34. Senator Inhofe. Secretary Panetta, what specific steps have 
been taken that address the major findings from the DOD internal review 
of the Benghazi attacks?
    Secretary Panetta. As I mentioned, DOD conducted an exhaustive 
review of the Benghazi events and the experience did provide a number 
of lessons on how DOS and DOD personnel in the field interact when U.S. 
facilities and personnel are at risk overseas. We fully support the 
recommendations of the ARB. We stand ready to assist in the 
implementation of these recommendations.

    35. Senator Inhofe. Secretary Panetta, are there any steps which 
DOD would like to take but feels it does not possess enough resources 
to execute or implement?
    Secretary Panetta. One of the greatest security risks we are now 
facing as a Nation is that this budget uncertainty could prompt the 
most significant military readiness crisis in more than a decade. This 
would badly damage our national defense and compromise our ability to 
respond to crises in a dangerous world. Compounding this risk on the 
African continent is the lack of basing and the inability to place 
facilities in African countries. Most of the limited resources we have 
that are dedicated to AFRICOM reside in southern Europe or are afloat.

                 distance and response time challenges
    36. Senator Inhofe. Secretary Panetta, although specific 
information regarding an attack on the Benghazi facilities was not 
sufficient to increase the alert level of forces that could intervene 
in a timely manner, there were numerous indications of increased risk 
across Northern Africa in general. During the hearing, I mentioned 
several incidents of violence that occurred across Libya, including in 
Benghazi. Additionally, you remarked ``we were also concerned about 
potential threats to U.S. personnel in Tunis, Tripoli, Cairo, Sana'a, 
and elsewhere that could potentially require a military response.'' 
What modifications, if any, have been made since the time of the 
Benghazi attacks to the Commander's Critical Information Requirements 
(CCIR) as they relate to potential terrorist threats to try to improve 
the warning time available to combatant commanders?
    Secretary Panetta. The concerns I expressed regarding the events of 
September 11-12, 2012, were the result of events on the ground in the 
Middle East and North Africa. Diplomatic facilities in several 
countries were reporting actualized threats, and we had to be prepared 
for additional violence after Friday prayers the next day. Through the 
crisis, I was pleased with General Ham's awareness of the situation, 
AFRICOM's staff coordination, and their collaboration with SOCOM, the 
Joint Staff, and the Office of the Secretary of Defense. I am not aware 
of any changes made to General Ham's CCIR.

    37. Senator Inhofe. Secretary Panetta, have the indications and 
warnings used to trigger posture changes, such as changes to alert 
status and forward-basing movements, been altered for AFRICOM and/or 
EUCOM based on the large distances between the EUCOM forces and the 
AFRICOM theater and within the AFRICOM theater itself that make rapid 
response difficult?
    Secretary Panetta. Yes, AFRICOM continually analyzes, and where 
necessary, makes adjustments to its plans and capabilities. AFRICOM's 
response capabilities are challenged by the size of the continent and 
the lack of basing rights and authority to place facilities on the 
continent. As we jointly develop long-term risk mitigation measures 
with DOS, we have also made adjustments to our posture to ensure we are 
able to respond should contingencies arise.

    38. Senator Inhofe. Secretary Panetta, does DOD ever posture forces 
based on increased levels of general threats in a region, even if site-
specific intelligence may not be available?
    Secretary Panetta. I hesitate to engage in hypotheticals, since 
each high-threat situation is unique and will require a tailored 
response from the U.S. Government. Our threat review process in ongoing 
and DOD is able to modify our force posture in response to known and 
assessed potential threats. We do not require intelligence specific to 
a single site in order to change our force posture; we may adjust on 
threats to multiple sites.

    39. Senator Inhofe. Secretary Panetta, given that Benghazi is 
relatively more accessible than the majority of the AFRICOM AOR, what 
initiatives, if any, are being pursued to improve strategic access to 
AFRICOM (e.g., detachments, acquisition and cross-servicing agreements, 
et cetera)?
    Secretary Panetta. AFRICOM continually evaluates and, where 
necessary, adjusts its resources and posture to enable the 
accomplishment of assigned missions. AFRICOM's response capabilities 
are challenged by the size of the continent and the lack of basing 
rights and authority to place facilities on the continent. Where we 
can, we are arranging access agreements for improved access for U.S. 
assets, but we expect most of AFRICOM's resources will continue to 
reside in southern Europe or afloat for the foreseeable future.

                   fleet antiterrorism security teams
    40. Senator Inhofe. Secretary Panetta, the closest Fleet 
Antiterrorism Security Team (FAST) to Benghazi was in Rota, Spain, 
approximately 1,500 miles away. You indicated that we have taken ``a 
number of steps'' to improve our ability to respond to include having 
airlift associated with FASTs. What airlift platforms are associated 
with the FASTs (e.g., C-130s, C-17s, et cetera)?
    Secretary Panetta. Airlift platforms typically dedicated to the 
movement of Marine Corps FASTs are any of several variants of the C-
130.

    41. Senator Inhofe. Secretary Panetta, in addition to associating 
airlift with the FASTs, what additional steps have been taken to 
improve their ability to respond in a timely manner to evolving crises?
    Secretary Panetta. In addition to the enormity of staff work and 
operational considerations that have contributed to improving our 
response capability, my staff has worked closely with the Joint Staff 
and the GCCs to ensure response capabilities are aligned to potential 
requirements. Our current approach, which we are developing jointly 
with DOS, combines proactive measures such as hardening facilities and 
improving intelligence and warning, with improved response times and 
reaction posture for contingencies.

    42. Senator Inhofe. Secretary Panetta, what posture change 
procedures, if any, have been made with respect to FASTs for response 
to remote locations in Africa, especially Central, Western, and 
Southern Africa, given the extreme distances that need to be traveled 
if FAST intervention is required?
    Secretary Panetta. There are several changes that occur in the wake 
of a security crisis--both immediate and the enduring. Our immediate 
reaction in the wake of crisis involves posturing assets to support 
operational requirements and in anticipation of an increased demand 
signal. In September, we moved naval assets such as the USS Iwo Jima 
and the USS New York with their Marine Expeditionary Units from the 
Arabian Sea to the Mediterranean. We also deployed ground assets (a 
Stryker Battalion) from Europe and positioned Special Operations 
Elements for possible action. To create a more enduring change, we are 
working closely with GCCs to ensure DOD assets and forces can respond 
to protect American facilities and personnel overseas, as well as 
working with DOS to integrate our posture and other factors (e.g., 
distance and time) into their planning.

    43. Senator Inhofe. Secretary Panetta, given the extreme distances 
involved, has there been any effort or are there any plans to station a 
FAST in AFRICOM's AOR, and if so, what obstacles and challenges have 
been encountered?
    Secretary Panetta. The inherent challenge to operating in Africa is 
sustainment. The distances associated with movement are just one 
consideration that is universal in planning for operating on the 
continent. Our previous experiences in Africa--particularly in East 
Africa--have demonstrated the value in developing strong, capable 
partners in the region. While we continuously look for ways to increase 
our access in the region, we are not presently considering stationing a 
FAST in Africa. We are, however, committed to identifying threats where 
they exist and where they are developing as well as ensuring our forces 
are prepared to respond to these threats.

      general ham's offer of assistance to the department of state
    44. Senator Inhofe. General Dempsey, well before the attacks on 
Benghazi, according to you, General Ham offered to extend the stay in 
Libya of the special security team ``and was told no'' by DOS. What 
reason was General Ham given as to why the offer to extend the special 
security team was denied by DOS?
    General Dempsey. We asked DOS's intentions regarding requesting an 
extension of the 16-man Site Security Team, noting that the Joint Staff 
would support the request but would need time to gain necessary 
approvals. In their response to the Joint Staff, DOS stated they were 
not requesting an extension of the site security team beyond the August 
date and were in the process of integrating local security into U.S. 
Embassy Tripoli operations.

    45. Senator Inhofe. General Dempsey, what forces, if any, did 
General Ham request be placed on increased alert after the initial 
attack on Benghazi that occurred at approximately 9:40 p.m. Benghazi 
time?
    General Dempsey. With the approval of the Secretary of Defense, 
General Ham ordered the CIF, which was conducting training in Croatia, 
to move to Sigonella, Italy, and subsequently to Souda Bay. 
Additionally, one FAST platoon was ordered to Benghazi and one FAST to 
Tripoli. On 12 September, one FAST deployed to Tripoli, and with all 
personnel evacuated from Benghazi, the other moved to Souda Bay, Crete, 
to posture in response to any additional regional unrest.

    46. Senator Inhofe. General Dempsey, did DOS ask for assistance in 
securing the attack site after the Americans had been evacuated to 
facilitate the post-incident investigation?
    General Dempsey. I am not aware of any formal or informal request 
to secure the attack site. The Federal Bureau of Investigation (FBI) 
did request support to travel to Benghazi to support their 
investigation.

    47. Senator Inhofe. General Dempsey, did General Ham offer to help 
secure the Benghazi site after the attack in order to facilitate timely 
investigation of the incident to improve pursuit of the terrorists?
    General Dempsey. Yes.

              counterterrorism strategy in northern africa
    48. Senator Inhofe. Secretary Panetta, the January 2012 Defense 
Strategic Guidance (DSG) directed low-cost and small-footprint 
approaches to achieve our security objectives in Africa and Latin 
America. Does the growing terrorist threat in Africa, and the lack of 
warning of this attack in Benghazi, indicate we are under-resourcing 
our counterterrorism efforts in Northern Africa?
    Secretary Panetta. I think the growing terrorist threat in Africa 
and the lack of warning of the attack in Benghazi suggest we need to do 
more to understand the threat and, by extension, continue to refine our 
assessment of the resourcing of U.S. counterterrorism efforts in 
Northern Africa. The low-cost and small-footprint approach is largely 
driven by the access and placement enjoyed by host nation personnel. 
Our strategic security objectives in many parts of the world, 
particularly in Africa, are best achieved by, with, and through partner 
nations. Increasing our understanding of the threats there, and further 
assisting our partners to counter that threat, is a sound way ahead for 
the United States.

    49. Senator Inhofe. Secretary Panetta, in addition to our support 
of the French in their fight against terrorists in Mali, what other 
steps is DOD taking to address the growing terrorist threat in Northern 
Africa?
    Secretary Panetta. We are working to deny safe haven to al Qaeda in 
the Lands of the Islamic Maghreb (AQIM), and to other affiliated 
violent extremist organizations, to prevent attacks on U.S. interests. 
The United States is working with regional partners to reduce the 
cross-border flows of weapons and fighters, and to help these countries 
degrade AQIM and build the capacity of partner nations in the region. 
The U.S. Government has very good cooperation with the countries of the 
region--especially Mauritania, Niger, and Chad--and is helping to 
develop the capabilities of those countries to pursue shared 
objectives.

    50. Senator Inhofe. Secretary Panetta, given the surprise 
associated with the attacks in Benghazi, is DOD rethinking our approach 
to noncombatant evacuation operations in less accessible regions, such 
as Western, Central, and Southern Africa?
    Secretary Panetta. DOD has strengthened its relationship with the 
Departments of State and Health and Human Services to ensure that all 
of the Departments understand their roles and responsibilities during 
evacuation operations. DOD recently (February 26, 2013) issued updated 
guidance DOD Directive 3025.14 ``Evacuation of U.S. Citizens and 
Designated Aliens from Threatened Areas Abroad.'' The new guidance has 
eliminated confusing language on when we can conduct noncombatant 
evacuation operations and directs all GCCs to draft, plan, and exercise 
evacuation and reception plans with the goal of being able both to 
evacuate and receive noncombatants regardless of the situation. This 
change directly addresses situations like Benghazi and gives DOD more 
flexibility when conducting an evacuation operation.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                  request to extend site security team
    51. Senator Chambliss. General Dempsey, during the hearing, you 
remarked that ``General Ham actually called the Embassy to see if they 
wanted to extend the special [site] security team (SST) there and was 
told no,'' and you went on to say this request was in the Benghazi ARB 
results. While I do not doubt General Ham made the request, the 
exchange is not in the ARB. When did General Ham ask to extend the SST 
and who did he ask?
    General Dempsey. Our support to U.S. Embassy Tripoli had been 
ongoing since September 2011. The SST originally deployed for 120 days 
and was subsequently extended twice in response to DOS requests. The 
SST was not a standard security team configuration and was specifically 
created to meet the needs of DOS reestablishment of U.S. Embassy 
Tripoli. The combatant commander and my staff were in periodic contact 
with DOS to determine the progress of embassy reestablishment and what 
the continuing security requirement was. As coordinated with DOS, the 
SST mission was complete August 3, 2012. During the 11 months of DOD 
support to DOS, we only received requests to provide security at the 
U.S. Embassy in Tripoli, not the consulate in Benghazi.

    52. Senator Chambliss. General Dempsey, who turned down the request 
and what reasons were given for not extending the SST?
    General Dempsey. In an email exchange on July 11 and 13, 2012, the 
Joint Staff notified DOS that the DOD SST deployment authorization was 
set to expire on August 4, 2012. We asked what DOS's intentions were 
regarding requesting an extension of the 16-man SST, noting that the 
Joint Staff would support the request but would need time to gain 
necessary approvals. In their response to the Joint Staff, DOS stated 
they were not requesting an extension of the SST beyond the August date 
and were in the process of integrating local bodyguards into Embassy 
Tripoli operations.

                             threat stream
    53. Senator Chambliss. General Dempsey, in your testimony during 
the hearing, you comment in regards to the attacks on Benghazi that 
``looking back at it, of course it looks like it should have been 
crystal clear that there was an attack imminent.'' When questioned, you 
stated there were similar threat streams and hostile acts at the 
Embassy at Yemen. You strengthened the security of the Yemen Embassy 
based upon the request from the Ambassador, yet absent a request from 
the DOS, no similar measures were provided in Libya. In the future, if 
threat streams and significant activities are present in vicinity of an 
American mission that indicates an imminent attack, will you take a 
proactive role to recommend and provide additional security measures?
    General Dempsey. DOD is developing new approaches to work with DOS 
to protect U.S. personnel and activities. As before, DOS remains the 
lead for the security of our diplomatic missions and DOD will continue 
to support. But recognizing that security situations can evolve 
quickly, DOD is looking at ways to emphasize proactive capabilities. 
Our combatant commanders are assessing ways that we can provide early 
reinforcement of threatened U.S. facilities as well as posture military 
forces within the GCCs to respond to increasing indications and 
warnings of an attack. The Departments will continue to share and 
monitor indications and warnings at all locations in order to increase 
force protection levels, provide DOD security augmentation early, and 
begin the process of ordered departures and reductions in staff to 
proactively reduce the risk to U.S. citizens and facilities as 
situations develop. When indicated by situations and warnings, the GCCs 
will adjust the alert postures of their security augmentation forces.

    54. Senator Chambliss. General Dempsey, in an era of tightening 
budgets, it is imperative we take a holistic view of this security 
problem. How do you ensure the interagency process works to coordinate 
effectively the whole of U.S. Government resources in order to provide 
adequate security at our diplomatic missions in high-threat/high-risk 
areas?
    General Dempsey. DOD is developing new approaches to work with DOS 
to protect U.S. personnel and activities. DOS remains the lead for the 
security of our diplomatic missions and DOD will continue to support. 
But recognizing that security situations can evolve quickly, DOD is 
looking at ways to emphasize proactive capabilities. Our combatant 
commanders are assessing ways that we can provide early reinforcement 
to threatened U.S. facilities as well as posture military forces within 
the GCCs to respond to indications and warnings of an attack. In 
addition to GCCs regularly engaging with Chiefs of Mission on security 
issues, we will also work with DOS to increase emphasis on host nation 
security arrangements and capabilities.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                          requests for support
    55. Senator Ayotte. Secretary Panetta and General Dempsey, did 
General Ham make any request for assets or support that were denied by 
you or anyone in the DOD chain of command?
    Secretary Panetta. No.
    General Dempsey. No.

    56. Senator Ayotte. Secretary Panetta and General Dempsey, did the 
individuals on the ground in Benghazi make any requests for support 
that were denied?
    Secretary Panetta. No requests made to DOD were denied. Before, 
during, and after the attack, every request DOD received was met.
    General Dempsey. No, DOD met all requests made by DOS.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
   department of veterans affairs unified health care records system
    57. Senator Blunt. Secretary Panetta, you responded to Senator 
Blumenthal about recent reports regarding the abandonment of the 
unified health care records system. What is DOD doing to ensure the $1 
billion devoted to this integrated electronic recordskeeping system is 
not going to be wasted?
    Secretary Panetta. Both DOD and the Department of Veterans Affairs 
(VA) have confirmed their continuing commitment to delivering an 
integrated Electronic Health Record (iEHR) for all servicemembers and 
veterans. DOD and VA have been working on two very important efforts 
simultaneously. First, we are committed to ensuring that all health 
data for an individual can be brought together into a seamless 
electronic health record (EHR). Second, we are both committed to 
modernizing and replacing our legacy health information technology 
systems. While the plan had been to design, build, and implement a 
single new system, a combination of cost, schedule, and risk factors, 
as well as advancements in the commercial EHR marketplace, all 
contributed to the need to reassess our way ahead. This is an 
opportunity to reduce risk and achieve the intended result at a reduced 
cost to the taxpayers and is not intended to be a less comprehensive 
solution. Our shift in strategy is not a departure from purpose but 
rather a refinement in the route we will take to get there. We took a 
step back and found we could make important changes to simplify the 
program and maximize our chances of success, cut costs, and get the 
benefits to veterans and servicemembers sooner. By doing so, we believe 
that our servicemembers, veterans, and all taxpayers win.
    Since March 2011, DOD and VA have spent approximately $350 million, 
not $1 billion, to develop and pilot capabilities to facilitate the 
exchange of information between us and to improve the information 
accessible to doctors and patients in both DOD and VA medical systems. 
The important work that has been done over the past few years remains a 
crucial part of our planned way ahead and is not wasted.

    58. Senator Blunt. Secretary Panetta, what is DOD's plan to ensure 
a comprehensive EHR for servicemembers?
    Secretary Panetta. Both DOD and VA have confirmed their continuing 
commitment to delivering an iEHR for all servicemembers and veterans. 
In the near-term, we are focusing on data interoperability to ensure 
that all health data for an individual is brought together into a 
seamless EHR. This data interoperability work will be completed by 
2014, creating a Virtual Lifetime Electronic Record for all 
servicemembers and veterans, thus achieving the President's vision of 
every separating servicemember having his or her information available 
for a smooth transition to veteran status, whether it is to coordinate 
the delivery of health care or achieve rapid adjudication of benefits. 
In addition to this work, we are also committed to modernizing and 
replacing our underlying legacy health information technology systems 
in as cost effective a manner as possible.
                                 ______
                                 
             Questions Submitted by Senator Michael S. Lee
         communication with the president and secretary clinton
    59. Senator Lee. Secretary Panetta and General Dempsey, how many 
times did you talk with Secretary Clinton about Benghazi before the 
attack?
    Secretary Panetta. I do not recall discussing the security of our 
facilities in Benghazi with Secretary Clinton prior to the attacks.
    General Dempsey. We had regular meetings to discuss global threats, 
including the security situation in North Africa and Libya, in 
particular, prior to the Benghazi attack.

    60. Senator Lee. Secretary Panetta and General Dempsey, was there 
any mention of a need for increased security?
    Secretary Panetta. No requests for additional security were made to 
DOD.
    General Dempsey. There were ongoing discussions within the 
interagency about the security situation. I was aware of concerns about 
security in Libya through General Ham's reporting. After the DOS 
decision to not extend the SST in Libya, there was no request for 
additional DOD security forces.

    61. Senator Lee. Secretary Panetta and General Dempsey, do you feel 
that you should have talked with Secretary Clinton more?
    Secretary Panetta. I am sure that all of us wish we had better 
information, warning, and time to work together to avoid this tragedy.
    General Dempsey. I discussed security in the Middle East and North 
Africa with Secretary Clinton on multiple occasions.

    62. Senator Lee. Secretary Panetta and General Dempsey, should you 
have encouraged Secretary Clinton to increase security?
    Secretary Panetta. I am sure that all of us wish we had better 
information, warning, and time to work together to avoid this tragedy.
    General Dempsey. We were aware of the security challenges in 
Benghazi, but rely foremost on DOS's regional security officers to 
assess the threats and develop emergency action plans. Defense attaches 
are integrated into this process and make recommendations as well.

    63. Senator Lee. Secretary Panetta and General Dempsey, once the 
attack started, did you ever communicate with Secretary Clinton?
    Secretary Panetta. Yes.
    General Dempsey. Not directly. But, through the National Joint 
Operations and Intelligence Center (NJOIC) we were monitoring and 
coordinating with DOS and regional commanders throughout the night.

    64. Senator Lee. Secretary Panetta and General Dempsey, what about 
the President?
    Secretary Panetta. Yes.
    General Dempsey. Secretary Panetta and I had a previously scheduled 
meeting with the President at 5 p.m. and discussed the Benghazi attack 
with him during this meeting.

    65. Senator Lee. Secretary Panetta and General Dempsey, at what 
point did your communications stop with them?
    Secretary Panetta. I continued my communication with the President 
and with Secretary Clinton regularly.
    General Dempsey. I did not talk directly to the President again 
that evening. However, the NJOIC continued to coordinate with the White 
House Situation Room throughout that night and until all our personnel 
were evacuated from Benghazi.

    66. Senator Lee. Secretary Panetta and General Dempsey, what time 
did you go to sleep?
    Secretary Panetta. I don't recall the exact time, but I received 
regular updates on the situation throughout the night.
    General Dempsey. Sometime after midnight when I was notified that 
all Americans were evacuated from the annex and the first wave was 
transported to Tripoli. I was also briefed when the second wave 
departed Benghazi for Tripoli around 4 a.m.

    67. Senator Lee. Secretary Panetta and General Dempsey, how 
frequently were you updated on what was occurring in Benghazi from the 
initial attack?
    Secretary Panetta. I was personally updated on the Benghazi 
situation several times daily.
    General Dempsey. The Deputy Director of Operations through the 
NJOIC provided regular updates. The watch team provided senior leader 
updates to the Secretary of Defense, the Chairman, and Joint Staff 
leaders frequently as significant reporting occurred. Additionally, the 
Joint Staff stood up a crisis management team to augment the NJOIC 
through October 1, 2012. This team provided 24/7 monitoring focused on 
the events in Libya, as well as ongoing regional unrest near U.S. 
Embassies in Tunisia, Sudan, and Yemen.

    68. Senator Lee. Secretary Panetta and General Dempsey, when did 
you stop receiving updates regarding the safety and security of 
Americans in Benghazi?
    Secretary Panetta. I first received word less than 1 hour after the 
attack in Benghazi. I continue to receive regular updates regarding 
Americans in Libya.
    General Dempsey. When they were evacuated back to Tripoli and then 
out of Libya. However, I continued and continue today to receive 
updates on our regional posture in North Africa.

    69. Senator Lee. Secretary Panetta and General Dempsey, did anyone 
ever recommend to the President in your short meeting with him that we 
should send troops into Benghazi? If so, what was his reaction?
    Secretary Panetta. As I stated during my testimony before the 
committee, the President ordered all available DOD assets to respond to 
the attack in Libya and to protect U.S. personnel and interests in the 
region. The President was not advised to commit conventional troops to 
Libya.
    General Dempsey. Upon hearing these initial reports, the President 
ordered us to use all available DOD assets to respond to the attack and 
save the lives of U.S. personnel in Libya and to protect U.S. personnel 
and interests throughout the region.
    The Secretary of Defense ordered two Marine Corps FAST platoons 
from Rota, Spain--one to Tripoli, one to Benghazi; a special operations 
team from EUCOM that was conducting a training mission in Central 
Europe; and a special operations task force from the east coast of the 
United States. These forces were ordered to muster and move to an 
intermediate staging base. Before they arrived in place, the attack in 
Benghazi had concluded.

                      embassy security procedures
    70. Senator Lee. Secretary Panetta and General Dempsey, once an 
American compound is attacked by terrorists, as was Benghazi, who is in 
command of the rescue and secure mission?
    Secretary Panetta. The Secretary of State is responsible for the 
security of diplomatic facilities abroad. If a military operation to 
rescue personnel or secure a facility under attack were to be 
undertaken, the officials in the military chain of command, including 
the relevant GCC, would typically command such an operation.
    General Dempsey. DOS is responsible for diplomatic security. DOD 
can be requested or directed to take the lead for activities such as a 
rescue operation. Once DOD is in the lead then the GCC is in charge. 
The GCC is responsible for military operations to provide rescue or 
security; however, the commander of the rescue team or on-scene 
commander would exercise tactical command and control for the mission. 
That on-scene commander and those rescue forces could be resourced from 
myriad choices including but not limited to the GCC's CIF, Special 
Purpose Marine Ground Task Force, or a crisis response force that the 
commander deems necessary to employ.

    71. Senator Lee. Secretary Panetta and General Dempsey, who runs 
point on overseeing the evacuation of Americans?
    Secretary Panetta. During an evacuation, the U.S. Ambassador is the 
senior U.S. Government authority for the evacuation. Historically, when 
the Ambassador orders the departure of personnel, DOS accomplishes the 
majority of evacuations using commercial transportation (scheduled or 
chartered). However, DOS may request DOD assistance based on the nature 
of the threat or the lack of availability of alternative forms of 
transportation. When DOS requests DOD assistance in an evacuation, the 
Secretary of Defense authorizes the Chairman of the Joint Chiefs of 
Staff to coordinate the deployment and employment of U.S. forces in 
support of an evacuation. The Chairman then monitors U.S. force 
participation in the protection and evacuation of noncombatants.
    General Dempsey. The evacuation of Americans is a DOS 
responsibility. DOD will provide support upon request from DOS.

    72. Senator Lee. Secretary Panetta and General Dempsey, why were 
U.S. military base alert levels not on high alert, despite the 211+ 
warnings of attacks on U.S. property and personnel abroad?
    Secretary Panetta. The U.S. military's alert posture is based on 
specific and credible intelligence. Our base alert posture was 
reflective of the assessed threat level.
    General Dempsey. Each GCC's staff conducts ongoing threat analysis 
and assessments for bases within the GCC's AOR. As a result of this 
analysis and resulting decisions, U.S. facilities in more than 16 
countries across the Middle East and North Africa were operating under 
heightened force protection levels. All GCCs had conducted extensive 
threat assessments and had postured forces accordingly; however, there 
was no specific intelligence regarding an attack on a particular 
military base.

    73. Senator Lee. Secretary Panetta and General Dempsey, because we 
couldn't get to Libya in time, how do we plan on protecting other 
embassies in Africa?
    Secretary Panetta. DOD is prepared to respond to requests for 
support to our embassies in Africa, and has responded to DOS requests 
on the continent since the attack in Benghazi. DOD continues to work 
with DOS to mitigate future risks, particularly through increasing our 
intelligence and warning efforts, supporting the hardening of 
diplomatic facilities, and developing proactive security support for 
posts, when needed.
    General Dempsey. Regardless of location, security is foremost the 
responsibility of the host nation working with the U.S. mission and 
through the regional security officer. As threats emerge, we assess 
them closely within the interagency to determine the appropriate 
response. DOD may posture forces in response to these threats or in 
response to requests from DOS. The North African region presents 
significant challenges due to its sheer size, the potential for rapidly 
occurring instability, and access requirements for our forces. 
Recognizing that security situations can evolve quickly, DOD continues 
to examine ways, working within the interagency, to emphasize proactive 
capabilities and to be responsive to emergent threats.

    74. Senator Lee. Secretary Panetta and General Dempsey, what 
recommendations do you have to DOS in order to bolster security?
    Secretary Panetta. We fully support the recommendations of the ARB, 
which former Secretary Clinton accepted. We stand ready to assist in 
the implementation of these recommendations.
    General Dempsey. DOD partnered with DOS to conduct assessments of 
high risk diplomatic facilities. The recommendations are being 
implemented.

    75. Senator Lee. Secretary Panetta and General Dempsey, do you feel 
that it should be DOD that is responsible to protect embassies and U.S. 
officials overseas?
    Secretary Panetta. I believe DOD has a responsibility to protect 
U.S. embassies and officials overseas when our support is requested by 
DOS. The responsibility for assessing when that support is needed 
resides with the Secretary of State. DOD personnel can and do 
contribute to the overall intelligence picture that is produced by the 
Intelligence Community, which informs these assessments.
    General Dempsey. DOS is the appropriate lead for embassy security 
overseas, and DOD will continue to work closely with DOS to provide 
support on request.

    76. Senator Lee. Secretary Panetta and General Dempsey, who made 
the decision to wait 23 days before entering Benghazi after the attack 
to secure the compound?
    Secretary Panetta. This was not a DOD decision; we provided 
security support to the FBI's investigatory trip to Benghazi when 
requested.
    General Dempsey. The FBI was the lead on the investigation.

    77. Senator Lee. Secretary Panetta and General Dempsey, when did 
you recommend to the President that U.S. personnel be sent to secure 
the compound and what was his response?
    Secretary Panetta. DOD supported the FBI movement to the compound 
upon receipt of an official request from the FBI. The details of this 
support are classified.
    General Dempsey. When the FBI decided to go into the compound, they 
asked us to provide security, and we did. We were not asked to provide 
security at the compound before then, and I did not make a 
recommendation to the President to do so.

                                 ______
                                 
    [Appendixes A through D follow:]

  APPENDIX A--DEPARTMENT OF DEFENSE PRESS RELEASE REGARDING DETAILED 
                                TIMELINE

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

  APPENDIX B--RESPONSE TO A CONGRESSIONAL REQUEST FOR A TIMELINE AND 
                           ENCLOSED TIMELINE

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
   APPENDIX C--REPORT OF THE ACCOUNTABILITY REVIEW BOARD FOR BENGHAZI

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              

  APPENDIX D--SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL 
                       AFFAIRS REPORT ON BENGHAZI

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
      
    [Whereupon, at 2:26 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
